<html>
<title> - IMMIGRATION BENEFITS VETTING: EXAMINING CRITICAL WEAKNESSES IN USCIS SYSTEMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
 IMMIGRATION BENEFITS VETTING: EXAMINING CRITICAL WEAKNESSES IN USCIS 
                                SYSTEMS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 2017

                               __________

                            Serial No. 115-8

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
       
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
      
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-906 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
      
      
      

                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
              Kathleen Crooks Flynn,  Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
Jeff Duncan, South Carolina          J. Luis Correa, California
Tom Marino, Pennsylvania             Kathleen M. Rice, New York
John Ratcliffe, Texas                Nanette Diaz Barragan, California
Clay Higgins, Louisiana              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Ryan Consaul, Subcommittee Staff Director
      Erica D. Woods, Interim Subcommittee Minority Staff Director
      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Oversight and Management Efficiency:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Ms. Lori Scialabba, Acting Director, U.S. Citizenship and 
  Immigration Services, U.S. Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    11
Ms. Carol C. Harris, Director, Information Technology Acquisition 
  Management Issues, U.S. Government Accountability Office:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. John Roth, Inspector General, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30

                             For the Record

The Honorable Nanette Diaz Barragan, a Representative in Congress 
  From the State of California:
  USCIS Will Temporarily Suspend Premium Processing for All H-1B 
    Petitions....................................................    46

                                Appendix

Questions From Subcommittee Chairman Scott Perry for Lori 
  Scialabba......................................................    55
Questions From Ranking Member Bennie G. Thompson for Lori 
  Scialabba......................................................    56
Questions From Chairman Scott Perry for Carol C. Harris..........    57
Questions From Ranking Member Bennie G. Thompson for Carol C. 
  Harris.........................................................    61
Questions From Chairman Scott Perry for John Roth................    67
Questions From Ranking Member Bennie G. Thompson for John Roth...    68


 IMMIGRATION BENEFITS VETTING: EXAMINING CRITICAL WEAKNESSES IN USCIS 
                                SYSTEMS

                              ----------                              


                        Thursday, March 16, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
                             Subcommittee on Oversight and 
                                     Management Efficiency,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:34 a.m., in 
room HVC-210, Capitol Visitors Center, Hon. Scott Perry 
(Chairman of the subcommittee) presiding.
    Present: Representatives Perry, Duncan, Ratcliffe, Higgins, 
Correa, Rice, and Barragan.
    Mr. Perry. The Committee on Homeland Security Subcommittee 
on Oversight and Management Efficiency will come to order.
    The purpose of this hearing is to examine weaknesses in 
critical systems and processes at the Department of Homeland 
Security, or DHS's U.S. Citizenship and Immigration Services, 
the USCIS, that vet and adjudicate immigrant and nonimmigrant 
applications.
    The Chair now recognizes himself for an opening statement.
    Last month this subcommittee held a hearing on the 
challenges faced by the Department of Homeland Security, DHS, 
in reining in--correction--bureaucratic waste, inefficiency, 
and mismanagement. In today's heightened threat environment DHS 
must have necessary systems in place to execute its mission, 
especially with regard to immigrant vetting.
    The United States Citizenship and Immigration Services 
plays an essential role in processing millions of applications 
each year for people requesting permanent or temporary entry 
into the United States. However, watch dogs repeatedly voice 
concerns about USCIS's management of the critical information 
technology systems used to process these applications and found 
instances of fraud in everything from asylum to immigration 
investor applications.
    Today's hearing will focus on findings from the DHS Office 
of Inspector General, the OIG; and the Government 
Accountability Office, the GAO; on USCIS's I.T. systems and the 
security risk from USCIS's failure to manage these efforts 
effectively.
    For example, in the last 6 months alone the OIG reported 
that USCIS should halt its plan to process naturalization 
applications through its primary system, the Electronic 
Immigration System, or ELIS, due to security concerns related 
to inadequate applicant background checks. I mean that is 
breathtaking: Told them to stop using its primary system for 
security concerns related to inadequate applicant background 
checks in this environment.
    USCIS erroneously issued about 20,000 green cards due to 
design and functionality problems with ELIS. USCIS granted 
citizenship to at least 858 individuals who had been ordered 
deported or removed under another identity because their 
digital fingerprint records were unavailable in the systems 
maintained by DHS and the FBI.
    Thing is on its own over here. Sorry.
    USCIS's ineptitude inadvertently may have granted illegal 
aliens, criminals, or even terrorists citizenship or permanent 
residency, thereby putting American lives directly at risk. But 
the problems don't end there.
    In 2015 the GAO reported that USCIS could not adequately 
detect fraud in asylum or immigration investor applications due 
to deficiencies in the ELIS system. GAO also reported that 
delayed implementation of an initiative aimed at automating 
paper-based application processes, called the Transformation 
Program, posed problems for identifying fraud.
    The GAO and the OIG further found that USCIS cannot ensure 
that applicants are vetted adequately. I mean, I just found 
that--I just find that astounding in the context that we 
currently live in regarding vetting--cannot ensure that 
applicants are vetted adequately because of the problems with 
the Transformation Program and related system.
    In fact, the GAO and the OIG collectively made over 54 
recommendations in 12 separate reports to address significant 
challenges implementing the Transformation Program.
    Unfortunately, after investing 11 years and about $1.4 
billion, USCIS has very little to show for its efforts. 
Taxpayers absolutely deserve more than a program that is a 
poster child for I.T. mismanagement and just waste. I mean, 11 
years and $1.4 billion.
    I gotta tell you, I am just going to go off the script here 
a little bit. If we handed this issue to any--I really think 
any national company that we have in your town, you know, I can 
name a few but I don't want to in my own town, but just pick 
any big national company that you are familiar with their logo 
and said, ``We need an information system to track these 
individuals that we are involved with, whether it is customers, 
whether it is vendors, or whatever.''
    It wouldn't take 11 years and $1.4 billion and still have 
nothing to show for it--nothing functional. If it did they 
wouldn't be in business anymore, right?
    Individually any of these reports would be alarming, but 
together they indicate systemic weaknesses in the way USCIS 
vets and processes immigrant application. The risks to National 
security are breathtaking and unacceptable.
    Perhaps equally concerning, however, is that USCIS at times 
has failed to take seriously these watch dog findings.
    In March 2016 the Inspector General Roth wrote the 
following to the director of USCIS with regard to the 
Transformation Program--I am going to read your statement: ``I 
would be remiss if I did not take this opportunity to express 
my disappointment at the tone and substance of your office's 
response to the audit report as well as audit staff efforts 
throughout this project. This is our sixth review of a deeply 
troubled program, which has, over its life, wasted hundreds of 
millions of dollars.
    ``USCIS has continually minimized the shortcomings of the 
program and resisted independent oversight. Non-concurrence of 
this nature with our recommendations does not appear rational. 
It is contrary to Department policy on audit resolution and 
suggests continued effort to promote disagreement for its own 
sake rather than collaboration toward the shared goal of 
promoting effectiveness and efficiency in Department 
operations.'' That ends the statement.
    Ineffective program management is one thing and has a clear 
solution. But altogether more concerning is a culture resistant 
to oversight and solutions, particularly when it provides a 
path forward and recommendations for improvements.
    Ms. Scialabba, I hope I have your commitment today and the 
commitment of your successor, when named, that the USCIS is 
willing to work constructively with the GAO, the OIG, and the 
Congress to correct long-standing deficiencies--long-standing 
deficiencies.
    Management malpractice is simply unacceptable, but 
especially when criminals and terrorists seek to exploit any 
vulnerability in our system. We are absolutely, as Americans, 
we are relying on USCIS to ensure these enemies aren't allowed 
into our country.
    The Chair now recognizes the Ranking Minority Member of the 
subcommittee, the gentleman from California, Mr. Correa, for 
his statement.
    [The statement of Chairman Perry follows:]
                   Statement of Chairman Scott Perry
                             March 16, 2017
    Last month, this subcommittee held a hearing on the challenges 
faced by the Department of Homeland Security (DHS) in reining in 
bureaucratic waste, inefficiency, and mismanagement. In today's 
heightened threat environment, DHS must have necessary systems in place 
to execute its mission--especially with regard to immigrant vetting.
    The United States Citizenship and Immigration Services (USCIS) 
plays an essential role in processing millions of applications each 
year for people requesting permanent or temporary entry into the United 
States. However, watch dogs repeatedly voice concerns about USCIS 
management of the critical information technology (IT) systems used to 
process these applications, and found instances of fraud in everything 
from asylum to immigrant investor applications.
    Today's hearing will focus on findings from the DHS Office of 
Inspector General (OIG) and the Government Accountability Office (GAO) 
on USCIS's IT systems and the security risks from USCIS failure to 
manage these efforts effectively. For example, in the last 6 months 
alone, the OIG reported that:
  <bullet> USCIS should halt its plans to process naturalization 
        applications through its primary system, the Electronic 
        Immigration System (ELIS), due to security concerns related to 
        inadequate applicant background checks
  <bullet> USCIS erroneously issued about 20,000 green cards due to 
        design and functionality problems with ELIS, and
  <bullet> USCIS granted citizenship to at least 858 individuals who 
        had been ordered deported or removed under another identity 
        because their digital fingerprint records were unavailable in 
        systems maintained by DHS and the FBI.
    USCIS's ineptitude inadvertently may have granted illegal aliens, 
criminals, or even terrorists citizenship or permanent residency--
thereby putting American lives at risk.
    But the problems don't end there. In 2015, GAO reported that USCIS 
could not adequately detect fraud in asylum or immigrant investor 
applications due to deficiencies in the ELIS system. GAO also reported 
that delayed implementation of an initiative aimed at automating paper-
based application processes, called the Transformation Program, posed 
problems for identifying fraud.
    The GAO and OIG further found that USCIS cannot ensure that 
applicants are vetted adequately because of the problems with the 
Transformation Program and related system. In fact, GAO and the OIG 
collectively made over 54 recommendations in 12 separate reports to 
address significant challenges implementing the Transformation Program. 
Unfortunately, after investing 11 years and about $1.4 billion, USCIS 
has very little to show for its efforts. Taxpayers deserve more than a 
program that's a poster child for IT mismanagement.
    Individually, any of these reports would be alarming; but together, 
they indicate systemic weaknesses in the way USCIS vets and processes 
immigrant applications. The risks to National security are 
breathtaking.
    Perhaps equally concerning, however, is that USCIS--at times--has 
failed to take seriously these watch dog findings. In March 2016, 
Inspector General Roth wrote the following to the Director of USCIS 
with regard to the Transformation Program:

``I would be remiss if I did not take this opportunity to express my 
disappointment at the tone and substance of your office's response to 
the audit report, as well as audit staff's efforts throughout this 
project. This is our sixth review of a deeply troubled program which 
has, over its life, wasted hundreds of millions of dollars . . . USCIS 
has continually minimized the shortcomings of the program and resisted 
independent oversight. Non-concurrence of this nature [with our 
recommendations] does not appear rational, is contrary to Department 
policy on audit resolution . . . and suggests continued effort to 
promote disagreement for its own sake rather than collaboration towards 
the shared goal of promoting effectiveness and efficiency in Department 
operations.''

    Ineffective program management is one thing--and has a clear 
solution; but altogether more concerning is a culture resistant to 
oversight, particularly when it provides a path forward and 
recommendations for improvement. Ms. Scialabba, I hope I have your 
commitment today that USCIS is willing to work constructively with GAO, 
the OIG, and the Congress to correct long-standing deficiencies. 
Management malpractice is unacceptable, but especially when criminals 
and terrorists seek to exploit any vulnerability in our system. We're 
relying on USCIS to ensure these enemies aren't allowed into our 
country.

    Mr. Correa. Thank you very much, Chairman Perry, for 
holding this most important and timely hearing.
    Thank the witnesses for being here today. Good morning.
    Ms. Scialabba, I understand that you will be retiring at 
the end of this month after a 33-year career. On behalf of the 
folks--citizens of this great country, thank you very much for 
a career. Muchas gracias. Well done.
    While I appreciate your participation today in today's 
proceedings, I am disappointed that the Department did not send 
the USCIS chief information officer to provide the subcommittee 
with direct testimony about the agency's information 
challenges--I.T. challenges.
    Let me go off-script here and just say that my prior life 
as a California legislator I.T. was always a challenge, whether 
it was trying to fix the Department of Motor Vehicles or 
whatever it was. We always would contract with these companies 
that are always too big to fail, and they always failed.
    So I am hoping to hear your perspective and those of the 
panelists here as to maybe a different approach we might be 
taking in terms of purchasing our software, our information 
systems, that make sense as opposed to going with the one-fits-
everything and end up with failure.
    Let me go back on script. President Trump is engaged in an 
active campaign at the present to change the paradigm of our 
Nation's immigration system from family unification, admitting 
skilled workers, protecting refugees, and promoting diversity 
to a merit-based approach where only individuals deemed as 
having potential to contribute to our economy would be 
admitted.
    So, given this paradigm, I am very surprised that the 
President wants to suspend the processing of the H-1B visas. I 
look forward to engaging you about this decision that no longer 
offers these applicants--very skilled applicants--a shorter 
wait time for their program in order to be admitted into the 
United States.
    I also would like to hear your comments and engage you on 
the Muslim ban order. Under the ban not only are individuals 
from six majority-Muslim nations prohibited from receiving 
visas to travel to the United States, but also all refugee 
processing has been suspended.
    Given the critical role the USCIS plays in refugee 
processing, which does include a vetting process, and which I 
believe is probably one of the best if not the best in the 
world, I would like to ask what else can we do to better vet 
these individuals, these refugees, as they come to the United 
States?
    One of my prior lives I did some work with the U.S. 
Department of State at Foggy Bottom, and I can tell you those 
people, when I worked with them, were some of the most 
qualified, most educated, most highly-skilled Federal workers 
that I have come across. So, given their qualifications, given 
our vetting process, what else can we do to further vet these 
individuals that we are not doing today?
    Also, I am very concerned with the President's proposed 
budget, which is expected to prioritize building a wall on our 
Southern Border. I am concerned not because of the wall itself 
but because of historical perspective.
    Twenty years ago our country was very successful in 
stopping the drug trade through the Caribbean; that only 
shifted the drugs and other negative elements through the 
inland.
    Now we are proposing to strengthen the Southern Border 
without looking at the Northern Border.
    In this committee--not this subcommittee, but in this 
committee--recently our admiral of the Coast Guard stated that 
last year the U.S. Coast Guard identified 500 special interest 
targets moving from South America into the United States. Of 
those 500 targets, none of them could be touched because the 
Coast Guard lacked the resources to stop them from coming to 
the United States.
    Yet, under our President's budget we are going to cut the 
Coast Guard's budget by 10 percent. Not quite sure how that 
helps stop drugs coming into this country.
    Next, as you know, in 2006 USCIS initiated an effort to 
modernize our paper-based immigration processing system via the 
Transformation Program. Again, I look forward to hearing from 
you how we can make this a smoother system. Personally, about 
20 years ago I had the honor of processing my uncle--God rest 
in peace--his citizenship application.
    His attorney filled out the application once, filled it 
twice, and then a third time. Then on the third time, as an 
attorney I personally drove to the Los Angeles office to find 
out what was going on.
    A very nice immigration officer took me aside and said, 
``Let's see if we can find that third application.'' They found 
half of it; the other half was missing. Literally they had 
taken my file that I put together and they had--somebody had 
torn it in half or half of it had been lost.
    Thank goodness that immigration officer said, ``Sir, step 
aside over here. Here is a new application. I am going to give 
you 3 hours. Go into the cafeteria, fill it out, then come 
back.''
    So I think it is important that we go digital, that we 
streamline the application process. But again, coming back to 
my prior statements, which are how do we come up with a better 
purchasing plan for your Department in terms of I.T.? Instead 
of going out and signing these big contracts with these big 
firms that are too big to fail, how we can break it down into 
smaller pieces and be able to digest our needs in terms of your 
agency.
    With that being said, I look forward to hearing the 
testimony not only from you but from the other witnesses how we 
can make Government more effective, more efficient; make sure, 
as our Chairman has said, those individuals that are not--
should not be eligible to become citizens or residents don't 
become residents; and those that have worked hard to earn those 
privileges should have the right to have them as quickly as 
possible.
    Thank you very much.
    [The statement of Ranking Member Correa follows:]
               Statement of Ranking Member J. Luis Correa
                             March 16, 2017
    President Trump is engaged in an active campaign to flip the 
paradigm for our Nation's immigration system from family reunification, 
admitting skilled workers, protecting refugees, and promoting diversity 
to a merit-based approach where only individuals deemed as having 
potential to contribute to our economy would be admitted.
    Given where this President wants to take immigration, I was 
surprised and disappointed by the announcement earlier this month by 
the Trump administration that it was suspending premium processing of 
H-1B visas.
    I look forward to engaging with Ms. Scialabba about this decision 
to no longer offer applicants the option of shorter wait times for a 
program that helps bring in skilled foreign workers in a range of 
industries, from technology to health care.
    I also look forward to engaging the witnesses on the implementation 
of the proposed ``Muslim Ban'' Executive Order.
    The ``Muslim Ban,'' which was slated to begin today, was blocked by 
two Federal judges hours before its commencement.
    Under the ban, not only are individuals from six majority Muslim 
nations prohibited from receiving visas to travel to the United States, 
but also all refugee processing is suspended.
    Given the critical role that USCIS plays in refugee processing, 
which includes a vetting process that is arguably the most security-
forward in the world--I look forward to engaging with Ms. Scialabba on 
the prospect of a refugee moratorium.
    It is not lost on me that even as the President looks to suspend 
visas to entire populations of people to keep his ``Muslim Ban'' 
campaign promise and promotes the idea that our immigration system 
should be merit-based only, the company that bears his name is seeking 
visas for seasonal low-skilled foreign workers from USCIS.
    I am concerned that the President's forthcoming budget, which is 
expected to prioritize building a border wall on the Southwest Border 
and covering immigration enforcement and detention costs for millions 
of undocumented immigrants will give USCIS--a largely fee-based 
agency--a short shrift.
    In 2006, USCIS initiated efforts to modernize its paper-based 
immigration processing system via the Transformation Program.
    The Transformation Program has been plagued with issues, including 
implementation schedule delays, system user errors, and increased costs 
due to strategy changes.
    A component of the Transformation Program, the Electronic 
Immigration System better known as ELIS, is the subject of much 
concern, after it was discovered by the DHS Inspector General that 
approximately 19,000 green cards had been issued in error, primarily 
due to technical and functional deficiencies.
    As a result, Inspector General Roth has advised USCIS to use its 
legacy system, not ELIS, until certain improvements and requirements 
have been met.
    In numerous reports, both the Government Accountability Office and 
the Inspector General have stated that USCIS needs better management, 
resources, and planning to get this program on track.
    Due to the nature and importance of this program, it is imperative 
that the Department prioritizes and improves the Transformation 
Program.
    I am concerned that policy changes advanced by this administration 
will result in reduced fees--fees that are essential to funding USCIS 
operation and cover its critical IT modernization efforts.
    The Department cannot achieve long-needed IT enhancement without 
necessary resources.
    In fact, in its High-Risk Update released last month, GAO 
acknowledged that DHS needs to ``make additional progress in allocating 
resources in certain areas, such as staffing for acquisition and 
information technology positions.''
    This progress GAO speaks of simply cannot be accomplished when 
personnel are unavailable due to hiring freezes and resources are 
diverted for building walls.
    Further, USCIS uses carryover funds from premium processing fees to 
pay for the Transformation Program.
    These resources will undoubtedly be less given the suspension of H-
1B premium processing.
    I look forward to hearing from our witnesses today an updated 
status on the Transformation Program and the improvements that are 
needed to remedy this program, particularly as it relates to better 
management and necessary resources.

    Mr. Perry. Chair thanks the gentleman.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 16, 2017
    Too often, this subcommittee convenes to discuss failures in IT 
modernization at the Department of Homeland Security.
    At some point, the Department must hold itself to a higher standard 
of performance and fix its inability to accurately deliver a program as 
promised, on time and on budget.
    Even today, the Department feels the need to not hold itself 
accountable.
    The Department chose not to send the USCIS Chief Information 
Officer, the exact individual responsible for IT functions at the 
component, to answer important questions on the status of IT at USCIS.
    It is my understanding that the subcommittee just learned of this 
decision this past Friday.
    Instead, representing USCIS today is Acting Director Lori 
Scialabba, who has provided her resignation to the Department.
    For over a decade, DHS has made attempts to modernize its paper-
based immigration process by developing an on-line tool that allows 
applicants to apply and track their status on-line, known as the 
Transformation Program.
    Unfortunately, the program has experienced a range of issues, 
including increased costs, system outages, and application processing 
errors.
    As such, the Transformation Program has been the subject of 
countless GAO reports, Inspector General investigations, and even most 
recently, an Inspector General management alert.
    The Transformation Program's main component, ELIS, has been 
suspended due to system deficiencies, including an error that resulted 
in 175 cases moving forward for processing despite incomplete 
background and security checks.
    These are major errors that cannot be overlooked or avoided, 
especially at a time when this administration is forcing a range of 
changes in policies and priorities for USCIS.
    For instance, the President wants to shift our Nation's immigration 
system from family reunification and admitting skilled workers and 
protecting refugees to a merit-based approach.
    The President has suspended premium processing of H-1B visas, which 
offers a shorter wait time for foreign workers in a range of 
industries.
    The President, through his proposed ``Muslim Ban,'' looks to 
prohibit individuals from six majority Muslim nations from receiving 
visas to travel to the United States.
    Also, the President's ``Muslim Ban'' would suspend refugee 
processing, causing America to turn its back on the most vulnerable.
    Thankfully, yesterday evening and this morning two Federal judges 
ruled to freeze the Executive Order, stating the new order failed to 
pass legal muster at this stage.
    Interestingly, while the President tries to suspend visas to entire 
populations and attempts to stifle our economy by prohibiting foreign 
workers from getting visas quickly, companies that bear his name still 
seek visas for seasonal, low-skilled workers.
    Moreover, this administration's misplaced budgetary priorities 
focus on building a wall along the Southwest Border and heightened 
immigration enforcement and detention.
    Prioritizing a wall, which does not keep us more safe and secure, 
will undoubtedly divert resources away from IT at the Department.
    I am concerned that this administration's policies will result in 
reduced fees that are essential to funding USCIS operations. Therefore, 
keeping the Transformation Program on a lifeline.
    I look forward to hearing from our witnesses today on how this 
administration's ill-advised policies will ultimately affect USCIS.

    Mr. Perry. We are pleased to have a distinguished panel of 
witnesses before us today. The witnesses' entire written 
statements will appear in the record.
    The Chair will introduce the witnesses first and then 
recognize each of you for your testimony.
    Ms. Lori Scialabba is acting director at U.S. Citizen and--
Citizenship and Immigration Services, or USCIS. Previously she 
served as the USCIS deputy director since May 2011. Prior to 
USCIS, Ms. Scialabba was on the Board of Immigration Appeals in 
the Executive Office for Immigration Review, or the EOIR, in 
the Justice Department.
    Ms. Carol Harris is a director for information technology 
acquisition management issues with the Government 
Accountability Office, the GAO. Ms. Harris leads the GAO's work 
for I.T. across the Federal Government.
    Welcome.
    The Honorable John Roth assumed the post of inspector 
general for the Department of Homeland Security in March 2014. 
Previously Mr. Roth served as the director of the Office of 
Criminal Investigations at the Food and Drug Administration, 
and as an assistant U.S. attorney for the Eastern District of 
Michigan. He is here often.
    We welcome you all. Thanks for being here today.
    The Chair now recognizes Ms. Scialabba for an opening 
statement.
    Make sure you press--thank you, ma'am.

STATEMENT OF LORI SCIALABBA, ACTING DIRECTOR, U.S. CITIZENSHIP 
 AND IMMIGRATION SERVICES, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Scialabba. Thank you, Mr. Chairman.
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee, thank you for this opportunity to discuss 
information technology systems at United States Citizenship and 
Immigration Services.
    As you said, my name is Lori Scialabba. I am the acting 
director of USCIS. I have almost 33 years of Government 
service, beginning with the Department of Justice in 1985. 
During my career at Justice I served in a number of capacities 
leading up to my appointment by Attorney General John Ashcroft 
in 2002 to chair the Department of Justice Board of Immigration 
Appeals.
    In 2006 I moved to USCIS within the Department of Homeland 
Security to serve as the associate director for refugee, 
asylum, and international operations. I also had served as the 
advisor to DHS Secretary Michael Chertoff, and more recently I 
served as the U.S. deputy director and twice as the acting 
director.
    In all of these roles I have gained a deeper appreciation 
for the complexity of the work accomplished by our employees 
and required by the immigration system. I have also seen how 
the right technology can help accomplish our mission.
    Yet, bringing our Nation's legacy paper-based immigration 
system into the digital age remains a substantial work in 
progress, and it is not simply an I.T. challenge.
    The United States has the largest immigration system in the 
world. In fiscal year 2016 alone USCIS received over 8 million 
applications filed for people wanting to live, work, invest, 
study, and seek protection in the United States.
    As a component of DHS we have a dual mission. That is to 
keep America safe and to ensure the integrity of the 
immigration system.
    I note that this hearing was called to focus on findings by 
the DHS's Office of Inspector General and the Government 
Accountability Office, including findings about our 
Transformation Program. The OIG and GAO reports have been 
helpful in providing USCIS with an independent assessment of 
our efforts and we have accepted recommendations that will 
improve the performance and efficiency of our systems.
    Indeed, in many cases we had already identified some of the 
improvements and begun implementation even before the reports 
were formally issued. It is no secret the transformation has 
not been easy. The program was launched in 2005, 2006 time 
frame with the goal of thoroughly modernizing decades of old 
I.T. systems.
    The effort began the same way as other large Government 
I.T. projects traditionally start, with a large contract 
awarded to a single system integrator to manage virtually 
everything within that project. It is known as the waterfall 
method. It is the method that the Government has used for quite 
some time, where all the improvements come all at once.
    However, before the contractor delivered the first release 
in May 2012, we realized it was not going to work. It was not 
going to address our agency's needs. It actually slowed our 
work down, what they rolled out.
    Given our experience with this first release of ELIS, the 
Electronic Immigration System, we changed our strategy. We 
brought in the same agile development that you mentioned that 
are methods that are used by leading companies in the private 
sector.
    Rather than investing years on a single contractor and 
building a monolithic system, we decided to move to smaller 
contractors and have the Government serve as the integrator and 
roll out small bits of code at a time more rapidly. We hired 
from the private sector a chief information officer who has a 
strong background in agile development, and we also developed a 
more standard approach that incorporates more open-source 
frameworks and nonproprietary software.
    Finally, we decided to move the public cloud, where we 
procure storage space and we serve on secure servers to store 
our data. These changes have enabled us to build more quickly, 
operate more efficiently, and detect and fix bugs along the 
way.
    Since 2016 we have added five product lines to ELIS. Of 
course, just like any other major I.T. launch, we anticipated 
that when we moved to this--when we moved last year to bring 
one of our most complicated products, the application for 
naturalization, the N-400, into the system that there may be 
issues.
    So USCIS leadership team was prepared to pause the roll-out 
if necessary, and that is exactly what we did when several 
problems surfaced with the N-400. I want you to understand, 
though, that the N-400 applications that were started in ELIS 
are not sitting idle. We continue to process them, and we are 
conducting 100 percent quality assurance reviews of the text 
background checks that we used to vet our applications.
    With regards to the OIG and GAO recommendations, I would 
like to provide some information on the actions that we are 
taking consistent with those findings.
    First, we incorporated the Transformation Program into our 
Office of Immigration Technology. This has allowed us to 
leverage the knowledge and talent of both of those offices. 
This is a better fit for oversight and for coordination 
purposes.
    We are also clarifying the scope of the program, especially 
when it overlaps with other agency initiatives. The goal is to 
focus on the benefit types that constitute the great majority 
of our work in order to be more responsive to the needs of our 
applicants, petitioners, and employees. We are working to fix 
the issues that prevented us from continuing to ingest the new 
naturalization cases into ELIS, and I am pleased with the 
progress that we are making.
    We are also working with USCIS leadership to clarify 
specific outcomes that we want to achieve with each process we 
bring into the electronic environment. I wanted to mention, 
too, that we have right now 25 percent of our caseload is 
actually in ELIS and is being processed in ELIS.
    We are continuing to devise metrics and monitoring tools 
that will allow us to measure our success in accomplishing 
these outcomes. Finally, we are establishing uniform standards 
for what constitutes a well-tested piece of code, and we are 
adopting more of the development tools used by major companies.
    As I prepare to conclude more than 3 decades of Government 
service, I am pleased and encouraged by the new direction that 
we are taking in building a system that can meet today's needs 
and risks and adapt enough to whatever lies ahead. We are 
fortunate that we have an extremely dedicated, extremely 
talented team addressing the issues raised by the inspector 
general and GAO.
    The American people deserve a 21st-Century immigration 
system that enables us to provide timely and accurate decisions 
while safeguarding the public and National security.
    Again, I want to thank you for the opportunity to appear 
today, and I look forward to addressing your questions.
    [The prepared statement of Ms. Scialabba follows:]
                  Prepared Statement of Lori Scialabba
                             March 16, 2017
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee, thank you for this opportunity to discuss information 
technology systems at U.S. Citizenship and Immigration Services 
(USCIS). I am Lori Scialabba, the acting director of USCIS.
    Bringing our Nation's legacy paper-based immigration system into 
the digital age remains a substantial work in progress. And it's not 
simply an IT challenge. The United States has the largest immigration 
system in the world. In fiscal year 2016 alone, USCIS received over 8 
million petitions and applications filed for people wanting to live 
here, work here, study here, invest here, bring foreign relatives or 
adopted children here, or become citizens. As a component of the 
Department of Homeland Security (DHS), USCIS has a dual mission--to 
keep Americans safe and ensure the integrity of our immigration system 
as we fulfill our promise as a Nation of immigrants.
    Given today's threats, there is no higher priority for us than 
continuing to expand and integrate our fraud detection and National 
security operations into all areas of our work. Building a technically-
reliable electronic case management system is not enough. It must 
safeguard against fraud and abuse, and ensure that immigration benefits 
are not provided to individuals who wish to do us harm.
    USCIS currently processes approximately 25 percent of casework 
through computer files rather than thick folders of paper. That's a 
significant accomplishment given our paper-bound history. We are 
committed to expanding our digital capabilities, and taking IT 
techniques from the private sector and adapting them to the immigration 
context wherever possible.
    Per your invitation letter, you have called this hearing to focus 
on findings by DHS's Office of Inspector General (OIG) and the 
Government Accountability Office (GAO), including findings about our 
Transformation program. I would like to note that 2 months ago, in 
January, the Transformation program became part of the USCIS Office of 
Information Technology (OIT), which means that our Chief Information 
Officer now has the responsibility to oversee its day-to-day operations 
to ensure it delivers value for our investment. And by that I mean the 
investment of fees paid by those seeking immigration benefits, as USCIS 
is almost entirely funded by fees.
    Over the last few months, the OIT team has conducted various 
internal assessments of the Transformation program's status, and have 
carefully reviewed the independent assessments that were conducted by 
the OIG and GAO. Based on the information gathered and knowledge of IT 
industry best practices, we have assembled a plan designed to improve 
the program's performance and ensure that it delivers on its intended 
outcomes. This approach will be discussed later in my testimony.
    Since initiating this effort USCIS has worked hard to bring 
contemporary IT practices into our environment, not just at USCIS, but 
around DHS and the rest of the Federal Government. The Transformation 
program is an excellent opportunity to take the current, most promising 
practices of industry and apply them to a large Government need.
    Transformation began in 2005-2006 as a USCIS program whose 
intention was to thoroughly modernize IT systems. The program was 
created to move the agency from a paper-based process to an electronic 
process, improve the efficiency of adjudication, provide better service 
to those seeking benefits, and adopt a person-centric view of our data. 
Such a modern and efficient system would ultimately help improve our 
National security. The original scope and purpose of the Transformation 
program was broad and vast. Unfortunately these broad intentions have 
made it difficult for the program to focus on specific business 
objectives, and to make good prioritization decisions about where to 
focus resources.
    The program began with a large contract to a single system 
integrator to manage virtually all aspects of the Transformation 
effort. In addition to building an extensive IT system, called the 
Electronic Immigration System, or ELIS, this contractor was tasked with 
leading business process re-engineering, stakeholder communications, 
training, requirements elicitation, and of course all of the 
development coding and testing. When the system integrator finally 
delivered the first release of the product, in May 2012, it was a 
radically scoped-down version of our intent and accomplished only a 
small subset of the work of a relatively narrow part of the agency's 
day-to-day mission. It actually slowed the agency's work.
    Given USCIS's negative experience with this first release of ELIS, 
we decided to make a number of changes to our strategy. First, we 
decided to replace the single large system integrator with several 
smaller contractors, and have the Government serve as the integrator. 
We devised a new contracting approach that encouraged good performance 
by the contractors through continual competition for additional work 
from us. Second, and very importantly, we changed to an agile 
development approach that allowed us to see frequent, finished work 
from the contractors, so we could make sure the project was always 
moving forward. With an agile approach, rather than waiting a long time 
for the product to be completely built and delivered before discovering 
if it works or satisfies the agency's needs, the system is constructed 
in pieces, with each part tested to make sure it works well with the 
other pieces. Third, we realized that the original design of the system 
was one of the reasons development was slow and problematic. It was 
based on integrating about 30 different proprietary products--and it 
turned out that they didn't work together very well. So we decided to 
switch to a more standard approach, based on open source frameworks 
based on non-proprietary software. Finally, we decided to move to the 
public cloud; in other words, procuring storage space on secure servers 
to store some of our data as many Federal agencies now do. These 
changes have enabled us to operate more efficiently, build more 
quickly, and detect and fix bugs along the way.
    It took several years to fully implement these changes, but with 
the new design, contracts, process, and the cloud environment, the 
program began to deliver new functionality on a regular cadence. In 
fact, it currently releases small pieces of new functionality 
approximately four times a week--a far cry from the old way of doing 
things, where releases came more on the order of annually--or in the 
case of Transformation, about 6 years for the first release.
    In November 2015, the program first launched its electronic version 
of the Application for Replacement Green Card (Form I-90) in the 
redesigned version of the system. This was a major milestone, as the 
green card replacement accounts for about 10 percent of the agency's 
workload. It was followed, in 2016, by electronic processing of 
Applications for Temporary Protected Status (Form I-821) and requests 
for Consideration of Deferred Action for Childhood Arrivals (Form I-
821D), as well as making the program the only source for collection of 
the required immigrant fee for green card processing. Altogether, these 
lines of business account for approximately 25 percent of the agency's 
workload. It is important to know that ``electronic processing'' does 
not mean that a computer makes the adjudication. It means that scanned 
versions of immigration applications and requests and supporting 
documents are ingested into our systems so an officer can view and 
process them on a computer. Our officers make the final decisions with 
the help of this electronic processing system.
    In 2016, we moved to take the next step and bring one of the 
agency's most important, but also most complicated, products into ELIS: 
The Application for Naturalization (Form N-400). We anticipated there 
could be issues, as there often are with any major IT launch. Our 
agency leadership was prepared to suspend the roll-out if necessary, 
and that is exactly what USCIS did when problems surfaced after the 
launch. In August 2016, we returned to ingesting newly filed N-400's 
into our legacy system, known as CLAIMS 4, to minimize any disruption 
in processing of naturalization applications while we corrected 
identified systems issues.
    As the Inspector General is aware, we continue to process the 
approximately 240,000 N-400 naturalization cases that were started in 
ELIS. They are not sitting idle while we await systems modifications. 
In order to ensure the integrity of the ELIS process, we are conducting 
100 percent quality assurance checks of TECS background checks in two 
ways--once through ELIS and again outside of ELIS--and then comparing 
the results to ensure consistency. In addition, we continue to monitor 
all of the background check functionality, including FBI name checks, 
and resolve any anomalies as they occur. USCIS has also recently 
established a Background Check Working Group to continually evaluate 
security check procedures and to recommend optimal background check 
approaches to be adopted agency-wide.
    USCIS has been adamant that new work will not shift back into ELIS 
until improvements are made to how ELIS handles naturalization 
processing. These include streamlining the printing and scanning 
processes, establishing a ``contingency plan'' for continuing to 
conduct interviews even if there is an ELIS outage, and formalizing 
some measure of the above-described redundancy in our background 
checks. It should be noted that the Inspector General validated our 
internal recommendations in the January 19, 2017 management alert 
(``U.S. Citizenship and Immigration Services' Use of the Electronic 
Immigration System for Naturalization Benefits Processing'').
    Taking a wider view of building the infrastructure for a modern 
immigration system, USCIS agrees with the July 2016 GAO assessment that 
``Regarding software development, the Transformation program has 
produced some software increments, but is not consistently following 
its own guidance and leading processes.'' GAO found that Transformation 
program practices were beginning to diverge from those used by leading 
companies. In my view, Transformation is one of the most advanced 
Government programs in using contemporary IT delivery practices. But 
this is not an area where you can go halfway and get good results.
    GAO recognized that Transformation's frequent use of automated 
testing, and continuous build and integration, were good practices that 
provided an ability to deliver quickly and consistently. The 
Transformation program, GAO also pointed out, ``has established an 
environment that allows for effective systems integration and testing 
and has planned for and performed some system testing. However, the 
program needs to improve its approach to system testing to ensure that 
USCIS ELIS meets its intended goals and is consistent with agency 
guidance and leading practices.'' GAO found discrepancies between some 
of the practices being used by the Transformation program and the 
guidance issued by OIT. Now that Transformation has been incorporated 
into OIT as of January of this year, we will ensure appropriate 
oversight of the program. As part of OIT, Transformation will be 
assisted by having full access to OIT's developers, applications, and 
systems already in existence within the agency.
    Although the GAO and OIG findings have been helpful to us in 
diagnosing issues in the program, I would like to update the 
subcommittee on two points. First, the Inspector General correctly 
pointed out a number of problems in the ELIS I-90 (replacement green 
card) release. However, the OIG study was conducted shortly after the 
launch of the electronic I-90, a time when it is typical for IT systems 
to have kinks that need to be worked out. Notably we implemented an 
asynchronous handoff process to handle potentially sporadic 
connectivity between ELIS and the Enterprise Service Bus (ESB) to 
ensure timeouts between the systems would not inadvertently result in 
duplicate cards being produced. Second, in regard to concerns about 
some green cards being mailed to wrong addresses, we are now 
implementing a fix to enable applicants to answer a series of questions 
to verify their identity in order to update their address on-line. This 
fix will help so that changes of address are made by the applicant as 
early in the process as possible in order to avoid instances of green 
cards being mailed to an applicant's prior address.
    Also, the OIG report provided data on three cost estimates which 
could be read to infer that the cost of the program has been increasing 
over time, beginning with $536 million in the original Acquisition 
Plan, $2.1 billion in the original life-cycle cost estimate, and 
finally $3.1 billion in the revised life-cycle cost estimate. It is 
important to clarify that the first cost estimate of $536 million was 
based on the original development and support contracts awarded for 
system development under the previous waterfall approach, and included 
a base contract period of performance of 4 months followed by five 
option periods covering a total of 5 years and 1 month. It was not an 
approved, finalized cost estimate that covered the traditional 
investment and operations and maintenance periods found in a life-cycle 
cost estimate. In contrast, the $2.1 billion cost estimate was based on 
a life-cycle cost estimate that included system development and 
maintenance costs covering a 16-year period from 2006 through 2022. 
Finally, the $3.1 billion cost estimate was based on an updated life-
cycle cost estimate that also included system development and 
maintenance costs, but was expanded to cover a 27-year period from 2006 
through 2033.
    Finally, I would like to report on some of the actions USCIS is 
taking that are consistent with the OIG and GAO findings to improve the 
performance of the program:
  <bullet> USCIS recently incorporated the Transformation program into 
        the Office of Information Technology and has made 
        organizational changes so that we can bring the many technical 
        skills and processes of OIT to bear on the program.
  <bullet> USCIS is clarifying the scope of the program, especially 
        where it overlaps with other agency initiatives. The program is 
        focusing on the lines of business that will truly transform the 
        agency.
  <bullet> We are working to fix the five issues specifically 
        identified by USCIS that prevented us from continuing to move 
        forward with accepting new naturalization cases into ELIS. We 
        are making good progress and expect those issues to be resolved 
        in the near future.
  <bullet> We are working with DHS to clarify the specific outcomes 
        that we want to achieve with each process we bring into an 
        electronic environment. And we are devising metrics and 
        monitoring tools that will allow us to measure our success in 
        accomplishing these outcomes.
  <bullet> We are also establishing uniform standards for what 
        constitutes a well-tested piece of code, and adopting more 
        development processes similar to those used by major companies.
    We are fortunate to have an extremely dedicated, extremely talented 
team at work on the program. We hope that the changes we are making 
will address the important points raised by the Inspector General and 
GAO, so that the program can truly transform the way our agency 
processes immigration benefits and services.
    Again, thank you for this opportunity to discuss what USCIS is 
doing to support the mission of Homeland Security. I am happy to 
address your questions.

    Mr. Perry. Chair thanks Ms. Scialabba.
    The Chair now recognizes Ms. Harris for her opening 
statement.

STATEMENT OF CAROL C. HARRIS, DIRECTOR, INFORMATION TECHNOLOGY 
 ACQUISITION MANAGEMENT ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Harris. Chairman Perry, Ranking Member Correa, and 
Members of the subcommittee, thank you for inviting us to 
testify today on the U.S. Citizenship and Immigration Services 
Transformation Program.
    As requested, I will briefly summarize the findings from 
our most recent reports completed at your request on this 
important I.T. acquisition.
    Each year USCIS processes millions of mostly paper-based 
applications and petitions for more than 50 types of immigrant- 
and nonimmigrant-related benefits. According to DHS, on an 
average day USCIS completes 23,000 applications for various 
immigration benefits and conducts 148,000 National security 
background checks.
    Our past work has identified lengthy backlogs of pending 
applications and an inability to complete--and an inability to 
comprehensively identify fraud because of the reliance on paper 
files.
    The Transformation Program was initiated in 2006 to address 
processing inefficiencies and improve National security by 
transforming the current method into an electronic account-
based system.
    Among other objectives, the program is to allow applicants 
to establish an account with USCIS to track and file the status 
of their applications on-line.
    The program's main component, the ELIS system, is to 
provide case management for adjudicating immigration benefits. 
ELIS relies on and interfaces with other systems that provide 
additional capabilities, such as user authentication and 
scheduling, to deliver end-to-end processing.
    Unfortunately, this program has faced severe management and 
system development challenges since its inception. This morning 
I would like to highlight two key points from our reports.
    First, the Transformation Program's deployment schedule is 
significantly delayed, causing missed savings and deferred 
mission benefits. After more than 8 years and roughly $475 
million spent, USCIS abandoned the system they had initially 
been pursuing in May 2016 due to its instability. This largely 
occurred because the system was allowed to proceed through 
development despite challenges in program management and 
limited oversight.
    In response to various technical issues, USCIS shifted its 
acquisition approach, which resulted in the proposed 
development of a new ELIS system. In April 2015 DHS and USCIS 
approved the revised plan with full deployment of the new 
system planned for March 2019, a delay of more than 4 years 
from the initial approved baseline.
    However, the new system is experiencing technical issues 
and the March 2019 date is under review by USCIS and DHS and 
could be pushed out even further. These delays mean legacy 
systems must remain in operation until the new ELIS is 
available, and the cost of maintaining those systems as of 
fiscal year 2014 was about $71 million per year.
    In addition, USCIS's ability to realize operational 
improvements tied to the program have been deferred, including 
reducing the immigration benefit backlogs through business 
process change, and enhancing National security by better 
authenticating users and integrating with external agency 
databases.
    In addition, our work on immigration fraud has shown that 
USCIS's ability to systematically identify and address fraud 
risks on their asylum and immigrant investor programs will be 
deferred, in part because of their dependence on planned ELIS 
functionality that does not yet exist.
    My second point: On-going program challenges are increasing 
the likelihood that the new ELIS will continue to miss cost, 
schedule, and performance goals. In July 2016 we reported that 
the Transformation Program was not consistently following key 
practices in software development and testing, among other 
things. For example, while the program has established an 
environment and procedures for continuously integrating and 
testing code, it was not meeting benchmarks for functional 
tests and code inspection. In other words, Transformation 
risked poor system performance after being released to the 
public.
    At the time of our report this risk was already being 
realized. For example, in November and December 2015 the 
program's quality assurance team reported that code quality had 
become a major issue. Later, in March 2016, metrics maintained 
by the program indicated that issues being encountered on the 
system were increasing faster than they could be addressed.
    In May 2015 we also reported that while the program's two 
key governance bodies were taking actions to monitor progress 
and implement corrective actions, they were not relying on 
complete and accurate data to make decisions.
    In light of these and other issues, we have made a total of 
30 recommendations to address the Transformation Program's poor 
progress and ineffective management. As of this morning, USCIS 
has fully addressed 17 of them, and it will be critical for the 
agency to effectively implement the remaining 13 in order to 
improve Transformation's outcomes and help achieve its goals of 
modernizing the paper-based immigration process, improving 
customer service, and enhancing National security.
    That concludes my statement, and I look forward to 
addressing your questions.
    [The prepared statement of Ms. Harris follows:]
                 Prepared Statement of Carol C. Harris
                             March 16, 2017
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee: I am pleased to be here today to discuss the challenges 
that U.S. Citizenship and Immigration Services (USCIS) has had in 
developing an electronic system to support and modernize the filing and 
processing of immigration and citizenship applications. As you know, 
each year, USCIS, an agency within the Department of Homeland Security 
(DHS), processes millions of mostly paper-based applications and 
petitions for more than 50 types of immigrant and nonimmigrant-related 
benefits. Having a seamless electronic system would assist the agency 
in accurately processing immigration and citizenship benefits in a 
timely manner to eligible applicants. Such a system would also assist 
in denying benefits to those who are ineligible. In addition, the 
system could help USCIS identify fraudulent and criminal activity, 
essential for ensuring the integrity of the immigration process.
    We have long recognized the need to improve the USCIS benefits 
application and adjudication processes and underlying technology 
infrastructure.\1\ For example, in May 2001, we reported that some 
applications and petitions--benefit applications--took 2 years or 
longer to process.\2\ This lengthy process resulted in backlogs of 
pending applications. More recently, in September 2016, we reported 
that USCIS was unable to comprehensively identify and address fraud 
trends across the immigrant investor program in part because of its 
reliance on paper-based documentation and limitations with using and 
collecting that data for the program.\3\ According to an official from 
USCIS's Fraud Detection and National Security Directorate, this 
supporting data could be an important source for fraud indicators.
---------------------------------------------------------------------------
    \1\ See appendix I for related GAO products.
    \2\ GAO, Immigration Benefits: Several Factors Impede Timeliness of 
Application Processing, GAO-01-488 (Washington, DC: May 4, 2001).
    \3\ GAO, Immigrant Investor Program: Progress Made to Detect and 
Prevent Fraud, but Additional Actions Could Further Agency Efforts, 
GAO-16-828 (Washington, DC: Sept. 13, 2016).
---------------------------------------------------------------------------
    In 2006, USCIS embarked on a major initiative, the Transformation 
Program, to address processing inefficiencies and transform its current 
paper-based system into an electronic account-based system. This system 
was expected to incorporate electronic adjudication and account-based 
case management tools, including tools that would allow applicants to 
apply on-line for benefits. However, since its inception, we have 
reported that the program has continually faced management and 
development challenges, limiting its progress and ability to achieve 
its goals of enhanced National security and system integrity, better 
customer service, and operational efficiency.\4\ Over the last 10 
fiscal years, we have made 30 recommendations to address weaknesses in 
the program's acquisitions and operations. USCIS has fully addressed 17 
of these 30 recommendations.\5\ Based in part on our concerns about the 
Transformation Program, we identified it as 1 of 10 investments in need 
of the most attention when we designated managing information 
technology (IT) acquisitions and operations across the Federal 
Government as high-risk in 2015.\6\
---------------------------------------------------------------------------
    \4\ GAO, USCIS Transformation: Improvements to Performance, Human 
Capital, and Information Technology Management Needed as Modernization 
Proceeds, GAO-07-1013R (Washington, DC: July 17, 2007); Immigration 
Benefits: Consistent Adherence to DHS's Acquisition Policy Could Help 
Improve Transformation Program Outcomes, GAO-12-66 (Washington, DC: 
Nov. 22, 2011); Immigration Benefits System: Better Informed Decision 
Making Needed on Transformation Program, GAO-15-415 (Washington, DC: 
May 18, 2015); Immigration Benefits System: U.S. Citizenship and 
Immigration Services Can Improve Program Management, GAO-16-467 
(Washington, DC: July 7, 2016).
    \5\ See appendix II for the status of prior recommendations.
    \6\ GAO, High-Risk Series: An Update, GAO-15-290 (Washington, DC: 
Feb. 11, 2015).
---------------------------------------------------------------------------
    My testimony today will focus on Transformation Program cost 
increases and schedule delays and program management challenges that 
have contributed to increasing risks to the new system. In developing 
this testimony, we relied on our previous reports, as well as 
information provided by the Department on its actions in response to 
our previous recommendations and on-going work. A more detailed 
discussion of the objectives, scope, and methodology for this work is 
included in each of the reports that are cited throughout this 
statement.
    All of the work on which this statement is based was conducted in 
accordance with generally-accepted Government auditing standards.\7\ 
Those standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \7\ A more detailed discussion of the objectives, scope, and 
methodology of this work is included in each of the reports that are 
cited throughout this statement. See appendix I for related GAO 
products.
---------------------------------------------------------------------------
                               background
    The goals of the Transformation Program are to modernize the paper-
based immigration benefits process, enhance National security and 
system integrity, and improve customer service and operational 
efficiency. Established in 2006, the program comprises many systems, 
each of which provides a service to facilitate operations, such as 
identity management and risk and fraud analytics. The objectives of the 
Transformation Program are to allow:
  <bullet> applicants to establish an account with USCIS to file and 
        track the status of the application, petition, or request on-
        line;
  <bullet> the USCIS Electronic Immigration System (USCIS ELIS), which 
        is the main component of the program, to apply risk-based rules 
        automatically to incoming applications, petitions, and requests 
        to identify potentially fraudulent applications and National 
        security risks;
  <bullet> adjudicators to have electronic access to applications, 
        petitions, and requests, relevant policies and procedures, and 
        external databases;
  <bullet> USCIS to have management information to track and allocate 
        workload; and
  <bullet> USCIS ELIS to have electronic linkages to other agencies, 
        such as the Departments of Justice and State, for data-sharing 
        and security purposes.
    As the main component of the program, USCIS ELIS is to provide case 
management for adjudicating immigration benefits. USCIS ELIS relies on 
and interfaces with other systems that provide additional capabilities, 
such as user authentication and scheduling, to deliver end-to-end 
processing. In particular, as of July 2016, the system was expected to 
interface with at least 30 other systems, ranging in function from 
fraud detection to law enforcement and to on-line payment.
    The program expects to achieve its goals and objectives through the 
delivery of five core operating requirements. These core requirements, 
which are expected to collectively deliver the program's mission needs, 
are: (1) Intake and account management; (2) benefits case management; 
(3) electronic content management; (4) agency and knowledge management; 
and (5) risk and fraud management. Table 1 describes the five core 
operational requirements.

        TABLE 1.--USCIS ELIS'S FIVE CORE OPERATIONAL REQUIREMENTS
------------------------------------------------------------------------
  Core operational  requirement                 Description
------------------------------------------------------------------------
Intake and PAccount PManagement..  Enable electronic submission of
                                    completed applications and fee
                                    payments. Enable benefit requests
                                    submitted by paper to be
                                    electronically transferred to USCIS
                                    ELIS for subsequent processing.
Benefits Case Management.........  Enable electronic application
                                    tracking, and facilitate
                                    adjudication of immigration
                                    benefits.
Electronic Content Management....  Enable digitizing, managing, and
                                    sharing electronic content. Includes
                                    the feature for establishing and
                                    managing document libraries that
                                    support external customer needs.
Agency and PKnowledge............  Enable the alignment of resources and
                                    tools to facilitate adjudication and
                                    supporting processes. Management
                                    includes features for generating
                                    management reports and facilitating
                                    the management of fees and customer
                                    inquiries.
Risk and Fraud Management........  Provide the features that send,
                                    receive, and consolidate information
                                    required for processing and
                                    assessing background checks based on
                                    biographic and biometric information
                                    and support improvements for
                                    identifying potential fraud and
                                    National security.
------------------------------------------------------------------------
\1\ Source: GAO analysis of USCIS documentation. GAO-17-486T

Program Governance and Oversight
    The USCIS Transformation Program is governed by multiple bodies 
within DHS and the program. Specifically, DHS governance bodies, such 
as the Acquisition Review Board and Executive Steering Committee, 
evaluate cost, schedule, and performance of a program and provide 
corrective actions when needed. In addition, the Department's Office of 
the Chief Information Officer and Office of Program Accountability and 
Risk Management conduct oversight of individual programs, which in 
turn, informs Congressional and Office of Management and Budget 
oversight. For example, the Office of Program Accountability and Risk 
Management develops periodic reports to ensure that various DHS 
programs and their components within the agency satisfy compliance-
related mandates and improve investment management. In addition, the 
Office of the Chief Information Officer performs periodic reviews that 
serve as the basis for publicly-reported program ratings.\8\
---------------------------------------------------------------------------
    \8\ These ratings are published on the Federal IT Dashboard. In 
June 2009, OMB deployed a public website known as the IT Dashboard to 
improve the transparency and oversight of agencies' IT investments. The 
IT Dashboard displays Federal agencies' cost, schedule, and performance 
data for major Federal IT investments at Federal agencies. For each 
major investment, the Dashboard provides performance ratings on cost 
and schedule, a chief information officer evaluation, and anoverall 
rating, which is based on the cost, schedule, and ratings.
---------------------------------------------------------------------------
    Within USCIS, directorates govern divisions and program offices 
govern specific functions, such as the Transformation Program. One 
program office, the Office of Transformation Coordination, has managed 
and overseen the development of USCIS ELIS. Other USCIS directorates 
and program offices, including the Office of Information Technology and 
the Customer Service and Public Engagement directorate, have supported 
the management and oversight of the larger USCIS Transformation 
Program.
Software Development Approach
    In April 2015, USCIS officially changed its software development 
approach. In particular, USCIS transitioned from a waterfall approach 
to develop, test, and deliver USCIS ELIS functionality \9\ to an 
incremental approach. In an incremental approach, software is 
developed, tested, and delivered in smaller components or phases, 
rather than in the typically long, sequential phases of a traditional 
waterfall approach. Incremental software development is consistent with 
the Office of Management and Budget's IT Reform Plan \10\ and the law 
commonly referred to as the Federal Information Technology Acquisition 
Reform Act (FITARA).\11\ The incremental approach chosen by USCIS, 
called Agile, is intended to allow subject-matter experts to validate 
requirements, processes, and system functionality in increments, and 
deliver the functionality to users in short cycles.
---------------------------------------------------------------------------
    \9\ Waterfall development is an approach that uses long, sequential 
phases, resulting in product delivery years after program initiation.
    \10\ Office of Management and Budget, 25 Point Implementation Plan 
to Reform Federal Information Technology Management (Washington, DC: 
Dec. 9, 2010).
    \11\ 40 U.S.C. Sec. 11319(b)(1)(B)(ii). The Federal Information 
Technology Acquisition Reform provisions of the Carl Levin and Howard 
P. ``Buck'' McKeon National Defense Authorization Act for Fiscal Year 
2015, Pub. L. No. 113-291, div. A, title VIII, subtitle D, 128 Stat. 
3292, 3438-3450 (Dec. 19, 2014).
---------------------------------------------------------------------------
 transformation program has experienced significant cost increases and 
                            schedule delays
    Since USCIS began implementation of the Transformation Program in 
2006, the effort has experienced significant cost increases and 
schedule delays. In particular, the program's most recent baseline, 
approved in April 2015, indicates that the Transformation Program will 
cost up to $3.1 billion and be fully deployed no later than March 2019. 
This is an increase of approximately $1 billion with a delay of more 
than 4 years from its initial July 2011 acquisition program baseline. 
In November 2008, USCIS awarded a solutions architect contract for 
approximately $500 million over a 5-year period to design, develop, 
test, deploy, and sustain the Transformation Program by November 2013. 
In July 2011, DHS officially approved the Transformation Program's 
acquisition program baseline and supporting operational requirements. 
This baseline estimate was for about $2.1 billion and the program was 
projected to reach full operating capability no later than June 2014.
    In May 2012, USCIS launched the first release of USCIS ELIS. This 
release included capabilities associated with all of the system's core 
operational requirements, such as on-line account setup, case 
management, case acceptance, applicant evidence intake, and notice 
generation. Subsequent to this first release, USCIS deployed additional 
releases to add functionality. This initial USCIS ELIS \12\ was used to 
process nonimmigrant requests to change or extend their status, USCIS 
immigrant fees, and immigrant petitions for foreign nationals who make 
investments in U.S. commercial enterprises.
---------------------------------------------------------------------------
    \12\ The initial USCIS ELIS was later replaced with a new system, 
also called USCIS ELIS, and the first system was decommissioned. More 
details on this are included after Table 2.
---------------------------------------------------------------------------
    Beginning in 2013, the program was operating beyond its approved 
baseline, a situation DHS referred to as being ``in breach.''\13\ As a 
result, we reported in 2015 that the program was not in compliance with 
DHS acquisition policies and procedures. To address the breach, DHS 
acquisition policies and procedures required that, within 90 days, a 
new baseline be approved or a program review be conducted to review the 
proposed baseline revisions. We reported that neither of these actions 
had taken place since 2013.
---------------------------------------------------------------------------
    \13\ DHS programs establish baselines for cost, schedule, and 
performance expectations. When these expectations are exceeded, such as 
a cost overrun or schedule delay, the program is considered in breach 
and required to re-baseline.
---------------------------------------------------------------------------
    However, despite exceeding its approved baseline and operating 
without a DHS-approved revised acquisition strategy and baseline, the 
Transformation program continued with its system development efforts. 
As part of the continued development, USCIS pursued a new acquisition 
approach. As we reported in May 2015,\14\ changes in its approach 
included changes to the software development methodology, contracting 
approach, and program architecture and were intended to help address 
concerns about delays and cost overruns. See Table 2 for a description 
of these changes.
---------------------------------------------------------------------------
    \14\ GAO-15-415.

    TABLE 2.--KEY CHANGES TO THE TRANSFORMATION PROGRAM'S ACQUISITION
                                APPROACH
------------------------------------------------------------------------
           Key change              Previous approach     New approach
------------------------------------------------------------------------
Contracting approach............  One contractor      Multiple
                                   that served as      contractors to
                                   the sole solution   provide various
                                   architect and       services, with
                                   system integrator.  USCIS serving as
                                                       the system
                                                       integrator.
Software development approach...  Waterfall           Agile software
                                   development, an     development, an
                                   approach that       approach that
                                   uses long,          delivers software
                                   sequential          in small, short
                                   phases, resulting   increments,
                                   in product          resulting in
                                   delivery years      software released
                                   after program       in phases.
                                   initiation.
Program architecture............  Included a large    Includes open-
                                   number of           source software,
                                   proprietary         which is publicly
                                   commercial off-     available for
                                   the-shelf           use, study,
                                   software            reuse,
                                   products, which     modification,
                                   are ready-made      enhancement, and
                                   and available for   redistribution by
                                   sale.               the software's
                                                       users. This
                                                       software is to be
                                                       used in
                                                       combination with
                                                       fewer commercial
                                                       off-the-shelf
                                                       products in a
                                                       cloud computing
                                                       environment.
------------------------------------------------------------------------
Source: GAO analysis of USCIS documentation. GAO-17-486T

    The shift in acquisition approach also resulted in the proposed 
development of a new USCIS ELIS system. The new system was to be a 
separate and distinct system from the previously developed USCIS ELIS. 
In November 2014, after a year-and-a-half of planning and development, 
USCIS deployed an initial version of the new USCIS ELIS system to allow 
for limited processing of permanent resident card renewals and 
replacements. This initial deployment also tested all core processing 
capabilities, such as the ability to electronically file or schedule 
appointments for collecting biometric information.
    Between November 2014 and February 2015, the functionality of the 
new USCIS ELIS was enhanced to allow full processing of permanent 
resident card renewals and replacements. Nevertheless, during this 
time, the Transformation Program continued to operate in breach status, 
without a DHS-approved revised acquisition strategy and baseline. In 
2015, we reported\15\ that this breach had impacted DHS's ability to 
effectively oversee and govern the program because oversight was no 
longer being conducted relative to a current and approved program 
schedule.
---------------------------------------------------------------------------
    \15\ GAO-15-415.
---------------------------------------------------------------------------
    The program's revised acquisition baseline and strategy were 
formally approved in April 2015, over 2 years after the breach. Under 
its new acquisition baseline, USCIS estimated the program to cost up to 
$3.1 billion and to be fully deployed no later than March 2019. This 
was an increase of approximately $1 billion and a delay of over 4 years 
from the program's initial approved baseline in July 2011.
    The new acquisition strategy represented official DHS approval of 
the program's updated acquisition approach and also formally required 
that the old USCIS ELIS be decommissioned and that USCIS continue to 
pursue the new USCIS ELIS. In May 2015, we reported that changes in the 
Transformation Program acquisition strategy intended, in part, to 
address the breach had contributed to significant delays in the 
program's planned schedule.\16\
---------------------------------------------------------------------------
    \16\ GAO-15-415.
---------------------------------------------------------------------------
    In July 2016, we once again expressed concerns over program 
performance, focusing on the reliability of the program's cost, 
schedule, and scope measurements.\17\ For example, we reported that 
delays in the schedule could increase the risk that the program would 
proceed with future USCIS ELIS development or deployment before it was 
ready in order to meet committed dates. In addition, we reported that 
the program was at risk of future schedule delays in later USCIS ELIS 
releases, which might result in the program exceeding its revised cost 
or schedule thresholds. We made 12 recommendations to improve the 
ability of USCIS to manage the program. USCIS concurred with our 
recommendations and has initiated work to implement them.
---------------------------------------------------------------------------
    \17\ GAO-16-467.
---------------------------------------------------------------------------
    USCIS continues to expand the ability of the new USCIS ELIS to 
process citizenship and immigration benefits. Specifically, after April 
2016, USCIS deployed the additional capability to process applications 
for temporary protected status and additional naturalization forms. 
However, in August 2016, the program reverted back to the legacy 
system, called the Computer-Linked Application Information Management 
System 4, for processing the same naturalization form that had been 
deployed in the new USCIS ELIS only 4 months earlier. As a result of 
the switchover and other technical issues with the new system, the 
program did not complete deployment of system functionality associated 
with its Citizenship line of business by its September 2016 deadline, 
resulting in another schedule breach.\18\
---------------------------------------------------------------------------
    \18\ The four lines of business associated with the Transformation 
program each represent a different set of system functionality. They 
are: (1) Non-immigrant, (2) immigrant, (3) humanitarian, and (4) 
citizenship.
---------------------------------------------------------------------------
    In November 2016, USCIS submitted a breach remediation plan to the 
Deputy Under Secretary for Management that identified several root 
causes for the breach. These causes included that:
  <bullet> the program's schedule did not allow time to gather user 
        feedback or address complexities discovered during development;
  <bullet> new requirements were added; and,
  <bullet> USCIS leadership did not provide any consistent performance 
        requirements on what the program was supposed to accomplish for 
        specific business lines.
    USCIS had planned to re-baseline the program in February 2017 to 
account for the September 2016 breach. However, in December 2016, DHS 
leadership directed USCIS to stop planning and development for new 
lines of business, update its breach remediation plan and acquisition 
documentation, and brief leadership on the program's revised approach 
by February 2017. The program submitted a revised remediation plan on 
February 1, 2017. The revised plan was subsequently accepted by the 
Acting Under Secretary for Management on February 14, 2017.
    The revised remediation plan set an expectation that the program 
would submit revised acquisition documentation for review including a 
new baseline by February 28, 2017. However, according to the deputy 
chief of the Resource Management Division within the USCIS Office of 
Information Technology, the program was granted an extension. According 
to this official, the program expects to discuss the revised 
acquisition documentation before the Acquisition Review Board in March 
2017.
Delays are Impacting the Ability of USCIS to Realize the Benefits of 
        Transformation
    The Transformation Program's delays in delivering system 
functionality have limited USCIS's ability to realize its planned cost 
savings and operational improvements. With respect to cost savings, the 
program's business case highlighted cost savings that would be realized 
from decommissioning legacy systems on full deployment of USCIS ELIS.
    However, these legacy systems must remain operational to allow 
USCIS to perform its mission until an alternative option is available--
thus, preventing the associated savings from being realized. For 
example, in fiscal year 2014, the total cost of maintaining systems 
that could have been decommissioned if USCIS ELIS had been fully 
operational was approximately $71 million. Further, the business case 
for the Transformation Program identified anticipated cost savings from 
reducing data entry and mail handling costs. With the continuing 
delays, however, USCIS will continue to incur such costs while the 
program awaits full implementation.
    In addition, the schedule delays have deferred USCIS's ability to 
realize operational improvements tied to the program and intended to 
resolve issues we've previously reported.\19\ For example, the 
Transformation Program is expected to implement organizational and 
business process changes to better use the new electronic system. 
According to USCIS, this increased use of IT should help achieve goals 
such as reducing the immigration benefit backlogs through business 
process change, improving customer service through expanded electronic 
filing, and enhancing National security by authenticating users and 
integrating with external agency databases. However, once again, the 
delays in delivery of the program mean that these improvements have yet 
to be achieved.
---------------------------------------------------------------------------
    \19\ See appendix I for related GAO products.
---------------------------------------------------------------------------
  program management challenges contribute to system performance risks
    Prior to the Transformation Program's change in acquisition 
strategy, USCIS spent more than 8 years and approximately $475 million 
on developing the old USCIS ELIS. According to program officials, this 
system was decommissioned in April 2016 due to its instability. As we 
have reported,\20\ the old USCIS ELIS proceeded through development 
despite challenges in program management and limited oversight. Given 
this history and the subsequent commitment of additional resources for 
a new USCIS ELIS, it is more important than ever that USCIS 
consistently follow key practices associated with software development, 
systems integration and testing, and contract management \21\ and 
execute effective program oversight and governance.
---------------------------------------------------------------------------
    \20\ See, for example, GAO-15-415 and GAO-16-467.
    \21\ These key practices summarize practices that apply to the 
USCIS Transformation program and are based on leading practices and 
agency policy and guidance. These practices and their sources are 
described in more detail in GAO-16-467.
---------------------------------------------------------------------------
            Inconsistent Software Development Practices Risk Further 
                    Program Costs and Delays
    In July 2016, we reported that the program had at least partially 
adhered to 7 of 8 key practices \22\ for effectively managing Agile 
software development in producing USCIS ELIS.\23\ We reported that the 
program deviated from key software development practices for various 
reasons. For example, we reported that the program was not always 
completing planning for software releases prior to initiating 
development as required in agency policy. The USCIS Chief Information 
Officer explained that, although policy requires a program to obtain 
approval for the scope of each release prior to proceeding with 
development, this was no longer the practice for the Transformation 
Program. Instead, approval was granted for 6 months of development and 
the scope of that approval was revisited as needed. In contrast, time 
frames of individual releases were expected to vary depending on the 
scope of the release.
---------------------------------------------------------------------------
    \22\ These practices are described in Table 3. They are gathered 
from leading practices and agency policy and guidance. Leading 
practices were derived from various sources, including GAO, Software 
Development: Effective Practices and Federal Challenges in Applying 
Agile Methods, GAO-12-681 (Washington, DC: Jul. 27, 2012); Office of 
Management and Budget, U.S. Digital Services, Playbook (version pulled 
Dec. 18, 2015); TechFAR: Handbook for Procuring Digital Services Using 
Agile Processes (draft version pulled Nov. 6, 2014); Software 
Engineering Institute, Agile Metrics: Progress Monitoring of Agile 
Contractors, CMU/SEI-2013-TN-029 (Jan. 2014); CMMI for Development, 
Version 1.3, CMU/SEI-2010-TR-033 (Nov. 2010); MITRE, Defense Agile 
Acquisition Guide: Tailoring DoD IT Acquisition Program Structures and 
Processes to Rapidly Deliver Capabilities (March 2014); Handbook for 
Implementing Agile in Department of Defense Information Technology 
Acquisition (Dec. 15, 2010); ISO/IEC/IEEE, Systems and software 
engineering--Developing user documentation in an agile environment, 
Corrected Version, ISO/IEC/IEEE 26515:2012(E) (Mar. 15, 2012) (a full 
copy of the documents may be found at standards.ieee.org/store); http:/
/agilemanifesto.org.; Ken Schwaber and Jeff Sutherland, The Scrum 
Guide:<SUP>TM</SUP> The Definitive Guide to Scrum: The Rules of the 
Game (Jul. 2013). Applicable agency policy and guidance included U.S. 
Citizenship and Immigration Services, Management Instruction CIS-OIT-
001, Office of Information Technology: Agile Development Policy (Apr. 
10, 2013); USCIS Agile Processes and Practices, Principles and 
Guidelines, version 4.0 (Dec. 6, 2013); USCIS Transformation Program: 
System Engineering Life Cycle Tailoring Plan, version 1.0 (March 2015); 
USCIS ELIS Team Process Agreement for the April 7, 2015 to September 
30, 2015 Development Period; and USCIS ELIS Team Process Agreement for 
the July 22, 2015 to January 30, 2016 Development Period.
    \23\ GAO-16-467.
---------------------------------------------------------------------------
    We also found that the program was not consistently following other 
key practices and that controls were not always in place to ensure the 
program adhered to them. For example, with respect to monitoring and 
reporting on program performance through the collection of reliable 
metrics, we were unable to track monthly reports on program scope back 
to the associated software release backlog. In addressing this matter, 
the Business Integration Division within the Office of Transformation 
Coordination acknowledged issues regarding traceability. The division 
subsequently determined that its process for tracking monthly reports 
on program scope back to the associated software release backlog was 
not effective since it relied solely on the review of the user stories. 
The division acknowledged that requirements traceability is critical to 
avoid scope creep and to demonstrate that the features implemented 
addressed the mission needs.
    With respect to the practice of setting outcomes for Agile software 
development, which is the only key practice that the program did not 
fully or partially address, the program did not define Agile software 
development outcomes. The program provided various reasons for not 
addressing the practice. For example, the Chief of OTC Stated that the 
outcome or goal for the program is to deploy a product line within 
baseline cost, schedule, and performance parameters. Nevertheless, we 
reported that the program had not established a well-understood goal, 
or set of goals, for its transition to Agile development. Table 3 
describes the program's satisfaction of key practices in developing 
USCIS ELIS.

  TABLE 3.--SATISFACTION OF KEY AGILE DEVELOPMENT MANAGEMENT PRACTICES
------------------------------------------------------------------------
                        Key practice                            Rating
------------------------------------------------------------------------
Completing planning for software releases prior to                     P
 initiating development and ensuring software meets
 business expectations prior to deployment.................
Adhering to the principles of the framework adopted for                P
 implementing Agile software development...................
Defining and consistently executing appropriate roles and              P
 responsibilities for individuals responsible for
 development activities....................................
Identifying users of the system and involving them in                  P
 release planning activities...............................
Writing user stories that identify user roles, include                 P
 estimates of complexity, take no longer than one sprint to
 complete, and describe business value.....................
Prioritizing user stories to maximize the value of each                Y
 development cycle.........................................
Setting outcomes for Agile software development............            N
Monitoring and reporting on program performance through the            P
 collection of reliable metrics............................
------------------------------------------------------------------------
Source: GAO analysis of USCIS documentation. GAO-17-486T.
Note: Y yes P partial N no.

    An element was determined to be a ``no'' if USCIS provided no 
evidence to satisfy any portion of the practice; ``partial'' if USCIS 
provided evidence that satisfied some, but not all, of the practice; 
and ``yes'' if USCIS provided evidence that it substantially satisfied 
all elements of the practice.
    In not addressing key practices for Agile software development, the 
program faces added risks in deploying a system that does not meet the 
cost, schedule, or the performance needs of USCIS. We recommended that 
the program, with assistance from the Department, take seven actions to 
provide reasonable assurance that it executes Agile software 
development for USCIS ELIS consistent with its own policies and 
guidance and follows applicable leading practices. At present, all of 
these recommendations remain open.
            Testing Practices Need Improvement to Address System 
                    Performance Risks
    In this same report,\24\ we found that the program was not 
consistently following key system integration and testing 
practices.\25\ Specifically, the program had fully implemented 1 and 
partially implemented 2 key practices. For example, the program had 
established an environment and procedures for continuous integration 
and was conducting unit and integration, functional acceptance, 
interoperability, and end-user tests, as well as performing code 
inspection. However, we also found that the program was not 
consistently adhering to its policies and guidance \26\ or meeting 
benchmarks for unit and integration, and functional acceptance tests, 
and code inspection. Moreover, test plans, cases, and results were not 
fully developed for interoperability and end-user testing.
---------------------------------------------------------------------------
    \24\ GAO-16-467.
    \25\ These practices are described in table 4. They are gathered 
from multiple sources, including leading practices and agency policy 
and guidance. Leading practices were derived from various sources, 
including ISO/IEC/IEEE, ISO/IECIEEE Standard 29119, Software and System 
Engineering--Software Testing, Part 1: Concepts and Definitions, Part 
2: Test Process, Part 3: Test Documentation (New York, NY, September 
2013) (a full copy of the documents may be found at standards.ieee.org/
store). Applicable agency policy and guidance included Department of 
Homeland Security, Pre-Decisional Draft, DHS Agile Development 
Guidebook (Sept. 2, 2014); U.S. Citizenship and Immigration Services, 
USCIS Test and Evaluation Master Plan: Electronic Immigration System, 
version 1.0 (February 2015); USCIS ELIS Team Process Agreement for the 
April 7, 2015 to September 30, 2015 Development Period; and USCIS ELIS 
Team Process Agreement for the July 22, 2015 to January 30, 2016 
Development Period; Agile Processes and Practices Principles and 
Guidelines, version 4.0 (Dec. 6, 2013); USCIS Test Plan for Release 
5.1-6.0 (10/15/2014-4/15/2015); USCIS Test Plan (updated July 2015).
    \26\ Department of Homeland Security, Pre-Decisional Draft, DHS 
Agile Development Guidebook (Sept. 2, 2014); U.S. Citizenship and 
Immigration Services, USCIS Test and Evaluation Master Plan: Electronic 
Immigration System, version 1.0 (February 2015); USCIS ELIS Team 
Process Agreement for the April 7, 2015 to September 30, 2015 
Development Period; and USCIS ELIS Team Process Agreement for the July 
22, 2015 to January 30, 2016 Development Period; USCIS Agile Processes 
and Practices Principles and Guidelines, version 4.0 (Dec. 6, 2013); 
USCIS Test Plan for Release 5.1-6.0 (10/15/2014-4/15/2015); USCIS Test 
Plan (updated July 2015).
---------------------------------------------------------------------------
    We reported that the implementation of systems integration and 
testing deviated from key practices in part because policy and guidance 
were not being updated to reflect changes in the approach. For example, 
with respect to performing continuous testing, the program did not meet 
its stated goals for continuous testing because, according to the USCIS 
Chief Information Officer, certain program goals were unrealistic. 
Table 4 describes the program's satisfaction of key practices in USCIS 
ELIS integration and testing.

     TABLE 4.--SATISFACTION OF KEY INTEGRATION AND TESTING PRACTICES
------------------------------------------------------------------------
                        Key practice                            Rating
------------------------------------------------------------------------
Establishing an environment and procedures for continuous              Y
 integration and testing of code...........................
Performing continuous testing through the use of unit and              P
 integration tests, functional acceptance tests, and code
 inspection................................................
Developing complete test plans and cases for                           P
 interoperability and end-user testing and documenting
 those results.............................................
------------------------------------------------------------------------
\1\ Source: GAO analysis of USCIS documentation. GAO-17-486T
\2\ Note: Y yes P partial N no.
\3\ An element was determined to be a ``no'' if USCIS provided no
  evidence to satisfy any portion of the practice; ``partial'' if USCIS
  provided evidence that satisfied some, but not all, of the practice;
  and ``yes'' if USCIS provided evidence that it substantially satisfied
  all elements of the practice.

    In addition, program policy and guidance did not always align with 
key practices in systems integration and testing, nor were controls 
always in place to ensure adherence to policy and guidance. For 
example, before a developer could integrate code with that of other 
developers or development teams, peer inspection by another individual 
was expected to occur to help ensure that the code met program 
standards. However, the program had not established controls to monitor 
the extent to which peer inspection had occurred.
    As a result of these findings on systems integration and testing, 
we reported that the program risked poor system performance after being 
released to the public. At that time, this risk was already being 
realized. Specifically, the program had reported experiencing issues 
with USCIS ELIS as a result of deploying software that had not been 
fully tested. For example:
  <bullet> In June 2015, the Quality Assurance Team reported that 
        production issues, such as bugs and defects, had increased 
        noticeably after the February 2015 deployment.
  <bullet> In July 2015, the Quality Assurance Team reported that 
        defects (originating from either production or development) 
        were becoming a significant part of USCIS ELIS iteration work.
  <bullet> On September 22, 2015, in addition to prior and subsequent 
        outages of the system, the Quality Assurance Team reported that 
        USCIS ELIS was unavailable for approximately 15 hours due to 
        issues with code quality.
  <bullet> On September 24, 2015, USCIS ELIS encountered performance 
        problems that impacted nearly 5,000 cases. Approximately 2,600 
        of these cases had to be abandoned.
  <bullet> In November and December 2015, the Quality Assurance Team 
        reported that code quality had become a major issue.
  <bullet> In January 2016, the program reported more than 800 minutes 
        in unplanned network outages.
  <bullet> In February 2016, the program reported missing the threshold 
        for USCIS ELIS reliability (e.g. mean time between failure), 
        for 2 straight months and 4 of the last 6 months.
  <bullet> In March 2016, program metrics indicated that production 
        tickets were increasing faster than they could be addressed.
    Based on these findings associated with systems integration and 
testing, we made two recommendations to the program. These 
recommendations were associated with updating existing policy and 
guidance for systems integration and testing and considering additional 
controls. At present, these recommendations remain open.
Contract Oversight Practices Limit Contractor Accountability
    In the same report,\27\ based on a review of six contracts,\28\ we 
found that USCIS had mixed success in implementing selected key 
contract management internal controls.\29\ Specifically, we found that 
contracting officer representatives were meeting training requirements 
and USCIS had documented its rationale for not pursuing selected 
contracts as performance-based. However, we also reported that the 
program could improve contract monitoring to provide reasonable 
assurance that contractors were meeting program needs. For example, we 
reported that
---------------------------------------------------------------------------
    \27\ GAO-16-467.
    \28\ These six contracts were two firm, fixed-price contracts 
managed by the program office and four cost-plus-fixed-fee contracts 
managed by the Office of Information Technology.
    \29\ The key internal controls are described in GAO, Standards for 
Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, 
(Washington, DC: November 1999); National Flood Insurance Program: 
Progress Made on Contract Management but Monitoring and Reporting Could 
be Improved, GAO-14-160 (Washington, DC: Jan. 15, 2014): Office of 
Federal Procurement Policy, A Guide to Best Practices for Contract 
Administration, (Washington, DC: October 1994); Department of Homeland 
Security, Federal Acquisition Certification for Contracting Officer's 
Representatives and Appointment and Revocation, Acquisition Workforce 
Policy Number 064-04-003, Revision 02 (Aug. 8, 2012); Contracting 
Officer's Representative (COR) Essential Element Guidebook, Spiral 1 
(September 2012); and Office of Procurement Operations: Acquisition 
Manual, version 1.0 (May 1, 2015).
---------------------------------------------------------------------------
  <bullet> The Agile development services contract contained 
        appropriate performance criteria that linked to the program 
        goals, but the program did not clearly define measures against 
        which to analyze differences between services expected and 
        those delivered. Because oversight of contractor performance 
        resides with the Office of Transformation Coordination and 
        management of the contract is the responsibility of the Office 
        of Information Technology, we reported that the need for 
        clearly-defined performance measures was particularly 
        important.
  <bullet> The program maintained some required documentation in 
        contract files and used contractor performance assessments. 
        However, more clearly-defined success measures and evaluation 
        against those measures could have alerted the program to issues 
        in systems integration and testing.
    Based on these findings, we reported that the agency lacked 
information for measuring contractor performance and determining if the 
Office of Information Technology was meeting its objectives in 
supporting the program. To help improve oversight of these selected 
contracts, we made three recommendations focused on contract 
administration and supporting controls. Since then, the agency has 
taken steps to close these recommendations, successfully closing two of 
the three. If effectively implemented, these actions should contribute 
to improved administration of the contracts that we assessed in our 
review.
            DHS Oversight Bodies Need to Improve Governance and 
                    Oversight of the Transformation Program
    We also reported in May 2015 \30\ that the program's two key 
governance bodies were mostly taking actions aligned with leading 
practices, but that their decisions were made based on unreliable 
information. For example, we reported that the Acquisition Review Board 
ensured that corrective actions were identified when cost, schedule, or 
performance issues arose. However, the board was not always monitoring 
performance and progress toward a predefined cost and schedule or 
ensuring that corrective actions were tracked until the desired 
outcomes were achieved.
---------------------------------------------------------------------------
    \30\ GAO-15-415.
---------------------------------------------------------------------------
    In addition, we found that two DHS offices assisting in overseeing 
the program--the Office of Program Accountability and Risk Management 
and the Office of the Chief Information Officer--developed program 
assessments that reflected unreliable and, in some cases, inaccurate 
information. For example, the Office of the Chief Information Officer 
performed four assessments of the Transformation Program from June 2013 
through June 2014. The most recent assessment available at the time, 
from June 2014, Stated that the program underwent a re-baseline for 
release 5.0 and, as a result, reported an acceptable schedule variance 
and positive cost performance. However, at that time, the program had 
experienced over a 4-year delay in its schedule and had not performed a 
re-baseline to bring it back within cost and schedule thresholds.
    Based on these findings, we reported that the ability of governance 
bodies to make timely decisions and provide effective oversight was 
limited. To help improve program governance, we made four 
recommendations. Subsequently, the program addressed one recommendation 
by establishing a new baseline, although that baseline has again been 
breached. The program has taken steps to close the remaining 
recommendations, although the recommendations remain open.
    In summary, the USCIS Transformation Program began officially 
pursuing a new acquisition strategy in April 2015 to mitigate risks 
encountered in developing the original system. However, this new 
strategy reflects a higher cost estimate and a longer amount of time 
before the system is fully implemented than the program's previously 
approved strategy. In addition, the program is again encountering 
issues in development and production. If the agency does not address 
issues in its efforts to develop and test software, oversee 
contractors, and govern the program it risks additional cost increases, 
schedule delays, and performance shortfalls. In addition, continued 
delays limit the program's ability to achieve critical goals, such as 
delivering system functionality to enhance customer service and 
enhancing National security.
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee, this completes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.
                   Appendix I.--Related GAO Products
    Immigrant Investor Program: Progress Made to Detect and Prevent 
Fraud, but Additional Actions Could Further Agency Efforts, GAO-16-828 
(Washington, DC: Sept. 13, 2016).
    Immigration Benefits System: U.S. Citizenship and Immigration 
Services Can Improve Program Management, GAO-16-467 (Washington, DC: 
July 7, 2016).
    Asylum: Additional Actions Needed to Assess and Address Fraud 
Risks, GAO-16-50 (Washington, DC: Dec. 2, 2015).
    Immigrant Investor Program: Additional Actions Needed to Better 
Assess Fraud Risks and Report Economic Benefits, GAO-15-696 
(Washington, DC: Aug. 12, 2015).
    Immigration Benefits System: Better Informed Decision Making Needed 
on Transformation Program, GAO-15-415 (Washington, DC: May 18, 2015).
    H-2A and H-2B Visa Programs: Increased Protections Needed for 
Foreign Workers, GAO-15-154 (Washington, DC: Mar. 6, 2015).
    Immigration Benefits: Improvements Needed to Fully Implement the 
International Marriage Broker Regulation Act, GAO-15-3 (Washington, DC: 
Dec. 10, 2014).
    H-2A Visa Program: Modernization and Improved Guidance Could Reduce 
Employer Application Burden, GAO-12-706 (Washington, DC: Sept. 12, 
2012).
    Immigration Benefits: Consistent Adherence to DHS's Acquisition 
Policy Could Help Improve Transformation Program Outcomes, GAO-12-66 
(Washington, DC: Nov. 22, 2011).
    Department of Homeland Security: Progress Made and Work Remaining 
in Implementing Homeland Security Missions 10 Years after 9/11, GAO-11-
881 (Washington, DC: Sept. 7, 2011).
    Immigration Benefits: Actions Needed to Address Vulnerabilities in 
Process for Granting Permanent Residency, GAO-09-55 (Washington, DC: 
Dec. 5, 2008).
    USCIS Transformation: Improvements to Performance, Human Capital, 
and Information Technology Management Needed as Modernization Proceeds, 
GAO-07-1013R (Washington, DC: July 17, 2007).
 Appendix II.--Status of GAO Recommendations to Improve Transformation 
                          Program Performance

     TABLE 5.--SATISFACTION OF KEY INTEGRATION AND TESTING PRACTICES
------------------------------------------------------------------------
         Recommendation                 Report              Status
------------------------------------------------------------------------
1. Document specific performance  GAO-07-1013R......  Closed
 measures and targets for the
 pilots, increments, and the
 transformed organization that
 are outcome-oriented,
 objective, reliable, balanced,
 limited to the vital-few,
 measurable, and aligned with
 organizational goals.
2. Increase coordination between  GAO-07-1013R......  Closed
 program office and the Office
 of Human Capital to ensure
 transformation and human
 capital change initiatives are
 aligned.
3. Plan for the number and types  GAO-07-1013R......  Closed
 of human resources required in
 the program office to carry the
 transformation through 2012.
4. Plan for obtaining and         GAO-07-1013R......  Closed
 developing the IT human capital
 necessary to support the
 transformation.
5. Determine the critical skills  GAO-07-1013R......  Closed
 and competencies that will be
 needed to achieve future
 programmatic results as well as
 strategies to address gaps in
 employee numbers, deployment,
 and skills and competencies.
6. Address continuity in key      GAO-07-1013R......  Closed
 transformation leadership
 positions and address impacts
 to time frames when key
 personnel leave.
7. Use performance expectations   GAO-07-1013R......  Closed
 and competencies to hold USCIS
 executives and employees
 accountable for achieving the
 goals of the transformation.
8. Continue to develop an         GAO-07-1013R......  Closed
 enterprise architecture that
 sufficiently guides and
 constrains the transformation
 plans, as DHS works to address
 limitations in its own
 enterprise architecture and
 alignment processes.
9. Complete a comprehensive       GAO-07-1013R......  Closed
 communication strategy that
 involves communicating early
 and often to build trust,
 ensuring consistency of
 message, and encouraging two-
 way communication. Further, the
 communication strategy should
 address plans for communicating
 implementation goals and time
 lines to demonstrate progress.
10. Complete a comprehensive      GAO-07-1013R......  Closed
 communication strategy that
 addresses plans for formally
 engaging internal and external
 stakeholders throughout the
 transformation, and tailors
 information to meet these
 stakeholders' specific needs.
11. Complete a comprehensive      GAO-07-1013R......  Closed
 communication strategy that
 addresses plans for a long-
 term, detailed strategy to
 share information with
 employees and stakeholders over
 the course of the
 transformation.
12. Document specific             GAO-07-1013R......  Closed
 performance measures and
 targets for the pilots,
 increments, and the transformed
 organization that are outcome-
 oriented, objective reliable,
 balanced, limited to the vital-
 few, measurable, and aligned
 with organizational goals.
13. Develop and maintain an       GAO-12-66.........  Closed
 Integrated Master Schedule
 consistent with these same best
 practices for the
 Transformation Program.
14. Ensure that the life-cycle    GAO-12-66.........  Closed
 cost estimate is informed by
 milestones and associated tasks
 from reliable schedules that
 are developed in accordance
 with the nine best practices we
 identified.
15. Re-baseline cost, schedule,   GAO-15-415........  Closed
 and performance expectations
 for the remainder of the
 Transformation Program.
16. Ensure that the Acquisition   GAO-15-415........  Open
 Review Board is effectively
 monitoring the Transformation
 Program's performance and
 progress toward a predefined
 cost and schedule; ensuring
 that corrective actions are
 tracked until the desired
 outcomes are achieved; and
 relying on complete and
 accurate program data to review
 the performance of the
 Transformation Program against
 stated expectations.
17. Ensure that the Executive     GAO-15-415........  Open
 Steering Committee is
 effectively monitoring the
 Transformation Program's
 performance and progress toward
 a predefined cost and schedule
 and relying on complete and
 accurate program data to review
 the performance of the
 Transformation Program against
 stated expectations.
18. Direct the Department's       GAO-15-415........  Open
 chief information officer to
 use accurate and reliable
 information, such as
 operational assessments of the
 new architecture and cost and
 schedule parameters approved by
 the under secretary of
 management.
19. Complete planning for         GAO-16-467........  Open
 software releases prior to
 initiating development and
 ensure software meets business
 expectations prior to
 deployment.
20. Consistently implement the    GAO-16-467........  Open
 principles of the framework
 adopted for Agile software
 development.
21. Define and consistently       GAO-16-467........  Open
 execute appropriate roles and
 responsibilities for
 individuals responsible for
 development activities
 consistent with its selected
 development framework.
22. Identify all system users     GAO-16-467........  Open
 and involve them in release
 planning activities.
23. Write user stories that       GAO-16-467........  Open
 identify user roles, include
 estimates of complexity, take
 no longer than one sprint to
 complete, and describe business
 value.
24. Establish outcomes for Agile  GAO-16-467........  Open
 software development.
25. Monitor program performance   GAO-16-467........  Open
 and report to appropriate
 entities through the collection
 of reliable metrics.
26. Conduct unit and              GAO-16-467........  Open
 integration, and functional
 acceptance tests, and code
 inspection consistent with
 stated program goals.
27. Develop complete test plans   GAO-16-467........  Open
 and cases for interoperability
 and end-user testing, as
 defined in the USCIS
 Transformation Program Test and
 Evaluation Master Plan, and
 document the results.
28. Clearly define measures       GAO-16-467........  Closed
 against which to analyze
 differences between services
 expected and those delivered.
29. Ensure contracting officer    GAO-16-467........  Open
 representatives are maintaining
 complete contract files.
30. Ensure quality assurance      GAO-16-467........  Closed
 surveillance plans are
 developed when appropriate.
------------------------------------------------------------------------
Source: GAO analysis of DHS and USCIS documentation GAO-17-486T.


    Mr. Perry. Chair thanks Ms. Harris.
    The Chair now recognizes Mr. Roth for his opening 
statement.

 STATEMENT OF JOHN ROTH, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Roth. Thank you.
    Chairman Perry, Ranking Member Correa, and Members of 
subcommittee, thank you for inviting me to testify.
    For my oral testimony today I will focus on CIS information 
technology Transformation issues and DHS's ineffective use of 
fingerprint records in the naturalization process.
    First, with regard to Transformation, after 11 years CIS 
has made little progress in automating its paper-based 
procedures. Past automation attempts have been hampered by 
ineffective planning, multiple changes in direction, and 
inconsistent stakeholder involvement.
    After years of planning and delay, CIS began employing the 
Electronic Immigration System, which is known as--by its 
acronym as ELIS, in May 2012 to modernize the processing of 
approximately 90 different immigration benefit types. However, 
currently customers can only apply on-line for 2 of the 90 
benefit types--benefits and services.
    As it struggles to address these system issues, CIS told us 
last March that it now estimates it will take 3 more years, 
which is over 4 years longer than estimated, and an additional 
billion dollars to automate all benefit types as expected. 
However, given past practice, we do not have confidence that 
CIS's estimations for completion are accurate.
    The inability to automate their paper-based systems has 
real-world consequences. According to agency-wide performance 
metrics, benefits processes in ELIS should take 65 days. 
However, we found that in May 2015 processing was taking an 
average of 112 days, which is almost twice the amount of time 
it should take.
    Likewise, in our 2014 audit we reported that although ELIS 
capabilities had been implemented, the anticipated efficiencies 
still had not yet been achieved. In fact, we reported that 
adjudicating benefits on paper was actually faster than 
adjudicating them in ELIS. That remains unchanged even today.
    The Transformation process has created considerable risk 
for the program and the Nation. For instance, in November 2016 
we reported that the design and functionality problems in ELIS 
resulted in CIS in 3 years receiving over 200,000 reports from 
approved applicants about missing green cards--that is, cards 
that should have been mailed and received by the applicant but 
were not. We found such instances of missing or mis-delivered 
green cards had actually doubled in 2 years, between 2013 and 
2016.
    Our work also revealed that during that time CIS produced 
at least 19,000 cards that included incorrect information or 
were issued in duplicate.
    The agency then appears to--excuse me, the agency appears 
unable to address the root cause of these problems, which is 
the design and functionality limitations of ELIS. Although CIS 
went to considerable effort to try to recover inappropriately 
used--issued cards, its efforts were not fully successful and 
lacked consistency and a sense of urgency.
    Notwithstanding our significant body of work highlighting 
the ELIS functionality and performance problems, in April of 
last year CIS decided to roll out ELIS under the N-400 Form, 
which is the application for citizenship and one of the 
highest-volume and most complex benefit types. The roll-out was 
plagued with significant technical and functional issues, 
prompting the CIS director in August 2016 to discontinue the 
use of ELIS and revert to the legacy system for all new N-400 
applications.
    However, nearly 250,000 cases had already been adjusted 
between April and August and had to be completed in ELIS. As of 
February 24 of this year, more than 185,000 of those cases 
remain incomplete in ELIS. This is unsurprising, given how 
little progress CIS has made in addressing ELIS's core 
technical and functional issues.
    We have found other issues that highlight the challenges 
that CIS faces in immigration benefits processing.
    In September 2016 we issued a report that found that CIS 
granted citizenship to at least 858 individuals who may have 
been ineligible for citizenship because they had received 
deportation orders or removal orders under different identities 
in the past.
    The only fingerprint records that were available that 
linked these individuals to the deportation orders had been 
taken on old paper cards and simply stored in manually 
collected alien files under different names. When DHS decided 
to establish its electronic fingerprint repository it did not 
digitize and upload those fingerprint cards. Because they were 
not digitized, CIS could not match applicants for citizenship 
against those fingerprints.
    In addition, the report identified about 148,000 
fingerprint cards linking individuals to deportation orders, 
fugitive status, and criminal histories that still had not been 
uploaded to the DHS fingerprint repository. Fortunately, DHS 
has taken significant steps toward fixing this problem.
    We will continue to exercise diligent oversight over CIS, 
paying particular attention to issues impacting National 
security. Consistent with our obligations under the Inspector 
General Act, we will keep Congress fully and currently informed 
of our findings and recommendations.
    Mr. Chairman, this completes my prepared statement. I am 
happy to answer any questions that you or other Members of the 
committee may have.
    [The prepared statement of Mr. Roth follows:]
                    Prepared Statement of John Roth
                             March 16, 2017
    Chairman Perry, Ranking Member Correa, and Members of the 
committee, thank you for inviting me to discuss the Office of Inspector 
General's (OIG) work relating to weaknesses in U.S. Citizenship and 
Immigration Services (USCIS) systems for vetting immigration benefits. 
Today, I would like to focus on the findings of our work pertaining to 
a number of related issues, including USCIS information technology 
transformation issues, USCIS's ineffective use of fingerprint records 
in the naturalization process, and security weaknesses in USCIS's 
Systematic Alien Verification System for Entitlements (SAVE).
        issues with uscis information technology transformation
Functionality Issues Continue to Plague ELIS
    After 11 years, USCIS has made little progress in automating its 
paper-based processes. Past automation attempts have been hampered by 
ineffective planning, multiple changes in direction, and inconsistent 
stakeholder involvement. After years of planning and delay, USCIS 
deployed the Electronic Immigration System (ELIS) in May 2012 to 
modernize processing of approximately 90 immigration benefits types. 
However, currently customers can apply on-line for only 2 of the 90 
types of immigration benefits and services.
    ELIS was intended to provide integrated on-line case management to 
support end-to-end automated adjudication of immigration benefits. Once 
implemented, individuals seeking an immigration benefit should be able 
to establish on-line ELIS accounts to file and track their 
applications, petitions, or requests as they move through the 
immigration process.
    In March of last year, we issued a report that found that at the 
time of our field work, which ended in July 2015, little progress had 
been made.\1\ Specifically, we concluded:
---------------------------------------------------------------------------
    \1\ USCIS Automation of Immigration Benefits Processing Remains 
Ineffective, OIG-16-48 (March 2016).
---------------------------------------------------------------------------
  <bullet> Although USCIS deployed ELIS in May 2012, only 2 of 90 types 
        of immigration benefits were available for on-line customer 
        filing, accounting for less than 10 percent of the agency's 
        total workload. These two are the USCIS Immigrant Fee, which 
        allows customers to submit electronic payment of the $165 
        processing fee for an immigrant visa packet, and the 
        Application to Replace Permanent Resident Card (Form I-90).
  <bullet> Among the limited number of USCIS employees using ELIS, 
        personnel reported that the system was not user-friendly, was 
        missing critical functionality, and had significant performance 
        problems processing benefits cases. Some of those issues are 
        set forth in this chart:

              USCIS ELIS User Feedback on I-90 Processing

<bullet> Need to manually refresh 
website often to see the most 
recent information.
<bullet> Difficulty navigating 
among multiple screens and web 
browsers.
<bullet> Inability to move browser 
windows to view case data.
<bullet> Cases getting stuck 
throughout the process and 
inability to move to the next step 
without intervention.
<bullet> Inability to undo a 
function or correct a data entry 
error.
<bullet> Inability to enter 
comments on actions taken after a 
case has been adjudicated.          <bullet> Card errors received when 
                                    ``NMN'' is entered for applicants 
                                    with no middle name.
                                    <bullet> Failure to produce cards 
                                    for approved cases.
                                    <bullet> Inability to process 
                                    benefits for military or homebound 
                                    applicants.
                                    <bullet> Errors in displaying 
                                    customer date of birth.
                                    <bullet> Scheduling applicants to 
                                    submit biometrics (photo, 
                                    signature, prints) that are not 
                                    needed.
                                    <bullet> Inability to create a case 
                                    referral electronically once 
                                    adjudication is complete.

  <bullet> The limited ELIS deployment and current system performance 
        problems may be attributed to some of the same deficiencies we 
        reported regarding previous USCIS IT transformation attempts. 
        Specifically, USCIS did not ensure sufficient stakeholder 
        involvement in ELIS implementation activities and decisions for 
        meeting field operational needs. Testing had not been conducted 
        adequately to ensure end-to-end functionality prior to each 
        ELIS release. Further, USCIS had not provided adequate post-
        implementation technical support for end-users, an issue that 
        has been on-going since the first ELIS release in 2012.
  <bullet> As it struggles to address these system issues, USCIS told 
        us last March that it now estimates that it will take 3 more 
        years--over 4 years longer than estimated--and an additional $1 
        billion to automate all benefit types as expected. Until USCIS 
        fully implements ELIS with all the needed improvements, the 
        agency will remain unable to achieve its workload processing, 
        customer service, and National security goals.
  <bullet> We do not have confidence in USCIS's estimates for 
        completion, given past experience. Specifically, in 2011, USCIS 
        established a plan to implement ELIS agency-wide by 2014. 
        However, USCIS was not able to carry out this plan and the 
        schedule was delayed by 4 years, causing a program breach. An 
        updated baseline schedule for the Transformation Program was 
        approved in April 2015 estimating all benefits and services 
        would be automated by 2019; however, USCIS has shifted and 
        delayed these release dates.
  <bullet> Certain program goals have also not been met. According to 
        agency-wide performance metrics, benefits processing in ELIS 
        was to take less than 65 days. However, we found that in May 
        2015, processing was taking an average of 112 days, almost 
        twice that amount of time. Previous results also were slower 
        than their reported metric: 104 days in November 2014, 95 days 
        in February 2015, and 112 days in May 2015. By slowing down the 
        work of adjudicators, ELIS was resulting in less efficiency and 
        productivity in processing benefits.
    Similarly, in 2014, we reported that although ELIS capabilities had 
been implemented, the anticipated efficiencies still had not been 
achieved.\2\ In fact, we reported that adjudicating benefits on paper 
was faster than adjudicating them in ELIS. This remains unchanged even 
today. Ensuring progress in operational efficiency was hampered by the 
fact that USCIS lacked an adequate methodology for assessing ELIS's 
impact on time and accuracy in benefits processing. Beyond obtaining 
feedback from personnel and customers using the system, the 
Transformation Program Office could not effectively gauge whether cases 
were being adjudicated more efficiently or accurately in ELIS.
---------------------------------------------------------------------------
    \2\ U.S. Citizenship and Immigration Services Information 
Technology Management Progress and Challenges, OIG-14-112 (July 2014).
---------------------------------------------------------------------------
    We made four recommendations to the USCIS Director to improve ELIS 
functionality. The USCIS Director concurred with only two of the four 
recommendations. USCIS's inability to implement ELIS with all needed 
improvements has continued to negatively affect USCIS's ability to 
deliver immigration and citizenship benefits, which raises security 
risks.
Impact of ELIS Issues on Green Card Issuance
    Since May 2013, USCIS processing of new and replacement Permanent 
Resident Cards (commonly referred to as green cards) has been 
accomplished using ELIS. Yet the process has been fraught with issues, 
creating considerable security risk for the Nation. For instance, in 
March 2016, we reported that USCIS had sent potentially hundreds of 
green cards to the wrong addresses due to an ELIS limitation that 
prevented USCIS personnel from updating customer addresses.\3\ 
Additionally, in November 2016, we reported that design and 
functionality problems in ELIS resulted in USCIS receiving over 200,000 
reports from approved applicants about missing green cards.\4\ 
Obviously, the possibility that some of these missing green cards may 
have fallen into the wrong hands raises significant security concerns.
---------------------------------------------------------------------------
    \3\ USCIS Automation of Immigration Benefits Processing Remains 
Ineffective, OIG-16-48 (March 2016).
    \4\ Better Safeguards Are Needed in USCIS Green Card Issuance, OIG-
17-11 (November 2016).
---------------------------------------------------------------------------
    Despite the risk posed by improperly issued green cards, however, 
USCIS has seen the number of cards sent to wrong addresses increase 
since 2013. For instance, service requests initiated by USCIS customers 
claiming they did not receive green cards increased from 44,519 in 
fiscal year 2013 to 92,645 in fiscal year--in other words, the error 
rate doubled in only 2 years. Our work also revealed that between 2013 
and 2016, USCIS produced at least 19,000 cards that included incorrect 
information or were issued in duplicate. From March to May 2016 alone, 
USCIS issued at least 750 duplicate cards to its customers as a result 
of ELIS functionality or legacy data migration problems. In some cases, 
applicants paid the processing fee twice and received two cards. In 
another case, an applicant received green cards that belonged to two 
other applicants. And in several extreme cases, five cards were 
produced per customer over the course of a single month.
    The agency appears unable to address the root cause of these 
problems--design and functionality limitations of ELIS. Although USCIS 
went to considerable effort to try to recover the inappropriately-
issued cards, its efforts were not fully successful and lacked 
consistency and a sense of urgency.
    Improperly-issued green cards can pose significant risks and 
burdens for the agency. For instance:
  <bullet> Denied Benefits for Approved Applicants.--Green cards issued 
        with incorrect personal information can have severe 
        consequences for applicants who have become lawful permanent 
        residents. For example, recipients possessing cards with errors 
        could experience denial of benefits or possible card 
        confiscation with accusations of fraudulent intent. This 
        creates unnecessary hardship for the applicant who must reapply 
        for a corrected card. Also, when cards are missing or not 
        properly delivered, applicants may be unable to obtain or renew 
        driver's licenses or Social Security cards, obtain employment 
        without interruption, or gain authorization to exit and re-
        enter the United States. In such cases, approved applicants may 
        not be able to exercise their rights as lawful immigrants.
  <bullet> Additional Workload and Costs.--Responding to card issuance 
        errors results in additional workload and costs. USCIS 
        addresses thousands of customer inquiries every month regarding 
        non-delivery of green cards. The associated cost of dealing 
        with these customer inquiries has significantly increased over 
        the last few years. Specifically, the cost to USCIS for 
        receiving and responding to non-delivery service requests 
        almost doubled from approximately $780,000 in fiscal year 2013 
        to nearly $1.5 million fiscal year 2015.
  <bullet> National Security Risks.--Most concerning, thousands of 
        cards issued with incorrect information or in duplicate remain 
        unaccounted for, creating opportunities for exploitation by 
        individuals with malicious intent. For instance, green cards 
        that fall into the wrong hands may enable illegal immigrants to 
        remain in the United States and demonstrate legal residence 
        status to employers. Drivers' licenses, firearms, and concealed 
        handgun licenses may be issued to card holders in certain 
        States without restrictions. Officials within CBP's Fraudulent 
        Document Analysis Unit confirmed that there is a huge black 
        market demand for legal documentation such as green cards, as 
        over 4,600 cases of imposter green cards were recorded between 
        2013 and 2015.
    Processing and issuing over 2 million green cards per year is a 
massive undertaking. USCIS must ensure that ELIS's design and 
functionality can be relied upon to accurately process green cards. 
Until USCIS takes the steps needed to prevent card issuance errors, the 
upward trend in agency costs, as well as the risks to applicants and 
National security, is only likely to continue. We made seven 
recommendations to the USCIS Director to improve ELIS functionality and 
develop internal controls to avoid inappropriate green card issuance, 
standardize card recovery and tracking efforts, prevent unrecoverable 
card use, and enable remote identity verification and more secure card 
delivery methods. The USCIS Director concurred with our 
recommendations, but it remains to be seen how and when USCIS will be 
able to address these issues.
Impact of ELIS Issues on Naturalization Application Processing
    Given the ELIS functionality and performance problems identified in 
our earlier work, we began an assessment in December 2016 of USCIS's 
current efforts to automate processing of the N-400 Application for 
Naturalization in ELIS. The N-400 is a high-volume benefit type within 
the citizenship line of business, involving all field offices Nation-
wide. On average, USCIS receives 66,000 N-400 applicants per month and 
naturalizes over 3,300 new U.S. citizens each day. N-400 is a key 
product line, as this is the ultimate immigration benefit for U.S. 
citizenship. Having electronic capabilities to support the end-to-end 
process is critical to enable efficiency and accuracy in conducting 
background checks, scheduling and conducting interviews, administering 
tests, scheduling oath ceremoneys, naturalization certificate printing, 
and sharing case data with Department of Homeland Security (DHS) 
partners once naturalization has taken place.
    Our on-going review has already uncovered significant operational 
and security issues that pose grave concern. Since the deployment of 
the N-400 in ELIS on April 13, 2016, the system has impaired the 
ability of USCIS Immigration Services Officers and field personnel to 
conduct naturalization processing. Through our preliminary work, we 
have identified a range of ELIS technical and functional issues that 
have slowed processing and productivity, including:
  <bullet> Missing core ELIS functionality;
  <bullet> Naturalization cases stuck in ELIS workflows, requiring 
        manual intervention for case progression;
  <bullet> Frequent ELIS and network outages;
  <bullet> ELIS failure to connect with supporting systems; and
  <bullet> Multiple or erroneous cancellation of applicant interviews.
    On-going USCIS efforts to correct technical deficiencies while 
concurrently continuing to develop system functionality have resulted 
in ELIS down time, instability, and repeated changes that interrupt 
processing and confuse system users. Moreover, the USCIS Field 
Operations Directorate identified significant challenges which are 
preventing effective naturalization processing. These deficiencies 
include incomplete or inaccurate background and security checks, which 
have National security implications, as well as wide-spread certificate 
printing problems that delayed numerous naturalization oathing 
ceremoneys.
    Given these issues, the USCIS Director in August 2016 discontinued 
the use of ELIS and reverted to the legacy system for all new N-400 
applications received after that date. However, the 243,951 cases 
already ingested between April 2016 and August 2016 had to be completed 
in ELIS. As of February 24, 2017, 188,447 cases remained incomplete in 
ELIS. This is unsurprising given how little progress USCIS has made in 
addressing ELIS's core technical and functional issues.
    Early this year, in the midst of our assessment, we learned of an 
impending decision by USCIS leadership to return to processing new N-
400 applications in ELIS by late January 2017. Given the serious nature 
of the issues our review had already uncovered, we took the uncommon 
step of issuing a Management Alert on January 19, 2017 recommending 
that USCIS halt its plans to revert to using ELIS for N-400 application 
processing.\5\ We were concerned about the risk posed by such a move 
given the many unresolved problems with ELIS.
---------------------------------------------------------------------------
    \5\ Management Alert--U.S. Citizenship and Immigration Services' 
Use of the Electronic Immigration System for Naturalization Benefits 
Processing, OIG-17-26-MA (January 2017).
---------------------------------------------------------------------------
    In response to our Management Alert, USCIS initially agreed to 
delay the return to ELIS processing until all of the technical issues 
had been resolved. We know that the agency is continuing to assess when 
to return N-400 processing to the ELIS system. We continue to urge 
caution in resuming the program without thoroughly and carefully 
addressing the numerous design and functional limitations. USCIS's 
adherence to time tables at the expense of a properly functioning 
system would create unnecessary serious risk to the program goals and 
to National security.
    We are slated to complete our N-400 review later this spring, and 
will provide a report of our findings and recommendations to Congress 
to ensure that Congress remains fully and currently informed on this 
matter.
              uscis ineffective use of fingerprint records
    Information technology transformation problems are not the only 
issue USCIS faces with respect to its immigration benefits processing. 
In September 2016, we issued a report that identified vulnerabilities 
in the immigration system caused by incomplete records in the DHS 
fingerprint repository.\6\ We initiated the review after receiving a 
list of 1,029 individuals who allegedly were ineligible for naturalized 
citizenship, yet received it, because fingerprint records linking them 
to disqualifying facts were not available.
---------------------------------------------------------------------------
    \6\ Potentially Ineligible Individuals Have Been Granted 
Citizenship Because of Incomplete Fingerprint Records, OIG-16-130 
(September 2016).
---------------------------------------------------------------------------
    Our report confirmed that USCIS granted citizenship to at least 858 
individuals on the list who may have been ineligible for naturalized 
citizenship because they had received deportation orders under 
different identities in the past. The only fingerprint records 
available that linked the individuals to the deportation orders had 
been taken on old paper cards and stored in alien files under different 
names. When DHS established its electronic fingerprint repository, it 
did not digitize and upload those fingerprint cards.
    In addition, the report identified about 148,000 fingerprint cards 
linking individuals to deportation orders, fugitive status, and 
criminal histories that were not uploaded to the DHS fingerprint 
repository. Because those records are missing from the fingerprint 
repository, USCIS risks naturalizing additional individuals who may be 
ineligible for citizenship or who may be trying to obtain U.S. 
citizenship fraudulently.
    The report made two recommendations: (1) The Directors of USCIS, 
Immigration and Customs Enforcement (ICE), and DHS's Office of 
Operations Coordination (OPS) should establish a plan for evaluating 
the eligibility of each naturalized citizen whose fingerprint records 
reveal deportation orders under different identities; and (2) ICE 
should digitize and upload the 148,000 missing fingerprint records to 
the Department's electronic fingerprint repository. Although the 
recommendations are still open, DHS has taken significant steps toward 
closing them. For example, in December 2016, ICE reported that it 
awarded a contract to review and upload available data from the 148,000 
missing fingerprint records with an estimated completion date of June 
30, 2017. With regard to recommendation 1, as of early December 2016, 
ICE has reportedly completed a review of 96 percent of the reported 
1,746 cases and has begun developing Affidavits of Good Cause for cases 
that will be referred for possible denaturalization.
      uscis systematic alien verification system for entitlements
    In December 2012, we reported on a serious security weakness in 
USCIS's Systematic Alien Verification System for Entitlements 
(SAVE).\7\ Federal, State, and local entities use SAVE to validate an 
individual's immigration status prior to granting benefits. In most 
cases, an error in SAVE verification means that a deportable individual 
can receive benefits ranging from public assistance to a driver's 
license. In some instances, the errors can have National security 
implications when erroneously cleared individuals receive credentials, 
such as a Transportation Worker Identification Card, which allows them 
unescorted access to secure areas of the Nation's vessels and maritime 
facilities.
---------------------------------------------------------------------------
    \7\ Improvements Needed for the SAVE to Accurately Determine 
Immigration Status of Individuals Ordered Deported, OIG-13-11 (December 
2012).
---------------------------------------------------------------------------
    Through our work, we projected via sample testing that USCIS had 
failed to identify the deportable status of 12 percent of individuals 
submitted through SAVE. In these instances, SAVE reported that 
individuals still had legal status in the United States when in fact 
the U.S. Immigration Courts had ordered that they be deported. Many 
deportable individuals had felony convictions involving extortion, 
aggravated assault, burglary, or possession of dangerous drugs.
    Errors occurred because SAVE did not have a process to timely 
receive information from the U.S. Immigration Courts on the status of 
deportable individuals. To address this control weakness, we 
recommended that USCIS identify and build interfaces to appropriate 
systems so that it can receive up-to-date information on individuals in 
deportable status. However, despite the serious security implications, 
it took USCIS nearly 45 months to implement and begin using the system 
interface we recommended.\8\
---------------------------------------------------------------------------
    \8\ Verification Review of USCIS's Progress in Implementing OIG 
Recommendations for SAVE to Accurately Determine Immigration Status of 
Individuals Ordered Deported, OIG-17-23-VR (January 2017).
---------------------------------------------------------------------------
    According to USCIS officials, the interface between SAVE and the 
Department of Justice system containing up-to-date information on 
deportable aliens did not become operational until August 2016. USCIS 
needs to accelerate its implementation of DHS OIG recommendations, 
particularly those designed to address National security gaps related 
to processes for verifying an immigrant's legal status.
                          on-going audit work
    Our considerable workload includes a number of on-going and 
recently-completed matters involving USCIS, including:
  <bullet> Review of USCIS's N-400 Automation.--Discussed above.
  <bullet> Capabilities to Screen Social Media Use of Visa and Asylum 
        Seekers.--DHS has established a task force for using social 
        media to screen applicants for immigration benefits. In 
        connection with that effort, USCIS began pilots to expand 
        social media screening of immigration applicants. Additionally, 
        ICE independently began a pilot to use social media screening 
        during the visa issuance process.
  <bullet> However, in an audit report released last week, we found 
        that these pilots, on which DHS plans to base future 
        Department-wide use of social media screening, lack criteria 
        for measuring performance to ensure they meet their objectives. 
        Although the pilots include some objectives, such as 
        determining the effectiveness of an automated search tool and 
        assessing data collection and dissemination procedures, it is 
        not clear DHS is measuring and evaluating the pilots' results 
        to determine how well they are performing against set criteria. 
        Absent measurement criteria, the pilots may provide limited 
        information for planning and implementing an effective, 
        Department-wide future social media screening program.\9\
---------------------------------------------------------------------------
    \9\ DHS's Pilots for Social Media Screening Need Increased Rigor to 
Ensure Scalability and Long-term Success (Redacted), OIG 17-40 
(February 2017).
---------------------------------------------------------------------------
  <bullet> H-2 Petition Fee Structure.--USCIS's H-2 program enables 
        employers to petition to bring temporary non-immigrant workers 
        into the United States. We performed this audit, released last 
        week, to determine whether the fee structure associated with H-
        2 petitions is equitable and effective.
  <bullet> We found that the USCIS's H-2 petition fee structure is 
        inequitable and contributes to processing errors. Federal 
        guidelines indicate that beneficiaries should pay the cost of 
        services from which they benefit. However, USCIS charged 
        employers a flat fee regardless of whether it was to bring one 
        or hundreds of temporary non-immigrant workers into the United 
        States, creating greater hardship for smaller employers than 
        larger ones. Moreover, each worker listed on a petition must be 
        vetted through an extensive adjudication process, for the most 
        part within 15 days. Large petitions are complex and error-
        prone when adjudicators rush to process them within required 
        time frames.\10\
---------------------------------------------------------------------------
    \9\ H-2 Petition Fee Structure is Inequitable and Contributes to 
Processing Errors, OIG-17-42 (March 2017).
---------------------------------------------------------------------------
  <bullet> USCIS H-1B Visa Program Abuse.--The focus of this audit is 
        to determine whether H-1B visa holders are actually working for 
        the employer for which they were approved, and whether visa 
        holders are being used to replace U.S. citizen workers.
  <bullet> Historical Fingerprint Enrollment (HFE) Identity Fraud.--The 
        focus of this audit is to determine how aliens whose 
        fingerprints were uploaded into IDENT through the HFE received 
        immigration benefits under another identity, the types of 
        benefits they received, and their country of origin.
  <bullet> Variations in Application Processing Times Among USCIS Field 
        Offices.--The focus of this audit is to identify the reason(s) 
        for variations in application processing times among USCIS 
        field offices.
  <bullet> Effectiveness of USCIS Medical Screening.--The focus of this 
        audit is to assess USCIS effectiveness in screening foreign 
        nationals to meet health-related standards of admissibility.
    We will continue to exercise diligent oversight over USCIS--paying 
particular attention to issues impacting National security--and, 
consistent with our obligations under the Inspector General Act of 
1978, will keep Congress fully and currently informed of our findings 
and recommendations.
    Mr. Chairman, this concludes my prepared statement. I am happy to 
answer any questions you or other Members of the committee may have.

    Mr. Perry. Chair thanks Mr. Roth.
    The Chair now recognizes himself for 5 minutes of 
questions.
    Mr. Roth. I mean, you can hear in Ms. Scialabba's testimony 
that it is indeed a daunting task, right? I think about 
23,000--is that what you said--23,000 applicants a day that you 
have to review?
    We accept that it is difficult and it is large, but it is a 
job that you have.
    In November the OIG found that USCIS issued at least 19,000 
green cards that duplicated existing cards or that had 
incorrect information.
    Per your testimony, Mr. Roth, and I think you just 
mentioned it, that USCIS received over 200,000--200,000 reports 
for approved applicants about missing green cards. Mr. Roth, 
can you discuss the potential National security implications 
regarding a lack of management and attention to green card 
issuance and what the market may be for these green cards once 
they are out there?
    Mr. Roth. Certainly. It is an identity document that is 
issued by the Federal Government, so you can use that identity 
document for any one of a number of things. You can get a 
driver's license, for example; you can get public benefits, for 
example; you can get access to secure areas. For example, there 
is something called the TWIC card, which is the Transportation 
Worker Identity Card, that allows you to go into seaports and 
other sensitive areas if you have the proper Federal 
identification.
    So that worries us. We talked to CBP and they said that 
there is an on-going black market for those kinds of fraudulent 
green cards that are used for nefarious purposes.
    Mr. Perry. That sounds pretty significant. While in the 
scale of the amount of information that Ms. Scialabba's agency 
goes through maybe it is seen as minuscule or de minimis, but 
if you are somebody that is aggrieved by somebody that used 
them nefariously or, heaven forbid, there is an attack based on 
the use of them, it is not going to be de minimus at that 
point.
    Let's turn a little bit to asylum tracking and fraud. The 
GAO reported in 2015 that USCIS and the Department of Justice's 
Executive Office for Immigration Review had limited 
capabilities to detect asylum fraud, for which the GAO 
concluded may affect the integrity of this--the asylum system. 
The GAO also reported that neither DHS nor DOJ had assessed the 
risks across the asylum process.
    Ms. Scialabba, what are your plans to review these risks 
across the entire system?
    Ms. Scialabba. We are currently right now going through a 
process where we are reviewing all of the vetting that we do 
and all of the systems that we check, in terms of asylum and 
refugee processing. I am assuming when you say ``asylum'' you 
mean here in the United States.
    Mr. Perry. Correct.
    Ms. Scialabba. We are very careful with our asylum program. 
We do a lot of training. We do a lot of country condition 
training for asylum officers.
    We also look to check every system that we can find that we 
have access to in terms of data.
    As I said, we are currently in the process of reviewing 
that vetting process and what we are doing in the asylum 
program to make sure we are covering as much as we can in terms 
of trying to determine fraud.
    We are also looking at some additional tools that will help 
us identify schemes of fraud, where you have a situation where 
maybe you have used the same address a hundred different times 
to file asylum applications. In a paper-based system that is 
hard to find.
    Mr. Perry. Right.
    Ms. Scialabba. That is why we need to go to an electronic 
system. We need to be able----
    Mr. Perry. Yes. There is an urgency----
    Ms. Scialabba [continuing]. To analyze that----
    Mr. Perry [continuing]. Connected with this.
    Ms. Scialabba [continuing]. And be able to see that. Right 
now we catch it sometimes. Most often it is an officer who will 
notice it and refer it to a Federal----
    Mr. Perry. You would agree that relying on just catching it 
is not----
    Ms. Scialabba. It is not sufficient.
    Mr. Perry [continuing]. Not optimal, right?
    Ms. Scialabba. It is not sufficient.
    Mr. Perry. Ms. Harris, since the review is not completed 
under the previous administration is it safe to say that those 
potentially wanting to do harm may have been granted asylum by 
providing fraudulent information to the U.S. Government?
    Ms. Harris. Mr. Chairman, I think you are raising a very 
good point in terms of the weaknesses associated with the 
current process that USCIS uses to identify fraud risks more 
strategically across the asylum program.
    I think the important thing to keep in mind here is that 
because of the deferral of the ELIS functionality, that USCIS 
is not in a position to systematically identify these fraud 
risks associated with the asylum applications. It is very 
difficult for them since it is all essentially paper-based.
    So, to the extent that that information can be captured 
electronically so that software tools and other types of 
automated tools can be used to identify systematically these 
types of risks, that will put USCIS in a better position to 
identify these types of risks as well as identify patterns and 
trends.
    Mr. Perry. All right.
    Just for clarification, when we talk about fraud risks in 
this regard I think maybe some people will assume that this has 
to do maybe with identity theft or maybe some sub-level crimes, 
infractions that maybe they won't find harmful to the general 
populace. But when we are talking about fraud risk we are 
talking about potential criminals and terrorists using this 
information to compromise our National security.
    So it is no small matter whatsoever. These fraud risks lead 
to potentially horrific occurrences within the homeland, within 
the contiguous and noncontiguous United States, and they are 
exceptionally important.
    With that, Chair now recognizes the Ranking Member, Mr. 
Correa.
    Mr. Correa. Thanks, Mr. Chair.
    I just wanted to follow up on the Chair's questions in 
terms of digitalizing this information seems to be a challenge, 
yet it is one of the big, glaring weaknesses in the process.
    So my question is: What do you need to go out and hire more 
folks internally to essentially digitalize fingerprint cards, 
digitalize other basic information that you need to cross-check 
a lot of these applications?
    Question to whoever wants to answer it.
    Ms. Scialabba. I can answer that.
    Let me first start by saying paper-based fingerprint cards 
are not just a USCIS issue. You have got paper-based 
fingerprint cards in local law enforcement; FBI still has 
paper-based fingerprint cards.
    They are everywhere, because back when you took those cards 
there was no way to digitize them. Going back through the 
process and trying to put those into a system and digitizing, 
you are talking about millions of fingerprint cards.
    I will say that the fingerprint cards that are now being 
ingested into our database, ICE is the one that is doing that, 
which is good because then we have that access to that 
information so that we can review it. Once they have ingested 
that information in, we have gone back and reviewed the cases 
that were granted. We are in the process of actually reviewing 
every single case that the inspector general referred to.
    Matter of fact, we have finished the review of all those 
cases and we are getting ready to refer the cases where we have 
found that someone has another identity, because they had that 
identity based on a paper-based fingerprint card that was not 
digitized and was not available for anybody to see--not only 
us; law enforcement, FBI, nobody could have seen that 
fingerprint at the time. We have gone back, we have reviewed 
all of those files, and we are getting ready to refer the cases 
to the Department of Justice for prosecution.
    Mr. Correa. So a step further to that, it is a National 
issue then. It is not you----
    Ms. Scialabba. It is a National issue.
    Mr. Correa. So taking it a little iteration further, do you 
coordinate with other international police organization--
Interpol, Mexico, Canada, some the others--in terms of sharing 
some of that information to see if there are, in fact, some of 
those organized crime groups outside the United States that 
could possibly--some of that information assist you in that 
vetting process?
    Ms. Scialabba. We have some very good partners 
internationally in terms of vetting, particularly the United 
Kingdom, Australia, New Zealand, Canada. We have had robust 
sharing agreements with them for some time.
    Mr. Correa. Have you had those with Mexico?
    Ms. Scialabba. We do get some information from Mexico. 
Mainly that is through our law enforcement partners. But those 
are the systems that we check.
    I wanted to make one particular statement in terms of the 
asylum fraud. When I talk about fraud I am talking about a 
scheme of someone basically lying about whether or not they 
actually have an asylum claim.
    We check systems that will tell us if there is a record 
that someone is a terrorist or if they have got a criminal 
background. We continuously vet those and we would know if 
there is any information available about someone being a 
terrorist or somebody being watch-listed or somebody being a 
criminal. We check those in our systems; it is not just ELIS. 
We do TECS checks.
    Mr. Correa. A follow-up question: The Chairman was talking 
and made some very good comments about some of the citizenship 
green cards that should not have been issued that were issued 
because of internal mistakes, because your I.T. systems are not 
up the way they should be. But converse to that, how many green 
cards, how many citizenships have there been denied because of 
mistakes the other way?
    You understand what I am saying? If your information 
systems are not working to the point where you deny somebody--
or you give somebody a citizenship, a green card they should 
not have, are there mistakes being made we deny a green card or 
citizenship to somebody who should have them?
    Ms. Scialabba. I am not aware of that. I think if there is 
a situation where somebody is denied citizenship or permanent 
residence there are appeal rights that they have to----
    Mr. Correa. Let me follow up one last question.
    Ms. Scialabba. Sure.
    Mr. Correa. I am running out of time.
    Fraud, people getting information or documents they 
shouldn't get, how many of those to your knowledge are due to 
maybe folks on the inside that are being bought off or bribed? 
In the years past I know some of the border agents were 
actually conspiring with bad elements to do things they 
shouldn't have been doing.
    Are you aware of any those cases inside that may be taking 
advantage of the weaknesses right now in the information 
systems?
    Ms. Scialabba. I am not aware of any. You are talking about 
internal security----
    Mr. Correa. That is correct.
    Ms. Scialabba [continuing]. And we are very careful that 
internal security as well as external security. I am not aware 
of any of those situations.
    Most of the time when a green card goes to the wrong place 
it is because we didn't have the right address. We use the last 
address that we had and this is a population that moves 
frequently. So we have mailed the card to the last known 
address and it turns out that that is not the address the 
person is still at.
    Mr. Correa. Mr. Chair, I yield my time.
    Mr. Perry. Chair thanks the gentlemen.
    The Chair now recognizes the gentleman from Louisiana, Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Roth. my question is going to be directed at you, sir. 
I have been a law enforcement professional for the last 13 
years and I have personally--I personally processed several 
thousand paper fingerprint cards. But during the course of my 
career, AFIS came into a full head of steam within the law 
enforcement community.
    Are you familiar with AFIS, sir, the Automated Fingerprint 
Identification System?
    Mr. Roth. Yes, I am.
    Mr. Higgins. As far as I know, in the civilian world of law 
enforcement every jail from sea to shining sea has been using 
digitalized finger printing for 25 years.
    So it is striking for me, from a perspective of reality, 
that the civilian world has responded to digitalized 
fingerprints for obvious reasons. People have had computers on 
our desks since the 1980's, and yet we are listening to 
testimony stating that somehow the Federal Government, after 
billions of dollars of expenditure of the people's treasure, 
has not quite caught up with that.
    Can you explain that please, sir?
    Mr. Roth. Sure. I mean, DHS right now is completely 
digitalized with regard to fingerprints. They use the same kind 
of system that the FBI uses. It is actually a different system, 
but they talk to each other. So there is complete uniformity 
with regard to currently how it is that, for example, 
immigrants are processed or if, in fact, somebody gets picked 
up and then an order of deportation is issued or an order of 
removal is issued, then those digital fingerprints will be 
available for adjudication.
    The difficulty was in the past--so this is before the 
digitization occurred, which was really for DHS right around 
the time of its inception around the early 2000, 2003, 2004 
time frame--they were still using paper fingerprints. So you 
would have an individual who was audit status who gets picked 
up and he gets an order of removal. They rolled his 
fingerprints just like they do for everybody else, and then 
they stick those fingerprints into the alien--the paper-based 
alien file that CIS keeps or that the Department of Justice 
keeps or ICE keeps indicating that, in fact, there was a final 
order of removal against this person.
    Now, 10 years later this guy, No. 1, may have never left, 
or No. 2, had come back and, in fact, applied for both status 
as a green card and then permanent--or citizenship. There was 
no way to access that paper-based fingerprint that got rolled 
10 years before.
    So right now the system works perfectly fine. The issue was 
that they knew that they had this large repository of 
fingerprints that were paper-based and they didn't take the 
extra effort to digitize those prints. That is one of the 
things that we found. Frankly, if we hadn't done the audit I 
think we would still be sitting here with a whole host of 
paper-based files.
    Mr. Higgins. Immigration benefit fraud involves a willful 
misrepresentation of material fact for the purpose of obtaining 
an immigration benefit, such as asylum status, without lawful 
entitlement. The Department of Homeland Security and Department 
of Justice have established dedicated anti-fraud entities 
within USCIS.
    Referring back to the fingerprint issue, does the USCIS 
I.T. system, sir, communicate with AFIS?
    Mr. Roth. The CIS system uses the DHS information system, 
which is called TECS, T-E-C-S, which, in fact, then----
    Mr. Higgins. OK. Do those systems talk to each other?
    Mr. Roth [continuing]. Communicates--yes. Justice and DHS 
talk to each other when it comes to those things.
    Mr. Higgins. The paper print files that have been taken 
prior to the current digitalized age, as the individuals 
interact with immigration services in some way, are their 
fingerprints upgraded to digital status?
    Because in a civilian world, if, you know, repeat offenders 
that get arrested again and again is a common occurrence, and 
as they come through the jail if they haven't been arrested 
for, you know, 5, 6, 8, 10 years, then it doesn't matter that 
their original print files were paper because every time they 
get booked they get loaded into AFIS.
    Is there any system within the Federal Government's effort 
to control illegal and criminal status of immigrants--is there 
any effort to digitalize prints?
    With that, my time has expired, so perhaps in a further 
moment, Mr. Chair.
    Mr. Roth. Sure, of course. Yes. What we had found in our 
audit was the fact that there was about 150,000 fingerprints 
that had not yet been digitized. They had digitized a number of 
them, functionally ran out of money, and then stopped the 
process.
    As a result of our audit report, they found the money. In 
fact, they should have all those fingerprints digitized by the 
end of the fiscal year.
    So to answer your question, as far as it concerns orders of 
removal--in other words, the CIS and ICE deportation efforts--
those will be fully digitized by the end of the fiscal year.
    Mr. Higgins. Thank you, sir.
    Mr. Perry. Chair thanks the gentleman.
    The Chair now recognizes the gentlewoman from New York, 
Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Roth, can I take you back to I think it was in 2008, 
when IBM was hired to--at a cost of half a billion dollars to 
put the system together, a--you know----
    Mr. Roth. That is correct.
    Miss Rice. Can you just walk us through that?
    Mr. Roth. I can certainly talk about what it is that we 
saw, which was, you know, that was the old sort of what they 
call the waterfall system, where you would hire some major 
contractor who would, say, you know, create a system for 
beginning to end, a single unitary system. It would take years 
of development.
    Of course, the I.T. systems don't stop. In other words, the 
technology improves but somehow what it is that you contracted 
for doesn't move.
    As a result of what was, you know, clearly an unfortunate 
situation there, CIS has moved. I believe in her testimony Ms. 
Scialabba talked about the fact that they moved from this 
waterfall system to an agile system, which is instead of doing 
one massive thing with one massive contractor we will have a 
bunch of different pieces of the process contracted out and the 
Government itself will be the integrator. In other words, we 
will contract out this part of it to one company and that part 
of it to another company and we will do it in smaller pieces 
and then implement it only in pieces.
    So that was the theory. It didn't quite work out that way, 
and I think everybody at this table acknowledges that the agile 
system that CIS used had some problems with it.
    Miss Rice. So why? I mean, if the waterfall system was so 
bad, this system was supposed to be better. Why was it not?
    Mr. Roth. There are a couple reasons. One is it requires 
the Federal Government to do the integration, so it requires a 
fair level of sophistication by sort of feds, Government 
individuals, to be able to do that in the right way. Second, it 
requires----
    Miss Rice. Are you saying that we don't have that 
sophistication?
    Mr. Roth. I think that was one of the core issues that we 
found during the series of our audits, that, in fact, there 
wasn't that kind of expertise available.
    Second, it requires communication between those folks who 
actually use the system and the people who are designing and 
implementing the system. We found that that was problematic 
with regard to the CIS roll-out.
    Third, there is this issue of governance. In other words, 
the people at the top have to have clear information and an 
understanding of what the progress was. Quite frankly, I think 
that the senior leadership at CIS wasn't getting the kind of 
information it needed to make intelligent decisions.
    In January of last year I had a meeting with the head of 
CIS--not Ms. Scialabba, but her predecessor--who seemed unaware 
and sort-of highly resistant to some of our audit findings, our 
proposed audit findings. Frankly, the only thing that we could 
figure out is that he wasn't getting the kind of information 
that he needed to make the kinds of decisions that he needed to 
make.
    So those were some of the issues. The other is this idea of 
agile technology or agile development. It means you are going 
to take the software and you are going to put it out in what is 
called a minimal viable product, which means, you know, we are 
going to do small pieces but those pieces are actually going to 
work.
    So one of things, for example, in today's testimony is 
like, ``Well, we are going to roll out the N-400. And we are 
prepared to pull it back if it doesn't work.'' Well, that is 
not a minimally viable product.
    If, in fact, you roll it out and 4 months later you have a 
backlog of 250,000 applications that you are still not--haven't 
been able to grind through, that means you released a product 
that was not minimally viable. What you should have done is 
engage in further testing, sort-of stress testing, of the 
software before you rolled it out.
    So to my point of view, the--this idea that, well, we will 
put it out when if it breaks and it breaks the system and we 
have a quarter-million applicants, well we will then just pull 
it back. That is not agile. That is just not the right way to 
roll out software.
    Miss Rice. So I see a lot of parallels between the complete 
and utter waste of money here. I mean, now this--it goes from 
$2.1 billion to over $3 billion, right, in cost? Right?
    Mr. Roth. You know, we don't know exactly what it is going 
to cost at the end of the day.
    Miss Rice. That is not even the end of the day.
    So, you know, I sit on the Veterans' Affairs Committee, 
too, and I personally think that the V.A. should not be in the 
business--they are not general contractors. They should not be 
in the business of building anything. There is a hole in the 
ground, practically, in Aurora, Colorado and, you know, I don't 
know how many billions of dollars later there is nothing there.
    So, in light of the lack of expertise that you are saying 
exists in CIS, No. 1, from a technical standpoint, and in light 
of President Trump's desire to cut budgets that are going to 
affect CIS, how are they going to do what they have to do with 
even less money?
    Mr. Roth. Well, CIS is fee-based so they will not be as 
affected, I think, by whatever budget cuts occur. But I would 
agree that this is a high-risk system. It has been----
    Miss Rice. The hiring freezes--that is not affected? You 
can't get the talent if you--if there is a hiring freeze and 
you can't hire people.
    Mr. Roth. I don't think there is any question that this is 
a high-risk system and there are some hard decisions to be made 
with regard to how CIS moves forward.
    Miss Rice. I am sorry, can you repeat that?
    Mr. Roth. Sure. I don't think anybody disputes that this is 
a high-risk system and that the history of it has shown that it 
is a high-risk system, and I think CIS is going to make--have 
to make some hard decisions as to how they are going to move 
forward on this.
    Miss Rice. Well, so they need money, they need real talent, 
and they need real management, right?
    Mr. Roth. Correct.
    Miss Rice. OK.
    Thank you, Mr. Chairman.
    Mr. Perry. Chair thanks the gentlelady.
    The Chair now recognizes the gentleman from South Carolina, 
Mr. Duncan.
    Mr. Duncan. Chairman Perry, thank you.
    I would be remiss if I didn't mention the court decision 
yesterday on President Trump's Executive Order to pause 
refugees and visa issuance to people from six Middle East and 
North Africa countries. The judge, this is judicial activism at 
its worst when the judge uses political rhetoric in his 
decision--not the statute, not the law, because the statute and 
the law is pretty doggone clear that the President has the 
ability to do this; it has been used from Jimmy Carter 
forward--but use campaign rhetoric to pause or halt through 
judicial activism an Executive Order.
    These are the same countries that President Obama signed 
into law that do not have the records necessary for the vetting 
process, don't cooperate with U.S. processes. It is where 
terrorists are embedded.
    So if it was truly a Muslim ban a rhetorical question to 
ask ourselves is: Why wouldn't it list the largest Muslim 
population countries in the world? If I ask you that question 
you may say, well, that is Saudi Arabia or some.
    No, it is Indonesia. Second is Pakistan. Third is India.
    So it is not a Muslim ban. It is targeting countries that 
we know ISIS has infiltrated.
    Take ISIS at their word. They said they are going to 
infiltrate our refugee program and our visa program to try to 
come to this country to do harm to America and Western 
interests. The facts are clear that these countries are 
harboring terrorists.
    Case in point: Countries that do cooperate with the United 
States, with the requirements of Department of State and 
Homeland Security, aren't listed. In fact, Iraq was removed 
from the previous Executive Order listing to this one because 
they have stepped up to the plate to meet the requirements the 
United States puts in place for vetting of visa applicants and 
refugees.
    So Iraq isn't on this Executive Order. It shows you the 
process is working because the countries are actually changing 
their processes.
    Let me shift gears. Forty-nine percent of all illegal 
aliens in this country are visa overstays. Forty-nine percent.
    You pick a number, 12 million or 20 million. Half of those 
are people that came to this country with a permission slip 
that the people sitting at this table are responsible for 
giving: USCIS and Department of State.
    They came with a visa--work visa, student visa, you name 
it. They were vetted; they were granted a visa of our country, 
a permission slip. We invited them to come to our country.
    They decided they liked it and decided to violate our law 
and stay in this country. They are visa overstays and they are 
here illegally because they are out of legal status.
    That is something we can work on. That is where we need a 
biometric entry-exit visa system so we know when people enter 
our country and leave our country, leaving our country being 
the big part of it.
    That is low-hanging fruit. We know the names of these 
folks; we know where they were going in most cases. In a work 
visa or student visa that is a great place to start for 
enforcement of the laws on the books that say you can't 
overstay your visa.
    We are going to give you a period of time to be in our 
country. We will even allow you graciously to extend that 
through the process. But if you overstayed you are in violation 
of the law and it is time to go.
    So that is an enforcement aspect. A biometric entry-exit 
systems being worked on, but we are not there yet.
    So regardless of how well USCIS and Department of State do 
their job on visa screening and refugee processing or whatnot, 
if we don't have a good biometric entry-exit system I don't 
think we are fulfilling the wishes of the American people.
    So, Ms. Scialabba, I ask you, where are we on that? Because 
that question may have been asked by someone, but where we are 
on the biometric entry-exit system that we have talked about in 
this committee since I joined it January 2011?
    Ms. Scialabba. Congressman, I know that they are working on 
that. That is a DHS priority.
    It is Customs and Border Protection that is responsible for 
the entry-exit system, so I am not really in a position to give 
you a good update on where they are with the system. But I know 
for a fact, because I have been in meetings where they are 
actually talking about updating and formalizing that system.
    Mr. Duncan. Right.
    Ms. Scialabba. So I know they are working on it, but I am 
not in a position to give you a detailed answer on that.
    Mr. Duncan. Let me ask you this: Do other countries do 
biometric entry-exit visa screening or entry-exit screening?
    Ms. Scialabba. Some do, some don't.
    Mr. Duncan. Go to Japan, you put your thumbprint on a 
screen when you enter the country and when you leave. They know 
when you are there.
    Ms. Scialabba. I think----
    Mr. Duncan. Why don't we tap into these other countries' 
technology and utilize some of that here? Let's cut this 
process down. They have got something that is working. Rely on 
our allies.
    Mr. Chairman, I think that is just a simple start. We are 
going to spend billions of dollars on this; we are not even 
there yet.
    I think that is something that works.
    I had a lot of other questions. If we go to round two I 
will be glad to ask them then.
    I yield back.
    Mr. Perry. Chair thanks the gentlemen from South Carolina.
    The Chair now recognizes the gentlewoman from California, 
Ms. Barragan.
    Ms. Barragan. Thank you.
    I would be remiss if I didn't say something in reply to 
that. I am grateful for the judiciary system; it is a checks 
and balance system that we have in this country that is meant 
to provide the oversight when you have a President who is doing 
whatever he wants to do, regardless of the law.
    This second travel ban was just the same ban in different 
wrapping paper. It had the same discriminatory intent, and we 
can't--we don't even know what this President's financial ties 
are to countries that are not on the list because he won't 
release that information.
    Activism? I would say not. The fact that Iraq was taken off 
the list I think is just another indicator of how random the 
process has been.
    But I will switch gears here and go on to what we are 
talking about today. I want to talk about the merit-based 
system that the President has indicated we are going to move 
to.
    You know, my parents were immigrants from Mexico. My mom 
had only a third-grade education. Under a merit-based system 
she probably never would have been able to come here. I 
certainly wouldn't be sitting here today if that were the case.
    So the President has announced that he is going to move for 
this merit-based immigration system, breaking from decades of 
long practice of giving families--preference to families of 
U.S.-based citizens. While in many ways a patchwork, the U.S. 
immigration system is already attracting many of the best and 
brightest from around the globe.
    Trump's characterization of the U.S. immigration as a flood 
of low-skilled migrants draining public finances is flawed. New 
arrivals to the United States are increasingly better-educated 
and well-off.
    Ms. Scialabba, what can be USCIS fix to speed up processing 
for highly-skilled immigrants?
    Ms. Scialabba. Well, as I am sure you are aware, there are 
visas available for highly-skilled immigrants that we process 
on a regular basis. I think if you are referring to the premium 
processing that was suspended for a temporary period of time--
--
    Ms. Barragan. Well, you raise a good point. Earlier this 
month the U.S. Citizenship and Immigration Service announced 
that starting on April 3 it would temporarily suspend premium 
processing for the H-1B visas and the suspension may last up to 
6 months?
    Ms. Scialabba. Yes.
    Ms. Barragan. What I would like to do is I would like to 
ask the Chairman unanimous consent to enter a release from the 
USCIS announcing this temporary suspension into the record.
    Mr. Perry. Without objection, so ordered.
    [The information follows:]
               Submitted for the Record by Hon. Barragan
    USCIS Will Temporarily Suspend Premium Processing for All H-1B 
                               Petitions
https://www.uscis.gov/news/alerts/uscis-will-temporarily-suspend-
        premium-processing-all-h-1b-petitions
    Starting April 3, 2017, USCIS will temporarily suspend premium 
processing for all H-1B petitions. This suspension may last up to 6 
months. While H-1B premium processing is suspended, petitioners will 
not be able to file Form I-907, Request for Premium Processing Service 
for a Form I-129, Petition for a Nonimmigrant Worker which requests the 
H-1B nonimmigrant classification. We will notify the public before 
resuming premium processing for H-1B petitions.
                            who is affected
    The temporary suspension applies to all H-1B petitions filed on or 
after April 3, 2017. Since FY18 cap-subject H-1B petitions cannot be 
filed before April 3, 2017, this suspension will apply to all petitions 
filed for the FY18 H-1B regular cap and master's advanced degree cap 
exemption (the ``master's cap''). The suspension also applies to 
petitions that may be cap-exempt.
    While premium processing is suspended, we will reject any Form I-
907 filed with an H-1B petition. If the petitioner submits one combined 
check for both the Form I-907 and Form I-129 H-1B fees, we will have to 
reject both forms.
    We will continue to premium process Form I-129 H-1B petitions if 
the petitioner properly filed an associated Form I-907 before April 3, 
2017. Therefore, we will refund the premium processing fee if:
    (1) The petitioner filed the Form I-907 for an H-1B petition before 
        April 3, 2017, and
    (2) We did not take adjudicative action on the case within the 15-
        calendar-day processing period.
    This temporary suspension of premium processing does not apply to 
other eligible nonimmigrant classifications filed on Form I-129.
                    requesting expedited processing
    While premium processing is suspended, petitioners may submit a 
request to expedite an H-1B petition if they meet the criteria on the 
Expedite Criteria webpage. It is the petitioner's responsibility to 
demonstrate that they meet at least one of the expedite criteria, and 
we encourage petitioners to submit documentary evidence to support 
their expedite request.
    We review all expedite requests on a case-by-case basis and 
requests are granted at the discretion of the office leadership.
why we are temporarily suspending premium processing for h-1b petitions
    This temporary suspension will help us to reduce overall H-1B 
processing times. By temporarily suspending premium processing, we will 
be able to:
  <bullet> Process long-pending petitions, which we have currently been 
        unable to process due to the high volume of incoming petitions 
        and the significant surge in premium processing requests over 
        the past few years; and
  <bullet> Prioritize adjudication of H-1B extension of status cases 
        that are nearing the 240-day mark.

    Ms. Barragan. OK, thank you.
    So companies can use these visas to hire foreign workers to 
temporarily fill these positions in the United States. How 
would you implement the President's merit-based system when 
this administration is suspending a program that permits high 
entry for highly-skilled immigrants?
    Ms. Scialabba. Let me first say the program is not 
suspended. We suspend premium processing, which means we would 
have to process the application in 15 days.
    The applications that come in beginning in April--we see a 
flood of applications that come on, usually it is 200,000 or 
more. We are unable to process those premium processing--we 
can't process cases in 15 days when we get 200,000 in a week. 
It is only suspended temporarily.
    Once we lift the suspension, people are able to file for 
premium processing and we will process their application within 
15 days.
    I think the other thing to keep in mind is that these visas 
that they are applying for in April are not available until 
October. So what we do is we take them in, we process them, we 
organize them, and then when we are ready we let people file 
for the premium processing if they think that that is what they 
need, but the visas aren't available until October in any event 
so it is really not delaying anybody from getting their visa 
when they are ready to pick up the visa.
    Ms. Barragan. So what is being suspended? Does that mean we 
were not doing it before?
    Ms. Scialabba. No, we were doing it before. Before we have 
the--before we open up the H-1B season, which is when everybody 
can file, we are taking in those visas on a regular basis and a 
regular process. You can apply for premium processing at that 
point.
    What happens in April is that we open a window where people 
file--and usually it is only for a week because we get so many 
applications in that time period. We usually get in between 
200,000, 240,000 applications in 1-week's time.
    Just getting the data entered into our systems and getting 
those processed so that they are ready for adjudication takes 
some time. That is why we are unable when we--when we suspend, 
the only thing we are suspending is the premium processing. We 
are not promising to do anybody's visa, anybody's petition in 
15 days.
    Once we get all that data into the system, once we are 
ready to turn it back on, we put premium processing back in 
play and people can then file, if they want, to have their 
adjudication done within 15 days as opposed to 30, 60, 90, 
whatever our processing time is at the time.
    Ms. Barragan. Thank you.
    My time has expired. I yield back.
    Mr. Perry. Chair thanks the gentlelady. Chair is going to 
open a second round of questioning here.
    Mr. Roth, looking through your testimony regarding the 
USCIS Systematic Alien Verification System for Entitlements it 
says, ``In most cases, an error in SAVE verification means that 
a deportable individual can receive benefits ranging from 
public assistance to a driver's license,'' and you already 
mentioned in previous testimony, the Transportation Worker 
Identification Card, which allows them unescorted access to 
secure areas of the Nation's vessels.
    It appears that, in your testimony, that USCIS has failed 
to identify the deportable status of 12 percent of individuals 
submitted through SAVE.
    I am wondering, you know, those, according to your 
testimony, are individuals that the court had ordered be 
deported for things like felony convictions. I imagine they run 
the gamut, including things like extortion, assault, burglary, 
drugs, et cetera.
    What kind of numbers are we talking about, Mr. Roth?
    Mr. Roth. What we did was we did a representative sample, 
which is typical of what we do in an audit. We try to make it 
large enough where it is statistically significant.
    So we can't estimate exactly how many we are talking about 
the entire universe, but what we found in doing the statistical 
sampling was that about 1 in 8 of those queries, in fact, did 
not turn up the fact that somebody actually had been ordered 
removed from the country for, you know, a variety of reasons, 
as you said.
    That audit was in 2012. We made recommendations. CIS 
followed the recommendations, but in this follow-up audit that 
we did--that we just released it took 46 months to get a 
solution finally on-line. That was one of the things that to me 
struck me about this entire process was there seemed to be a 
lack of urgency in fixing the problem in a reasonable amount of 
time.
    Mr. Perry. So am I to understand, based on what you just 
said, that that situation has now been rectified, that we are 
not at 12 percent of deportable individuals in the SAVE program 
maintaining status here in United States? That has been 
rectified?
    Mr. Roth. That is correct. Functionally what happened was 
SAVE was not talking to the right kind of databases.
    Mr. Perry. Right, right. Which is good news, and we applaud 
and commend the Department for taking care of that.
    That is with--Mr. Roth, that is with records that we know 
about, right? That is able to vet, so to speak, compare the 
application against information that we have to see whether the 
applicant is worthy, for lack of a better term, or justified in 
maintaining their status in the United States, right? That is 
generally, if I could describe that, you are comparing and----
    Mr. Roth. It is actually simpler than that because there is 
no judgment that, I mean----
    Mr. Perry. Right.
    Mr. Roth. If they have been ordered removed then they have 
been ordered removed. It is not, ``Oh, we are going to assess 
their risks.''
    Mr. Perry. Right.
    Mr. Roth. They have no basis to be in the country so they 
can't get any benefits.
    Mr. Perry. Right.
    So in previous testimony, Ms. Scialabba--and you can 
correct me; I just want to make sure I understand this 
correctly--you are saying that you check all the known 
databases, et cetera, for asylees to determine whether they 
might be criminals or terrorists, et cetera. You gave us this 
impression and I just want to make sure if we have the correct 
impression, that even though it might be a paper-based system 
and even though you might not have digital information, you are 
going to go ahead and check everything to vet these 
individuals.
    But what if you don't have anything to vet against, is my 
question. That is a concern for anybody coming in the country, 
whether it is through USCIS, whether it is through the United 
Nations, et cetera. Before you answer, I would just like to 
hear from Ms. Harris on this particular issue.
    If you can shed any light to the fact, because I get the 
impression based on that testimony that there is really nothing 
to be concerned about; all this is being checked. But is that 
true or not true, in your opinion?
    Ms. Harris. Mr. Chairman, unfortunately we have--I am not 
in the--I am not the best expert within GAO to answer that 
question, so I would like to take that for the record.
    But I can tell you that we do have on-going work on the 
SAVE program as well as work related to refugee vetting. So 
that work will be released I believe in the spring time frame. 
So I would like to get that information for you.
    Mr. Perry. OK. Well, springtime starts I think in about a 
week. Is that about right? So what kind of time frame are we 
talking about, Ms. Harris, if you know?
    Ms. Harris. I believe in the May time frame.
    Mr. Perry. OK. In the May time frame.
    Ms. Harris. Yes.
    Mr. Perry. All right. We are hoping it is a little warmer 
and hospitable outside. But we will look forward to that 
report.
    In my remaining 20 seconds, Ms. Scialabba, if you want to 
enumerate?
    Ms. Scialabba. Yes. What I was saying was that the systems 
that we can identify and that we can link to, we check. As I 
said before, I was the associate director for refugee asylum 
international operation. When we started processing Iraqi 
refugees we made a concerted effort to go out to the intel 
community, the law enforcement community, to find what other 
databases there were.
    We were able to get the Department of Defense to put their 
information into our IDENT system at Department of Homeland 
Security so that we had access to that information, too. But 
before that happened we were running our checks through--it is 
called ABIS at the Department of Defense because they had a lot 
of information on the Iraq population.
    We continue to review that constantly and always because 
there are always databases being developed; there are always 
systems that we aren't necessarily aware of because they are in 
the intel community and they don't necessarily let us know what 
they have. It is an on-going process. We have never stop 
looking for more.
    Mr. Perry. We appreciate and encourage and--your diligence, 
and we applaud that diligence. But at the same time, especially 
when you mention Iraq, which is very different, I think, from 
countries like Iran or Syria in databases, and the concern is 
that even though USCIS might seek out other databases, and 
diligently does so, as it should, some of these individuals--
maybe many of these individuals--there is nothing to check 
against. There is no way to vet them because there is no 
database to refer to. But I don't want to keep going on.
    Chair now recognizes the Ranking Member, Mr. Correa.
    Mr. Correa. Thanks, Mr. Chairman.
    I do have a follow-up question on one of the comments made 
by our good colleague from South Carolina. He said 49 percent 
of all the undocumented are overstays. Do you have any 
information from what countries those overstays are from? If 
you don't have it I would like to get that information some 
other time--very soon, hopefully.
    Ms. Scialabba. We can get that information for you, I 
believe, from the Department of Homeland Security. It is not 
information that USCIS would normally maintain----
    Mr. Correa. OK.
    Ms. Scialabba [continuing]. But I am sure we can get it 
from the Department of Homeland----
    Mr. Correa. The breakdown is, you know, are those 
educational, work? What overstays are those? You don't have it, 
but love to get it.
    Ms. Scialabba. I will look to see what the Department has.
    Mr. Correa. In a timely basis. Thank you very much.
    The other question I have is related to the EB-5 visas. 
Those are the, I guess, investment visas.
    There have been accusations of fraud, abuse, internal 
influence in issuing these. These are very popular. I know in 
my district a lot of folks get together, you need some money to 
invest, you go out and round up some investors from overseas, 
you put the project together.
    Is there any follow-up to assure that the requirements to 
get the EB-5 are actually complied with, and what--do they 
actually create the 10 permanent U.S. jobs, so on and so forth? 
Is there any follow-up at all? Is it just certification up 
front? You can invest half a million dollars, you get your 
visa, and nothing else is followed up on these visas.
    Ms. Scialabba. There is follow-up, particularly when they 
apply to remove the condition on the permanent residence. They 
have to prove and establish that they created the 10 jobs, that 
the--whatever the--whatever they developed, whether it is a 
store or whatever the enterprise is, that it is still 
functioning and that it is still viable. So at that point there 
is follow-up.
    But we have also implemented a process where we go out to 
visit the various enterprises that have been established to 
make sure they are operating, that they are what they say they 
are, that they actually exist.
    Mr. Correa. Do you visit all of them or just a sample?
    Ms. Scialabba. A sampling, it is a sampling of them for 
quality assurance.
    Mr. Correa. OK.
    My final question or few seconds I have left is we have 
heard that your predecessor, in terms of the I.T., the 
challenges, we had an audit and that person refused to 
acknowledge that audit. It seems like we had a situation where 
folks kind-of buried their head in the sand or in a hole and 
not really acknowledged the challenges that were being put 
forth.
    You, ma'am, have about what, a couple of months left in the 
agency--3?
    Ms. Scialabba. Two weeks.
    Mr. Correa. Two weeks. Oh, my gosh. Time flies.
    So what would your recommendation be in terms of this 
committee--through the Chair I would ask that--to make sure 
that we continue to follow up, to make sure that that situation 
does not repeat itself, meaning that we have consistent 
diligence to assure that the I.T. is actually making progress?
    Ms. Scialabba. I can assure you that USCIS knows that the 
wave of the future is electronic and that we have to have a 
system that works for us. We have made great progress and great 
strides, I think, in terms of our contracting, in terms of how 
we are rolling out our software.
    I would say the system is not failing. We have processed 
over 100,000 N-400's in that system; we have processed almost a 
million green cards in that--I-90 green card replacements in 
that system. We have also processed I think 750,000 immigrant 
visa fees in that system.
    It is not failing. It has----
    Mr. Correa. Madam, I don't believe the issue is failure. 
The issue is progress, or the lack thereof, in a timely manner.
    So I would ask my Chair to come back very soon to again ask 
these same questions to make sure we are all on the same page, 
so to speak.
    Ms. Scialabba. We are happy to come and brief the committee 
and the staff whenever you would like.
    Mr. Correa. Thank you.
    I yield the rest of my time, sir.
    Mr. Perry. Gentleman yields.
    The Chair now recognizes the gentleman from South Carolina, 
Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Employers and law enforcement officers are using social 
media as a way to screen potential applicants for jobs, or 
fighting crime, looking for suspects. I think it would surprise 
me--people--the amount of social media activity in other 
countries rivals that of the usage here in America.
    So, Ms. Scialabba, to what extent does the USCIS use social 
media to adjudicate applications for immigrant and nonimmigrant 
benefits?
    Ms. Scialabba. We are currently using social media to vet 
refugee applications. We are in the process of rolling that out 
farther and piloting it for other applications that we use.
    The social media issue for USCIS is that we do large 
volume. If you are looking at the social media for someone that 
is under investigation or an individual that you are looking at 
it is much easier to do; if you are trying to process, I don't 
know, 20,000 applications at a time and you are trying to vet 
20,000 people through social media, it is really not possible.
    So we have to do some risk analysis, which is what we are 
in the process of doing, to see which visas are most likely to 
yield the most when we do social media vetting. Obviously, we 
are doing it for all of the refugees; we are going to start 
doing it for asylum; one of the things that we are looking at 
piloting is for the K visas.
    So we are rolling out and using social media in a much more 
robust way than we have in the past, and we will continue to 
look at that and review it and use social media as best we can 
to ferret out anybody who means to do harm to the United States 
or fraud. We have seen some fraud, too, with social media.
    Mr. Duncan. Thank you. I hope you do. I think that is the 
right move to utilize more and more of that.
    There has been some talk today about electronic records, 
and we all know how electronic records have helped expedite 
things in our life, whether it is medical records that can be 
sent easily from the doctor to the hospital. But there is 
always a fear of hacking, and we saw what happened with the OPM 
with thousands or millions of employment records, having access 
to those that could lead to identity theft and other things.
    So is this a concern, Mr. Roth, of DHS? What are some 
safeguards that you all are looking at with regard to--these 
are noncitizens, but they still have private information that 
is part of the screening process. So what are we doing to 
safeguard their information, as well, because I think other 
countries would be interested in that?
    Mr. Roth. I share your concern with that. Particularly as 
you roll out new software you don't actually know what the 
security protocols or what--how secure, in fact, that system 
is.
    It is something that we are concerned about. We haven't 
done any formal work on it because, of course, the problem is 
ELIS is very much a work in progress so it is very difficult to 
assess the security configurations of something that hasn't yet 
rolled out.
    But we are concerned just based on CIS's challenges in 
getting software that works. So if they can't get software that 
works, we certainly have some issues with whether or not it is 
secure.
    Mr. Duncan. Right. I think there is always a fear of--even 
in closed systems that aren't connected to the internet in any 
way, not connected to any outside electronic source for tapping 
into, that someone on the inside could always print it off, USB 
drive or something, to take those documents, as we saw recently 
in another agency. So part of me likes the paper side of it, 
but I understand that is not feasible.
    Mr. Chairman, it is a great hearing. I appreciate the 
feedback from the witnesses, and I yield back.
    Mr. Perry. Chair thanks the gentlemen.
    The Chair now recognizes the gentleman from Louisiana, Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Roth. I am going to ask you a few yes-or-no questions. 
Then I will give you an opportunity to expound, sir.
    Would you agree, from your perspective, that the Federal 
Government is responsible to the American people to maintain 
our sovereign borders and to protect our citizenry from those 
who would do us harm that would enter our borders under false 
pretense?
    Mr. Roth. Yes.
    Mr. Higgins. Do we rely upon partnering with cooperative 
and capable foreign governments regarding their own vetting of 
those that they would issue immigrant visas for, those that 
would apply for legal status within the United States? Do we 
rely upon the cooperation and capability of our foreign 
partners?
    Mr. Roth. That is my understanding. I think that is best 
addressed to CIS. We haven't done any audits on it.
    Mr. Higgins. All right. Thank you sir.
    From your perspective, would you agree that I.T. 
capabilities and digitalizing technologies increase and improve 
every year?
    Mr. Roth. Yes, I believe that is the case.
    Mr. Higgins. Yes, sir.
    In 2009 I worked a case regarding identity theft, 
fraudulent checks, forged checks, and fraudulent identification 
in conjunction with treasury agents of the Secret Service. I 
was presented with driver's licenses that were completely false 
that I could not determine as a veteran law enforcement agent 
were fake. This was in 2009.
    The source of those driver's licenses, those fraudulent 
documents, was a booth in a flea market in Houston.
    If we rely upon our partners in foreign governments that 
are cooperative and capable to vet their own citizenry prior to 
their intended effort to enter our country, when we are 
responsible to protect the sovereignty of our borders, if they 
have no capable or cooperative vetting procedure in those 
nations, and if those nations are known to include high 
populations and dense populations of terrorist-leaning 
populace, how can we possibly, given the nature of technology, 
how can we possibly be sure if we don't have--from your 
perspective as a cop, how can we possibly be sure that those 
nations are not allowing their citizenry to attempt to enter 
our country with excellently forged documents and 
identification papers and means by which to enter our country 
with fraudulent intent?
    Mr. Roth. Well, you raise a good point, which is you are 
only as good as the information you get. But in your 
circumstance, for example, the United States, one of the most 
sophisticated nations on the planet, we have abilities--or bad 
actors have the abilities to create false identifications.
    So while it would be best to rely on our foreign partners 
that are more sophisticated, there is risk all over the 
process. Whether it is with our more sophisticated foreign 
partners or our less sophisticated foreign partners, we are 
always going to have the risk that people who are bad actors 
will use the system to come into the country.
    The question is: How do we control that risk? What process 
do we put in place to minimize the risk that we all sort-of 
identify as out there?
    Mr. Higgins. Thank you, sir.
    Mr. Chairman, I would encourage my colleagues on this 
subcommittee and from both sides of the aisle to maintain a 
sober diligence regarding the way we approach allowing foreign 
nationals to seek entry to our country as we sit with full 
knowledge of the fact that there is certainly the capability to 
produce fraudulent documents. I would hope we stop them where 
they come from rather than letting them make it to the booth in 
a flea market in Houston.
    With that I yield my time, Mr. Chairman.
    Mr. Perry. Chair thanks the gentleman.
    Ms. Scialabba, thank you for your service to the country. 
It has been a long time and we wish you well moving forward.
    For your successor, I would say that there are still 
significant questions and concerns that remain. While we 
applaud you for getting it together, so to speak, for things 
like the SAVE program, 45 months is way too long when I think 
about somebody that is listed by the courts as ``should be 
deported,'' and we don't pick that up. If that individual has 
harmed--would harm a member of my family or your family or any 
American's family, that is just something that is unacceptable 
to us, and I know you understand that.
    So while we appreciate the good work, 45 months is too long 
and this is--there is an urgency that is attached to this that 
the Department must, in my opinion, be imbued with.
    So we wish you well. We hope to see your successor.
    For your staff that is here with you, we hope to see again 
and we hope that we can talk under better conditions in the 
future.
    With that, the Chair thanks the witnesses for their 
valuable testimony and the Members for their questions. Members 
may have some additional questions for the witnesses, and we 
will ask you to respond--you folks on the panel--in writing. 
Pursuant to committee rule VII(D), the hearing record will 
remain open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:02 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions From Subcommittee Chairman Scott Perry for Lori Scialabba
    Question 1a. The Immigration and Nationality Act (INA) requires 
USCIS to conduct an initial interview for asylum applications within 45 
days after the date the application is filed, and to make a decision 
within 180 days after the date the application is filed, unless there 
are exceptional circumstances. However, USCIS has reported that its 
increasing caseloads make this time frame unachievable.
    How long does USCIS currently take to process asylum applications?
    Question 1b. To what extent is this time frame affected by paper-
based documentation processing?
    Answer. Response was not received at the time of publication.
    Question 2a. Mr. Roth testified that USCIS plans to complete its 
efforts to digitize paper fingerprint records by the end of fiscal year 
2017.
    Is USCIS on track to meet this time frame?
    Question 2b. If not, when does USCIS expect to complete these 
efforts?
    Answer. Response was not received at the time of publication.
    Question 3. A September 2016 GAO report on the EB-5 program focused 
primarily on the risk of fraud associated with the program. However, 
press reporting and other sources have also expressed that there are 
some National security risks associated with the program, such as 
reporting that USCIS granted EB-5 visas to individuals involved with 
smuggling. What steps has USCIS taken to address these security risks?
    Answer. Response was not received at the time of publication.
    Question 4. GAO and the OIG have reported on the challenges that 
relying on paper-based documentation poses for information sharing with 
Federal partners. How does USCIS mitigate those risks?
    Answer. Response was not received at the time of publication.
    Question 5a. The OIG reported that USCIS's efforts to recover the 
19,000 wrongfully-issued green cards have not been effective due to a 
lack of consistency and urgency at USCIS. For example, when USCIS 
issued the wrong or duplicate cards in the spring of 2016, USCIS did 
not begin attempting to recall cards for months.
    How has USCIS addressed the issues related to consistency and 
urgency when recalling green cards that were issued in error?
    Answer. Response was not received at the time of publication.
    Question 5b. To date, how many of the green cards associated with 
the episodes outlined in your report are still unaccounted for?
    Answer. Response was not received at the time of publication.
    Question 5c. Has USCIS investigated whether these wrongfully-issued 
cards were used to commit fraud and/or facilitate criminal activity?
    Answer. Response was not received at the time of publication.
    Question 6. In August 2015, GAO explained how the current 
electronic databases used for EB-5 ``have limitations that reduce their 
usefulness for conducting fraud--mitigating activities. For example, 
information that could be useful in identifying program participants 
linked to potential fraud is not required to be entered in USCIS's 
database . . . Moreover, FDNS officials told us that some data fields 
are also not standardized, a fact that presents significant barriers to 
conducting basic fraud-related searches.'' How will transitioning EB-5 
processing to ELIS address these shortcomings? When does USCIS plan to 
process EB-5 in ELIS?
    Answer. Response was not received at the time of publication.
    Question 7. While USCIS is planning to transition EB-5 processing 
to ELIS, there are currently no plans to include supporting information 
associated with the EB-5 applications, such as bank statements or 
business plans. This is an interesting decision, given that according 
to FDNS, ``this supporting information can be an important source of 
potential fraud indicators.'' Please explain the decision to not 
include supporting documentation in the ELIS migration. Are there any 
plans to eventually move this information into ELIS and if so, when 
does USCIS expect to do so?
    Answer. Response was not received at the time of publication.
    Question 8. In a 2015 GAO report, GAO recommended that FDNS 
immigration officers prescreen all asylum applications for indicators 
of fraud to the extent that it is cost-effective and feasible. What has 
USCIS done to comply with this recommendation?
    Answer. Response was not received at the time of publication.
  Questions From Ranking Member Bennie G. Thompson for Lori Scialabba
    Question 1. USCIS recently announced it will halt premium 
processing of H-1B visa petitions on April 3, for up to 6 months. 
Premium processing fees help USCIS cover the faster processing but the 
fees also go towards other expenses, including refugee processing. What 
will the economic impact be to USCIS, a primarily fee-funded component, 
without fees collected from premium processing?
    Answer. Response was not received at the time of publication.
    Question 2. We understand that the revised fiscal year goal for 
refugee admissions is 50,000. To date in the fiscal year, how many 
refugees have been admitted into the United States? To what extent have 
Refugee Affairs Division resources been redirected from the refugee 
admission process to other USCIS mission needs in light of the 
administration's Executive Orders? How is USCIS adjusting its refugee 
adjudication workload for the remainder of the fiscal year?
    Answer. Response was not received at the time of publication.
    Question 3. What is the current status of the regulation issued by 
former President Obama that expands the use of the Government's 
``parole'' authority to authorize an immigration benefit for foreign 
entrepreneurs who can demonstrate they will provide a significant 
public benefit to the United States as a result of economic growth and/
or job creation, scheduled to go into effect July 16, 2017?
    Answer. Response was not received at the time of publication.
    Question 4. USCIS has stated that the reason for the H-1B premium 
processing suspension is to help address the backlog of petitions and 
decrease processing time overall. How will the loss of H-1B premium 
processing fees affect USCIS's ability to dedicate more resources to 
adjudicating backlogged petitions?
    Are officers who currently adjudicate premium processed H-1B 
petitions being reallocated to all H-1B petitions? Or are those 
officers going to be working on the many other employment-based filings 
that are also backlogged?
    Answer. Response was not received at the time of publication.
    Question 5a. In August 2016, USCIS discontinued use of ELIS and 
reverted to using the legacy management system for all new N-400 
applications. In January 2017, the Inspector General learned that USCIS 
leadership planned to return to ELIS for application processing. What 
is the current status of the ELIS system?
    Is ELIS being used to process immigration applications? If so, 
which application forms?
    Question 5b. If ELIS is not in use, what is the current time line 
to revert from the legacy system back to ELIS?
    Answer. Response was not received at the time of publication.
    Question 6a. This month, USCIS indicated it will suspend premium 
processing of H-1B visas, a program that allows employers to bring 
skilled foreign workers to the United States. How long does USCIS 
intend to suspend premium processing?
    The Transformation Program is partially funded by unobligated 
carryover money from premium processing fees. What other USCIS programs 
may be impacted by the elimination of premium processing fees from H-1B 
visas?
    Answer. Response was not received at the time of publication.
    Question 6b. USCIS is primarily funded by fees. What are the long-
term implications USCIS may face without fees collected from H-1B visa 
premium processing?
    Answer. Response was not received at the time of publication.
    Question 7a. Recent estimates provided by GAO indicate the 
Transformation Program should be completed in March 2019 at a cost of 
$3.1 billion dollars. Based on your most recent review of the program, 
are these estimates still accurate?
    If not, please provide the subcommittee with the updated life-cycle 
cost and schedule.
    Answer. Response was not received at the time of publication.
    Question 7b. How has the recent errors with green card processing 
impacted the anticipated life-cycle cost and schedule?
    Answer. Response was not received at the time of publication.
    Question 8. Both GAO and the IG have expressed concerns with the 
overall management of the USCIS Transformation Program, particularly 
citing USCIS failure to ``consistently follow the acquisition 
management approach outlined in DHS management directives.'' How has 
management of the Transformation Program been addressed by USCIS?
    Please provide particular areas USCIS management corrected or 
improved upon related to following leading IT management best 
practices, policies, and programs.
    Answer. Response was not received at the time of publication.
    Question 9. In December 2015, GAO reported on significant 
weaknesses in USCIS's oversight of the asylum process with particular 
emphasis on gaps in the agency's efforts to prevent, detect, and 
respond to asylum fraud. What is the status of USCIS's efforts to 
develop an assessment tool and implementation plan for completing 
regular fraud risk assessments of the affirmative asylum process?
    Answer. Response was not received at the time of publication.
    Question 10. Based on current administration priorities, what is 
the status of applications for humanitarian parole, particularly those 
applications for the Central American Minors (CAM) Program?
    Answer. Response was not received at the time of publication.
    Question 11. The USCIS Field Operations Associate Director 
expressed directly to USCIS CIO Mark Schwartz his concerns with the 
performance of ELIS and the need to meet four minimal requirements 
before returning to processing naturalization benefits in ELIS. What is 
the current status of meeting the four requirements discussed?
    When it was decided in January 2017 to revert back to ELIS, had the 
four minimal requirements provided by the Associate Director been met?
    Answer. Response was not received at the time of publication.
    Question 12. The H-1B visa program allows employers to bring 
skilled foreign workers to the United States. Premium processing grants 
those employers a response from USCIS within 15 days as opposed to the 
traditional response, which takes 3-6 months. What impact do you 
believe this longer processing period will have on employers and 
workers, especially given the annual cap for H-1B visas is 65,000, yet 
USCIS is expecting more than 200,000 petition requests?
    Answer. Response was not received at the time of publication.
    Question 13. USCIS personnel are required to check applicants' 
biographic data against the CBP TECS system and the FBI's name check 
database. However, ELIS allowed cases to be moved forward for 
processing despite incomplete or inaccurate background and security 
checks, which is incredibly concerning. According to Field Operations 
Directorate officials, approximately 175 applicants were granted 
citizenship as of January 11, 2017 before the problem was detected and 
USCIS began redoing the name checks to ensure they were all completed 
correctly. Why was the decision made to revert back to using the ELIS 
system despite discovering this error?
    What current oversight is being conducted to ensure applications 
cannot be processed without the sufficient database and name checks?
    Answer. Response was not received at the time of publication.
    Question 14. Please explain USCIS's decision to change the 
Transformation Program in 2012, including the switch from one primary 
contractor to multiple contractors and the change from the waterfall 
software development approach to the agile approach.
    How do you anticipate these changes impacted the total overall 
costs of the Program as well as the implementation time line?
    Answer. Response was not received at the time of publication.
    Question 15. As States continue expanding the reasons for which 
they seek to use the Systematic Alien Verification for Entitlements 
(SAVE) program for verification of immigration status, how is USCIS 
ensuring each new use is proper and appropriate? Does USCIS have 
concerns about the expanding uses of SAVE, including using SAVE to for 
voter registration purposes?
    Answer. Response was not received at the time of publication.
        Questions From Chairman Scott Perry for Carol C. Harris
    Question 1. What are some of the biggest concerns and risks with 
USCIS being unable to readily share immigration information with 
Federal partners?
    Answer. We have not specifically examined the concerns and risks 
with U.S. Citizenship and Immigration Services (USCIS) process for 
sharing immigration information with Federal partners. However, we have 
previously reported that challenges in USCIS's information systems and 
processes can hinder its efforts to use data to identify and address 
fraud risks in immigration benefit programs. For example, in August 
2015, we reported that the agency's information systems and processes 
limit its ability to collect and use data on the EB-5 Program to 
identify fraud related to individual investors or investments or to 
determine any fraud trends across the program.\1\ In particular, we 
noted that USCIS relies heavily on paper-based documentation. While its 
contractors and employees enter information from these paper documents 
into various electronic databases, these databases have limitations 
that reduce their usefulness for conducting fraud-mitigating 
activities.
---------------------------------------------------------------------------
    \1\ GAO, Immigrant Investor Program: Additional Actions Needed to 
Better Assess Fraud Risks and Report Economic Benefits, GAO-15-696 
(Washington, DC: Aug. 12, 2015).
---------------------------------------------------------------------------
    Moreover, we found that USCIS did not collect applicant information 
that could help mitigate fraud. In fiscal year 2011, the agency 
expanded reporting requirements to gather information about on-going 
regional center activities, such as information on the active projects 
managed by each regional center. According to USCIS and U.S. Securities 
and Exchange Commission officials, this information helped identify 
potential incidents of fraud. However, USCIS has not required EB-5 
program petitioners and applicants to provide information about the 
businesses supported by the regional centers and program investments 
coordinated by the regional centers, such as the names of principals or 
key officers associated with the business, or information on advisers 
to investors such as foreign brokers, marketers, attorneys, and other 
advisers receiving fees from investors. U.S. Securities and Exchange 
Commission and Fraud Detection and National Security Directorate 
stakeholders with whom we spoke emphasized that collecting additional 
information could be useful for the agency to combat fraud. For 
example, according to these officials, the absence of information about 
businesses supported by regional centers limits USCIS's ability to 
identify potential fraud, such as misrepresentation of a new commercial 
enterprise.
    Given that information system improvements with the potential to 
expand fraud mitigation efforts would not take effect until sometime in 
the future, and that gaps existed in its other information collection 
efforts, we recommended that USCIS develop a strategy to expand 
information collection. In developing a strategy, we recommended that 
USCIS consider including the increased use of interviews at the 
I-829 phase as well as requiring the additional reporting of 
information in applicant and petitioner forms. Doing so could better 
position the agency to identify and mitigate potential fraud and 
communicate and share that information with other partners. As of April 
2017, USCIS staff reported taking multiple actions to address this 
recommendation and we will continue to monitor their efforts to assess 
the extent to which these actions meet the intent of our 
recommendation.
    Question 2. USCIS usually receives around 14,000 EB-5 petitions and 
applications a year, the average length of which is approximately 1,000 
pages. According to GAO, USCIS reviews these petitions manually, as the 
EB-5 process relies on paper-based documentation. This is clearly 
inefficient and makes adjudicating applicants more difficult and 
burdensome. To what extent does USCIS's reliance on paper applications 
undermine its ability to thoroughly vet and root out fraud when 
adjudicating EB-5 petitions?
    Answer. In September 2016, we reported that fraud mitigation in the 
EB-5 Program was hindered by a reliance on voluminous paper files, 
which limits the agency's ability to collect and analyze program 
information.\2\ In our review of a non-generalizable selection of files 
associated with EB-5 program regional centers and immigrant investors, 
we found that identifying fraud indicators was extremely challenging. 
For example, many of these files were several thousand pages long and 
would take significant time to review. According to USCIS 
documentation, the program anticipates receiving approximately 14 
million pages of supporting documentation from its regional center 
applicants and immigrant investor petitioners annually. Agency 
officials noted that the state of information within the program 
precluded certain fraud-detection and analysis efforts, such as the 
development of an automated risk-weighting system to prioritize 
petitions and applications at higher risk of fraud.
---------------------------------------------------------------------------
    \2\ Immigrant Investor Program: Progress Made to Detect and Prevent 
Fraud, but Additional Actions Could Further Agency Efforts, GAO-16-828 
(Washington, DC: Sept. 13, 2016).
---------------------------------------------------------------------------
    Question 3a. GAO reported that USCIS delayed efforts to move EB-5 
applications to the ELIS system.
    What potential fraud risks exist because EB-5 applications are 
processed on paper rather than in an electronic system?
    Answer. Fraud risks that USCIS identified in the program include 
uncertainties in verifying that the funds invested were obtained 
lawfully and the existence of various investment-related schemes to 
defraud investors. In August 2015, we reported that USCIS was unable to 
comprehensively identify and address fraud trends across the program 
because of its reliance on paper-based documentation and because it 
faces certain limitations with using available data and with collecting 
additional data on EB-5 immigrant investors or investments.\3\ In 
September 2016, we further reported that USCIS officials had noted that 
the state of information within the program precluded certain fraud-
detection and analysis efforts, such as the development of an automated 
risk-weighting system to prioritize petitions and applications at 
higher risk of fraud.\4\
---------------------------------------------------------------------------
    \3\ GAO-15-696.
    \4\ GAO-16-828.
---------------------------------------------------------------------------
    For example, we reported that information from the application form 
that could be useful in identifying program participants linked to 
potential fraud is not required to be entered into USCIS's database, 
such as the applicant's name, address, and date of birth. Consequently, 
program participants linked to potential fraud might not be identified.
    We also reported that USCIS's rules guiding data entry leave many 
form fields ``optional'' in USCIS data systems. According to USCIS 
officials, the adjudication is completed from the paper application 
forms, so the agency considers entering these data unnecessary. 
However, information about entities such as regional center principals 
and other participants is not consistently recorded. Consistently 
including information, such as names and dates of birth, in its 
databases could help the agency better identify specific individuals 
who may be targeted for or are under investigation. Without such 
information, USCIS might accept applications from individuals who might 
be targeted or under investigation.
    Further, more standardized information in USCIS databases, such as 
information about the geographic locations of regional centers, could 
help the agency better identify and assess any potential regional 
center fraud trends.
    Question 3b. Based off of GAO's work on the ELIS system, what is 
your sense of USCIS's efforts to make EB-5 applications fully 
electronic? What are the biggest challenges USCIS faces in completing 
this effort?
    Answer. USCIS has been delayed in its efforts to make EB-5 
applications fully electronic. In August 2015, we reported that USCIS 
officials had said the agency would be able to collect and maintain 
more readily-available data on EB-5 Program petitioners and applicants 
through the deployment of electronic forms in USCIS ELIS.\5\ USCIS 
officials told us that they expected capabilities for the EB-5 Program 
to become functional in 2017. However, USCIS has faced long-standing 
challenges in implementing USCIS ELIS, a fact that raises questions 
about the time frames for its eventual deployment and, thus, the extent 
to which the system will position the agency to collect and maintain 
more readily available data. For example, in our March 2017 testimony, 
we noted that the Transformation Program did not complete deployment of 
planned system functionality associated with its Citizenship line of 
business.\6\ As part of its remediation efforts to address the delay, 
USCIS planned to revise its acquisition documentation when re-
baselining the Transformation Program. As of March 2017, the effort to 
re-baseline the Transformation Program was still on-going. Until the 
program establishes a new, reliable baseline, the time frames and 
expectations for making EB-5 applications fully electronic are 
uncertain.
---------------------------------------------------------------------------
    \5\ GAO-15-696.
    \6\ GAO, Immigration Benefits System: Significant Risks in USCIS's 
Efforts to Develop its Adjudication and Case Management System, GAO-17-
486T (Washington, DC: Mar. 16, 2017).
---------------------------------------------------------------------------
    USCIS's challenges in governance and management of the 
Transformation Program have impacted its ability to make EB-5 
applications fully electronic. In 2015, we reported that DHS's 
oversight of the Transformation Program was limited by a lack of 
reliable information being reported to existing governance and 
oversight entities.\7\ Further, in 2016, we reported on program 
management challenges with the Transformation Program's adherence to 
best practices in Agile software development, systems integration and 
testing, and contract management.\8\ Until such challenges are fully 
addressed, even after a re-baseline, the program may still encounter 
further delays in the future, thereby impacting its ability to make EB-
5 applications fully electronic. Addressing our previous 
recommendations to improve management and oversight of the program 
should help to mitigate this risk of future schedule delays.\9\
---------------------------------------------------------------------------
    \7\ GAO, Immigration Benefits System: Better Informed Decision 
Making Needed on Transformation Program, GAO-15-415 (Washington, DC: 
May 18, 2015).
    \8\ GAO, Immigration Benefits System: U.S. Citizenship and 
Immigration Services Can Improve Program Management, GAO-16-467 
(Washington, DC: Jul 7, 2016).
    \9\ See GAO-15-415 for recommendations related to oversight and 
GAO-16-467 for recommendations related to management of the 
Transformation Program.
---------------------------------------------------------------------------
    Question 4. GAO reported in 2015 and 2016 that USCIS's 
methodologies for calculating EB-5 outcomes and economic benefits were 
invalid and unreliable. In response, USCIS said it was developing a 
case management system to allow it to track and report EB-5 investor 
data by fiscal year 2017.
    To what extent will this case-management system sufficiently 
address USCIS's current inability to track and report EB-5 data? If 
implemented effectively, what benefits would such a system provide?
    Answer. It is still too early to tell to what extent USCIS's new 
case management system will allow the agency to track and report EB-5 
data or what benefits it will provide. According to USCIS officials, 
this system is designed to support EB-5 adjudications and the program's 
data requirements. This system, if implemented as designed, could aid 
some of USCIS's ability to track and report EB-5 data. However, 
according to USCIS officials, a time line for completing the system has 
not been finalized due to changes in the scope of the project.
    Question 5. In August 2015, GAO explained how the current 
electronic databases used for EB-5 ``have limitations that reduce their 
usefulness for conducting fraud-mitigating activities. For example, 
information that could be useful in identifying program participants 
linked to potential fraud is not required to be entered in USCIS's 
database . . . Moreover, FDNS officials told us that some data fields 
are also not standardized, a fact that presents significant barriers to 
conducting basic fraud-related searches.'' What additional measures can 
USCIS implement in the interim to ensure the integrity of the EB-5 
program?
    Answer. To improve EB-5 program fraud prevention, detection, and 
mitigation capabilities, USCIS should continue to take steps to fully 
implement the recommendations made in our prior reports.\10\ These 
include recommendations to:
---------------------------------------------------------------------------
    \10\ GAO-15-696, GAO-16-828.
---------------------------------------------------------------------------
    1. Plan and conduct regular future risk assessments of the EB-5 
        program.
    2. Develop a strategy to expand information collection, including 
        considering the increased use of interviews at the I-829 phase, 
        as well as requiring the additional reporting of information in 
        applicant and petitioner forms.
    3. Develop a fraud risk profile that aligns with leading practices 
        identified in GAO's Fraud Risk Framework.\11\ USCIS has 
        concurred with our recommendations and has told us that it is 
        taking steps to address them. We will continue to monitor its 
        efforts to do so.
---------------------------------------------------------------------------
    \11\ GAO, A Framework for Managing Fraud Risks in Federal Programs, 
GAO-15-593SP (Washington, DC: July 2015).
---------------------------------------------------------------------------
    Question 6a. While USCIS is planning to transition EB-5 processing 
to ELIS, there are currently no plans to include supporting information 
associated with the EB-5 applications, such as bank statements or 
business plans. This is an interesting decision, given that according 
to FDNS, ``this supporting information can be an important source of 
potential fraud indicators.''
    Without including this important supporting documentation in the 
migration to ELIS, how effective will the move to ELIS be in addressing 
fraud risks within the EB-5 program?
    Answer. Without this supporting documentation, USCIS may lack the 
information it needs to conduct analysis to identify potential fraud 
indicators in the program. In September 2016, we reported that USCIS 
planned to collect and maintain more readily available data on EB-5 
program petitioners and applicants through the deployment of electronic 
forms in its new system, USCIS ELIS.\12\ However, agency officials told 
us that they did not anticipate capturing supporting information 
provided as evidence in the petitions and applications in USCIS ELIS in 
the near term. According to a Fraud Detection and National Security 
Directorate official, this supporting information can be an important 
indicator of potential fraud as it contains details such as business 
plans associated with the investment. To strengthen fraud risk 
management, we recommended that USCIS develop a fraud risk profile that 
aligns with leading practices identified in GAO's Fraud Risk 
Framework.\13\
---------------------------------------------------------------------------
    \12\ GAO-16-828.
    \13\ GAO-15-593SP.
---------------------------------------------------------------------------
    Question 6b. Given that USCIS has no immediate plans to move the 
supporting documentation to the ELIS system, what steps can USCIS take 
to ensure the manual review of these documents are adequately 
identifying fraud?
    Answer. To help ensure that the manual review of supporting 
documents adequately identifies fraud, USCIS should continue to take 
steps to address our prior recommendations.\14\ If effectively 
implemented, these recommendations should improve USCIS's ability to 
identify and prioritize fraud risks while also detecting fraud in the 
program. As previously noted, these include recommendations to:
---------------------------------------------------------------------------
    \14\ GAO-15-696, GAO-16-828.
---------------------------------------------------------------------------
    1. Plan and conduct regular future risk assessments of the EB-5 
        program.
    2. Develop a strategy to expand information collection, including 
        considering the increased use of interviews at the I-829 phase, 
        as well as requiring the additional reporting of information in 
        applicant and petitioner forms.
    3. Develop a fraud risk profile that aligns with leading practices 
        identified in GAO's Fraud Risk Framework. USCIS has concurred 
        with our recommendations and has told us that it is taking 
        steps to address them. We will continue to monitor its efforts 
        to do so.
    Question 7. To what extent does USCIS being fee-funded affect its 
openness to oversight? How has USCIS used its unobligated carryover 
balance to fund failing IT programs? What has been the cost to 
applicants based on USCIS's mismanagement?
    Answer. We have not previously evaluated how fee-funding affects 
USCIS's openness to oversight or how USCIS has used its unobligated 
carryover balance to fund failing IT programs. Likewise, we have not 
reported on the cost to applicants based on USCIS's mismanagement. 
However, we previously reported in 2015 that delays in deploying the 
Transformation Program have contributed to missed cost savings and a 
deferral of operational efficiencies and other benefits.\15\ Deferring 
operational efficiencies directly impacts applicants. For example, the 
Transformation Program is expected to implement organizational and 
business process changes to better use IT. According to USCIS, this 
increased use of IT should help achieve goals such as reducing the 
immigration benefit backlog through business process change; improving 
customer services through expanded electronic filing; and enhancing 
National security by authenticating users and integrating with external 
agency databases. Due to delays in the program, these improvements have 
yet to be achieved. Moreover, in December 2016, we reported on entities 
such as USCIS, where Congress has granted authority to collect and 
obligate funds, including fees, outside of the annual appropriations 
process and we examined how those entities facilitate oversight.\16\
---------------------------------------------------------------------------
    \15\ GAO-15-415.
    \16\ Permanent Funding Authorities: Some Selected Entities Should 
Review Financial Management, Oversight, and Transparency Policies, GAO-
17-59 (Washington, DC: Dec. 9, 2016).
---------------------------------------------------------------------------
  Questions From Ranking Member Bennie G. Thompson for Carol C. Harris
    Question 1. Ms. Harris, in the past USCIS has used carryover 
funding to support the Transformation Program. In fact, USCIS has 
estimated that the unobligated carryover balance for the premium-
processing fee could grow to $1.1 billion by fiscal year 2020, and the 
fee collections are expected to cover the Transformation initiative. 
Given the suspension of premium H-1B processing, what impact will this 
have on the Transformation Program? Is it possible the Program will 
experience additional delays?
    Answer. We have not assessed the H-1B contribution to total premium 
processing revenue. As a result, we do not know the impact that the 
suspension of premium H-1B processing will have on the Transformation 
Program, including additional delays. In July 2016, we reported that 
USCIS had collected approximately $467 million in premium processing 
revenue.\17\ USCIS estimated that the unobligated carryover balance for 
the premium processing fee could continue to grow to $1.1 billion by 
fiscal year 2020, as fee collections are expected to exceed 
Transformation Program funding requirements. USCIS reported in fiscal 
year 2015 that it had begun to reduce the growing balance by expanding 
the use of the premium fee collections to fund one-time infrastructure 
improvements that support adjudication services other than for the 
Transformation Program, such as its Financial Systems Modernization 
project. According to its spending plan from that same year, USCIS 
estimated that expanding the use of premium processing fee collections 
would result in an unobligated carryover balance for premium processing 
of about $341 million by the end of fiscal year 2020.
---------------------------------------------------------------------------
    \17\ GAO, DHS Management: Enhanced Oversight Could Better Ensure 
Programs Receiving Fees and Other Collections Use Funds Efficiently, 
GAO-16-443 (Washington, DC: July 21, 2016).
---------------------------------------------------------------------------
    Question 2. The USCIS Transformation Program is currently rated as 
a ``Medium Risk'' program on the Federal IT Dashboard. Do you believe 
this is the appropriate risk level given the concerns discussed today 
and the on-going effort to re-baseline the program?
    Answer. Given the current concerns, we do not view a rating of 
``medium-risk'' as being appropriate for the USCIS Transformation 
Program. Rather, the program should be rated as ``high-risk'' on the 
Federal IT Dashboard. In June 2016, we assessed 95 investments across 
the Federal Government, including the Transformation Program, and 
reported that many of them had underreported their risk level.\18\ More 
specifically, we reported that our assessments matched the Federal IT 
Dashboard ratings 22 times, showed more risk 60 times, and showed less 
risk 13 times. We noted that the Department of Homeland Security (DHS) 
had reported the program as ``medium-risk,'' but that our evaluation of 
the program showed that it should be classified as ``high-risk.'' In 
response, we recommended that DHS ensure that their ratings reflect the 
level of risk facing an investment relative to that investment's 
ability to accomplish its goals. As of April 2017, this recommendation 
is still open and the Transformation Program is still identified as a 
medium-risk program on the Federal IT Dashboard.
---------------------------------------------------------------------------
    \18\ GAO, IT Dashboard: Agencies Need to Fully Consider Risks When 
Rating Their Major Investments, GAO-16-494 (Washington, DC: June 2, 
2016).
---------------------------------------------------------------------------
    Question 3. Ms. Harris, in January 2017, President Trump instituted 
an immediate hiring freeze that affected a large portion of the 
Executive branch. The hiring freeze left room for a National security 
exemption but Secretary Kelly has stated that the exemption will not 
apply to DHS as a whole. What impact does a hiring freeze have on the 
progress of IT program modernization efforts, such as Transformation?
    In its 2017 High-Risk Update, GAO asserts that DHS needs to make 
additional progress in allocating resources in certain areas, such as 
staffing for acquisition and information technology positions. Would 
you agree that a hiring freeze could undoubtedly hinder this needed 
progress?
    Answer. We have not examined the effects of the 2017 Federal Hiring 
Freeze Executive Order on IT program modernization efforts or DHS's 
ability to assess and address whether appropriate numbers of trained 
acquisition personnel are in place at the Department and component 
levels. Likewise, we have not determined whether a hiring freeze will 
hinder the progress of DHS to allocate resources in certain areas.
    However, we have previously reported on the effects of Government-
wide hiring freezes, and found they are not an effective means of 
controlling Federal employment. In March 1982, we pointed out that, 
because Government-wide hiring freezes did not account for individual 
agencies' missions, workload, and staffing requirements, they disrupted 
agency operations and, in some cases, increased costs to the 
Government.\19\ Specifically, we found that because such hiring freezes 
disregarded agency workload requirements and did not cover all 
personnel resources used by the Government, they created an incentive 
for managers to use alternative sources of labor.
---------------------------------------------------------------------------
    \19\ GAO, Recent Government-Wide Hiring Freezes Prove Ineffective 
in Managing Federal Employment, FPCD-82-21 (Washington DC:, March 10, 
1982).
---------------------------------------------------------------------------
    Any potential savings produced by these freezes would be partially 
or completely offset by increasing overtime, contracting with private 
firms, or using other than full-time permanent employees. We concluded 
that improved workforce planning and use of the budget as a control on 
employment, rather than arbitrary across-the-board hiring freezes, is a 
more effective way to ensure that the level of personnel resources is 
consistent with program requirements.
    Question 4a. Ms. Harris, last month GAO released its High-Risk 
Update. In testimony before this subcommittee, your colleague at GAO 
indicated that DHS has fully addressed 3 key outcomes and mostly 
addressed another 3 outcomes in information technology management. 
While this is great improvement, programs such as the Transformation 
Program are still failing to meet important implementation targets. 
Please rationalize DHS's improvement in IT Management with the 
shortcomings of the Transformation Program.
    Answer. DHS has taken steps to establish basic IT management 
fundamentals, consistent with this high-risk area; nevertheless, it is 
still experiencing shortcomings with specific programs, as is the case 
with the Transformation Program. Over the past decade, as part of the 
DHS high-risk area, we have been tracking the Department's progress in 
improving its IT management functions. A key reason we included IT 
management as part of this high-risk area was because the Department 
lacked the basic fundamentals for IT management. The Department, among 
other things, had a weak enterprise architecture program (blueprint) 
and lacked critical practices for effective IT investment management.
    As we reported in February 2017, and as noted in your question, DHS 
had fully addressed three of the six IT management outcomes and had 
mostly addressed the remaining three. For example, in 2013, we reported 
that DHS had strengthened its enterprise architecture program to guide 
IT acquisitions and, thus, had fully addressed the related outcome 
area.\20\ Specifically, an independent assessment of the Department's 
enterprise architecture program showed that DHS had achieved stage four 
of our Enterprise Architecture Framework \21\ (that is, completing and 
using an enterprise architecture for targeted results). In 2015, we 
reported that DHS had completed and implemented a tiered governance and 
portfolio management structure for overseeing and managing its IT 
investments, and annually reviewed each of its portfolios and the 
associated investments to determine the most efficient allocation of 
resources within each of the portfolios.\22\ As such, we determined 
that the related outcome had been fully addressed.
---------------------------------------------------------------------------
    \20\ GAO, High-Risk Series: An Update, GAO-13-283 (Washington, DC: 
Feb. 14, 2013).
    \21\ GAO, Organizational Transformation: A Framework for Assessing 
and Improving Enterprise Architecture Management (Version 2.0) 
(Supersedes GAO-03-584G), GAO-10-846G (Washington, DC: Aug. 5, 2010).
    \22\ GAO, High-Risk Series: An Update, GAO-15-290 (Washington, DC: 
Feb 11, 2015).
---------------------------------------------------------------------------
    In addition, more recently, we reported that the DHS Chief 
Information Officer (CIO) had taken steps to improve the oversight and 
management of troubled investments.\23\ For example, the Office of the 
CIO conducts a Techstat review on troubled programs.\24\ The Office of 
the CIO has also created centers of excellence to help troubled 
programs, such as its IT Program/Project Manager Center of Excellence, 
which is a cross-functional team created to provide guidance and 
assistance in the management of IT programs and projects. As a result, 
we have found multiple previously-troubled investments improving their 
performance, such as U.S. Customs and Border Protection's Automated 
Commercial Environment and the Office of the CIO's Homeland Security 
Information Network.
---------------------------------------------------------------------------
    \23\ GAO, High-Risk Series: Progress on Many High-Risk Areas, While 
Substantial Efforts Needed on Others, GAO-17-317 (Washington, DC: Feb. 
15, 2017).
    \24\ A Techstat review is a face-to-face, evidence-based review of 
IT programs with DHS headquarters, component leadership, and the Office 
of Management and Budget, as appropriate.
---------------------------------------------------------------------------
    While DHS has taken these steps to establish basic IT management 
fundamentals, consistent with this high-risk area, there is still room 
for improvement. DHS is still experiencing problems with specific 
programs, as is the case with the USCIS Transformation and Human 
Resources IT Programs, but likely less frequently than it has in the 
past. We are continuing to work with the Department to ensure that our 
related recommendations to these troubled programs are implemented, and 
will continue to monitor DHS's progress in fully implementing the 
remaining high-risk IT outcomes.
    Question 4b. Based on your research, do you believe visibility on 
the program and its failures should be elevated higher, either to the 
USM or Secretary?
    Answer. The DHS under secretary for management currently has 
visibility into the Transformation Program, but we have not assessed 
whether elevating visibility to the Secretary would benefit the 
program. DHS's oversight of the Transformation Program is currently 
limited by a lack of reliable information being reported to existing 
governance and oversight entities. According to DHS's acquisition 
management process, the deputy secretary and under secretary for 
management serve as the acquisition decision authorities for the 
Department's largest acquisition programs, including for the 
Transformation Program. The Under Secretary for Management also serves 
as DHS's Chief Acquisition Officer and, in this role, is responsible 
for managing and overseeing the Department's acquisition policies and 
procedures. The Department's acquisition policy requires that the DHS 
Acquisition Review Board support the Under Secretary for Management by 
reviewing major acquisition programs for proper management, oversight, 
accountability, and alignment with the Department's strategic functions 
at key decision points and other meetings, as needed. In addition, in 
May 2012, the Under Secretary for Management chartered the Executive 
Steering Committee for the Transformation Program to help improve 
program governance. In contrast to the Acquisition Review Board, this 
committee assumed authority to oversee all aspects of the execution of 
the Transformation Program between key decision points.
    However, we reported in 2015 that governance bodies overseeing the 
Transformation Program and supporting the Under Secretary for 
Management were basing decisions on unreliable information. For 
example, in February 2014, the Acquisition Decision Authority approved 
a bridge contract for the solutions architect to, among other things, 
assist in developing a new architecture. However, operational 
requirements along with an integrated master schedule and cost 
estimates had not been approved to support this decision. To improve 
Transformation Program governance and oversight, we made four 
recommendations for the Secretary of DHS to direct to components within 
DHS. As of April 2017, based on the program's April 2015 re-baseline, 
the program had fully implemented our recommendation to re-baseline 
cost, schedule, and performance expectations for the remainder of the 
Transformation Program. Since closure of that recommendation, the 
program has exceeded its new schedule baseline and is again updating 
acquisition documentation. As of April 2017, DHS has not fully 
implemented the remaining three recommendations. Implementing these 
three outstanding recommendations should improve Transformation Program 
governance and oversight.
    Question 4c. What must DHS as a whole, and USCIS in particular, do 
to get this program on track?
    Answer. To help get the Transformation program on the right track, 
DHS should focus on addressing recommendations from our April 2015 
report.\25\ As previously discussed in earlier responses, we found that 
DHS's oversight of the Transformation Program was limited by a lack of 
reliable information being reported to existing governance and 
oversight entities. DHS has taken some steps to address our 
recommendations, such as approving a program re-baseline in April 2015. 
However, the Department still needs to take additional steps such as 
ensuring that two key governance bodies are effectively monitoring 
program performance and progress.
---------------------------------------------------------------------------
    \25\ [Sic.]
---------------------------------------------------------------------------
    In addition to the efforts of the Department, USCIS should address 
all the recommendations from our July 2016 report.\26\ We reported that 
the program faced challenges with adherence to best practices in Agile 
software development, systems integration and testing, and contract 
management. USCIS has taken some steps towards implementing our 
recommendations, such as conducting internal audits to improve 
management of Transformation Program contracts. However, USCIS, with 
assistance from the Department, still needs to ensure that the 
Transformation Program executes Agile software development for USCIS 
ELIS consistent with its own policies and guidance and follows 
applicable leading practices. The program should also conduct unit and 
integration tests, functional acceptance tests, and code inspection 
consistent with stated program goals.
---------------------------------------------------------------------------
    \26\ [Sic.]
---------------------------------------------------------------------------
    Fully implementing our recommendations will help to ensure that 
these investments receive necessary oversight and attention, and will 
help address the ineffective management that the Transformation Program 
has experienced to date.
    Question 5a. Ms. Harris, USCIS has made efforts to correct ELIS's 
technical deficiencies while concurrently developing system 
functionality for the program. This simultaneous activity has caused 
down times, instability, and interruption in processing. Based on your 
expertise in information technology programs, what are the effects of 
continuing to use a flawed system while trying to correct errors and 
failures at the same time?
    Answer. We have not specifically reported on the effect of 
continuing to use a flawed system while trying to correct errors and 
failures at the same time. However, there is risk associated with 
correcting errors while a system is in operation. This risk can be 
reduced if appropriate program management controls and oversight are in 
place. Nevertheless, as discussed in our responses, we have previously 
identified a number of concerns with both program management controls 
and Transformation Program oversight. We have made multiple 
recommendations to resolve these issues, some specifically targeting 
controls over systems integration and testing. If these recommendations 
are effectively implemented, USCIS will be better-positioned to rapidly 
address on-going and future technical defects found in deployed 
software, as well as to decrease the number of defects contained in 
future software releases.
    Question 5b. Given these effects, should USCIS continue using ELIS 
in its current state?
    Answer. Our work has not evaluated whether USCIS should continue 
using ELIS in its current state. However, senior governance bodies need 
accurate and reliable information in order to manage USCIS ELIS 
consistent with DHS's acquisition management process. DHS's Deputy 
Secretary and Under Secretary for Management serve as the acquisition 
decision authorities for the Department's largest acquisition programs 
and are empowered to make critical decisions, such as whether to 
continue or suspend program operations. To assist in overseeing 
programs, these decision authorities rely on supporting governance 
bodies such as the Acquisition Review Board and Executive Steering 
Committee.
    However, in 2015, we reported that governance bodies were making 
key programmatic decisions based on unreliable information. We reported 
that, until these governance bodies based their reviews of performance 
on timely, complete, and accurate data, they would be limited in their 
ability to make timely decisions and to provide effective oversight. 
This includes decisions such as whether to continue using USCIS ELIS in 
its current state. We made four recommendations to help improve 
Transformation Program governance and oversight.
    As of April 2017, based on the program's April 2015 re-baseline, 
the program had fully implemented our recommendation to re-baseline 
cost, schedule, and performance expectations for the remainder of the 
Transformation Program. However, since we closed that recommendation 
based on the program's April 2015 re-baseline, it has exceeded its new 
schedule baseline and is again updating its acquisition documentation. 
As of April 2017, DHS has not fully implemented the remaining three 
recommendations, which are primarily focused on ensuring that decision 
makers have reliable information to inform their key programmatic 
decisions. Implementing these three outstanding recommendations will 
help improve Transformation Program governance and oversight and help 
inform key decisions, such as decisions about whether to continue using 
USCIS ELIS in its current state.
    Question 5c. What functions of ELIS should be corrected before 
USCIS attempts to use the program again?
    Answer. Our work has not examined the specific functions of USCIS 
ELIS that require correction and, therefore, we cannot determine which 
of its functions should be corrected before USCIS attempts to use the 
program again. However, as discussed in my response to the prior 
question, it is critical for governance bodies to have accurate and 
complete information in order to effectively oversee the program. 
Having accurate and complete information would help ensure that 
decision makers are appropriately informed when making critical 
decisions, such as decisions regarding which functions of ELIS should 
be corrected before USCIS attempts to use the program again.
    Question 6a. Ms. Harris, the GAO High-Risk Update released last 
month asserts, ``DHS needs to take additional actions to improve its 
performance monitoring data and strengthen management of the 
Transformation Program.'' Otherwise, additional delays, functionality 
problems, and production issues are highly likely. Please describe how 
the Transformation Program has fallen short on executing program 
management best practices.
    Answer. In 2016, we reported on issues in the management of 
Transformation Program Agile software development, systems integration 
and testing, and contract management.\27\ We found that the program's 
software development approach deviated from key practices in part 
because USCIS policy and guidance were not being updated; the program 
was deploying software that had not been fully tested; and the program 
had mixed success in monitoring its contractors for the six contracts 
that we reviewed.
---------------------------------------------------------------------------
    \27\ GAO-16-467.
---------------------------------------------------------------------------
    Question 6b. What areas should the Department focus on to get the 
program on track in the most cost-effective and efficient manner, 
particularly as it relates to management?
    Answer. To help get the program on track in the most cost-effective 
and efficient manner, particularly as it relates to management, we 
recommend that USCIS promptly address our remaining outstanding 
recommendations associated with Agile software development and systems 
integration and testing. We made 12 recommendations to address the 
concerns we identified. As of April 2017, the program has fully 
addressed 3 of those 12 recommendations. If DHS and USCIS continue to 
move ahead without more fully addressing the issues we've identified, 
it continues to be at risk of spending significant time and money 
without being able to effectively realize the benefits that the system 
is intended to achieve.
    Question 7. Ms. Harris, agile software development calls for 
delivering software in small, short increments rather than in the 
typically long, sequential phases used in a traditional waterfall 
approach. Please explain the advantages and/or disadvantages to using 
the agile v. waterfall approach. Was it beneficial for the Department 
to change course after having already invested several million dollars 
in the Transformation Program?
    Answer. We have previously reported on some of the advantages in 
using an Agile, rather than waterfall approach to software 
development.\28\ In particular, we have reported that Agile software 
development is consistent with industry best practices and existing 
incremental development requirements. Our work has shown that, if 
performed effectively, this approach can provide more flexibility in 
responding to changing agency priorities, and allow for easier 
incorporation of emerging technologies and termination of poorly 
performing investments with fewer sunk costs.
---------------------------------------------------------------------------
    \28\ GAO, Information Technology: Agencies Need to Establish and 
Implement Incremental Development Policies, GAO-14-361 (Washington, DC: 
May 1, 2014).
---------------------------------------------------------------------------
    In 2012, we reported on differences between waterfall and Agile 
methods and the successes and challenges particular to Agile.\29\ The 
Agile approach differs in several ways from traditional waterfall 
software development, which produces a full software product at the end 
of a sequence of phases. For example, the two approaches differ in: (1) 
The timing and scope of software development and delivery, (2) the 
timing and scope of project planning, (3) project status evaluation, 
and (4) collaboration. However, we did not discuss the advantages and 
disadvantages of the two approaches.
---------------------------------------------------------------------------
    \29\ GAO, Software Development: Effective Practices and Federal 
Challenges in Applying Agile Methods, GAO-12-681 (Washington, DC: July 
27, 2012).
---------------------------------------------------------------------------
    We have not evaluated if it was beneficial for the Department to 
change course after having already invested several million dollars in 
the Transformation Program. However, in 2015, we reported that changes 
to the Transformation Program acquisition strategy, including a 
transition to Agile, had contributed to schedule delays.\30\ For 
example, the development and test environments stood up to support 
Agile development took longer than expected due to the complexity of 
the environments. Moreover, a bid protest of the flexible Agile 
development services contract required the program to adjust the 
schedule and extend the solution architecture contract, as well as the 
contract for another team to continue work until the protest was 
resolved. The schedule delays hampered the ability to realize cost 
savings and deferred operational efficiencies. For example, in fiscal 
year 2014, the total cost of maintaining systems that could have been 
decommissioned if ELIS had been fully operational was approximately $71 
million. Such costs continue to be incurred with delays in the program. 
Nevertheless, the program had also experienced issues when initially 
pursuing a more traditional approach to software development. For 
example, as part of the root-cause analysis to inform a Techstat 
review, the USCIS CIO noted that delays and cost overruns were partly 
the result of the solution architect delivering deficient software code 
and performing at an unacceptably low rate of productivity.
---------------------------------------------------------------------------
    \30\ GAO-15-415.
---------------------------------------------------------------------------
    In addition, in 2016, we reported that the Transformation Program 
had not established outcomes for Agile software development.\31\ In our 
prior work on effective Agile software development practices, we found 
that a key practice for the successful adoption of Agile software 
development is to identify measurable outcomes, not outputs, of what 
the program wants to achieve using the approach.\32\ An example of this 
practice is creating a vision for project outcomes (such as a decrease 
in processing time by a specific percent in a set time), rather than 
outputs (such as the amount of code produced). However, the 
Transformation Program had not defined or set goals for the transition 
to Agile software development. Without a sense for the goals and 
expected outcomes for Agile software development, the program would not 
be able to monitor progress. We recommended that the Department 
establish outcomes for Agile software development. However, as of April 
2017, USCIS has not yet demonstrated that it has established such 
outcomes.
---------------------------------------------------------------------------
    \31\ GAO-16-467.
    \32\ GAO-12-681.
---------------------------------------------------------------------------
    Question 8. Ms. Harris, as you know, technical debt is a concept in 
programing where code that is easy to implement in the short run is 
used instead of applying a best overall solution in the long run. 
Overall, a company or agency should spend 10-20% of time fixing errors 
associated with programs and lowing technical debt costs. However, it 
appears that USCIS continues to use the ELIS system without addressing 
long-term issues with the program. Based on your review of the 
Transformation Program, has USCIS accumulated technical debt? If so, is 
USCIS addressing the technical debt?
    Answer. We have not previously assessed technical debt either 
generally or as part of our review of the Transformation Program. 
However, in 2016 we reported on concerns with the overall performance 
of USCIS ELIS.\33\ Specifically, we found that issues in systems 
integration and testing increased program risk of poor system 
performance after release to the public. We noted that the risk was of 
particular concern due to system performance issues that were already 
realized. To address deficiencies in systems integration and testing, 
we recommended that USCIS review and update existing policies and 
guidance and consider additional controls for unit, integration, and 
functional acceptance testing, and code inspection consistent with 
stated program goals. We also recommended developing complete test 
plans and cases for interoperability and end-user testing, as defined 
in the program's test and evaluation master plan, and document the 
results.
---------------------------------------------------------------------------
    \33\ GAO-16-467.
---------------------------------------------------------------------------
    In following up on the agency's actions to address our open 
recommendations, we have obtained information from USCIS that describes 
some steps it is taking to manage technical debt. In an updated breach 
remediation plan for the Transformation Program, USCIS cited technical 
team capacity for remediating technical debt as one of the root causes 
for its recent schedule breach. To address the matter, USCIS reported 
in its breach remediation plan that it planned to halt all new work and 
focus on improving the product lines that were already built. According 
to the plan, the agency anticipated this action would allow the program 
to focus temporarily on remediating technical debt. USCIS also intended 
to begin initiatives to increase ELIS availability and performance, as 
well as the quality and consistency of its testing processes. The 
agency anticipated that this additional action would also address 
technical debt.
    Question 9. The DHS Inspector General has written about many 
troublesome operational issues associated with the Electronic 
Immigration System (ELIS). For example, in his January 2017 Management 
Alert, he identified a range of ELIS technical and functional issues 
that have slowed processing and productivity. These included missing 
core ELIS functionality, naturalization cases stuck in ELIS workflows, 
and ELIS's failure to connect with supporting systems. What have you 
found in your work at GAO that might help us understand why the program 
is experiencing these kinds of issues?
    Answer. The technical and operational issues reported by the DHS 
Inspector General are consistent with the kinds of issues that we would 
expect to see given our findings related to ELIS software development 
and integration and testing. For example, with respect to software 
development, in July 2016 we reported that metrics intended to 
demonstrate if the scope of each software release was consistent with 
plans were not fully traceable back to intended functionality, which 
increased the risk of gaps between intended functionality and 
functionality actually developed for ELIS.
    In addition, with respect to testing and integration, in July 2016, 
we reported on issues such as lack of adequate code coverage, lack of 
evidence that system integration testing was occurring regularly, and 
that the program had not developed plans or test cases showing that 
live interface testing had occurred consistent with its Test and 
Evaluation Master Plan.\34\ The program provided some results for live 
interface testing, so some testing was occurring, but it was not 
occurring consistent with the program's test plans and we were not able 
to make a determination on the extent to which this less formal testing 
occurred.
---------------------------------------------------------------------------
    \34\ U.S. Citizenship and Immigration Services, USCIS Test and 
Evaluation Master Plan: Electronic Immigration System, version 1.0.
---------------------------------------------------------------------------
    We also reported in July 2016 that, until the program fully 
addressed the key practices for systems integration and testing by 
ensuring the consistent implementation of policy, procedures, and 
guidance that aligns with leading practices, it risks poor system 
performance after it has been released to the public. This risk was of 
particular concern due to system performance issues that had already 
been realized. Specifically, the program reported experiencing issues 
with USCIS ELIS as a result of deploying software that had not been 
fully tested. For example, on September 24, 2015, USCIS ELIS 
encountered issues that impacted nearly 5,000 cases. Approximately 
2,600 of these cases had to be abandoned. In February 2016, the program 
reported missing the threshold for USCIS ELIS reliability (e.g. mean 
time between failure), for 2 straight months and 4 of the last 6 
months. In March 2016, program metrics indicated that production 
tickets had increased faster than they could be addressed.
           Questions From Chairman Scott Perry for John Roth
    Question 1. What are some of the biggest concerns and risks with 
USCIS being unable to readily share immigration information with 
Federal partners?
    Answer. Providing electronic capabilities for immigration benefits 
processing is critical to enable timely and accurate sharing of 
immigration data with DHS partners once immigration benefits, such as 
citizenship, have been granted. Within DHS, several components such as 
Immigration and Customs Enforcement (ICE) and Customs and Border 
Protection (CPB) use USCIS's applicant information to grant admission 
into the United States, or track visa overstays. However, until USCIS 
can achieve electronic processing for all immigration benefit types, 
these components must conduct additional research involving cross-
checks with other USCIS systems to confirm immigration status. These 
delays may result in individuals being wrongfully refused entry into 
the United States, or incorrectly classified as visa overstays.
    Question 2. To what extent does USCIS being fee-funded affect its 
openness to oversight? How has USCIS used its unobligated carryover 
balance to fund failing IT programs? What has been the cost to 
applicants based on USCIS's mismanagement?
    Answer. To the extent that USCIS is fee-funded, USCIS's programs 
may be less scrutinized compared to Federally-funded programs or 
investments, as oversight entities may have less insight into, and 
taxpayers may have less immediate concern regarding, how program 
dollars are spent. Nevertheless, USCIS's mismanagement has had a 
negative impact on members of the public. For instance, approved 
applicants have been delayed in receiving benefits to which they are 
entitled, and may even pay multiple fees for a single benefit (due to 
slow processing and/or benefit documents being mailed to incorrect 
addresses).
    I cannot comment on USCIS's use of its unobligated carryover 
balance to fund failing IT programs as our office has not done work on 
that particular issue.
     Questions From Ranking Member Bennie G. Thompson for John Roth
    Question 1. Mr. Roth, since 2005, the DHS Inspector General Office 
has issued five audit reports on multiple USCIS IT modernization 
attempts that were hampered by repeated delays and scope reductions. 
During your time as Inspector General, what patterns have you observed 
that may help explain why the program is still experiencing issues?
    What improvements, particularly as it relates to management, do you 
feel would assist in the program's performance?
    Answer. We have reported over the past 11 years that USCIS has 
struggled to transform its paper-based processes into an integrated and 
automated immigration benefits processing environment. Long-standing 
program management deficiencies have been central to USCIS's continued 
lack of progress. Historically, its automation attempts have been 
hampered by ineffective planning, multiple changes in direction, and 
inconsistent stakeholder involvement. Current program efforts are no 
different, as the agency continues to encounter automation challenges, 
additional delays, and the need to repeatedly reduce the scope of 
Transformation. Because the program has been primarily schedule-driven, 
deployments of each product line have not been properly managed to 
ensure adequate testing is completed prior to each release. Poor 
program management practices have also included a lack of stakeholder 
communication and involvement, as necessary field personnel or end-
users are not included in decisions that have significant impact on 
field operations. Likewise, failure to provide sufficient technical 
support has been a long-standing pattern, as each product line has been 
implemented without a plan for providing proactive technical support to 
end-users.
    We recommend that USCIS improve stakeholder involvement, implement 
adequate performance metrics, fully test each system release, and 
provide technical support to help ensure the effectiveness of its 
efforts to automate immigration benefits processing. These four 
recommendations, issued in our March 9, 2016 report (OIG-16-48),\1\ 
remain open at this time.
---------------------------------------------------------------------------
    \1\ USCIS Automation of Immigration Benefits Processing Remains 
Ineffective, OIG-16-68 (March 2016).
---------------------------------------------------------------------------
    Question 2a. Mr. Roth, according to your March 2016 report ELIS has 
also had a negative impact on customer service at multiple U.S. ports 
of entry, where customers were detained for up to a day while waiting 
for verification of their permanent residence status. This problem 
increased as more customers filed electronic ``Applications to Replace 
Permanent Resident Cards'' in ELIS because CBP Officers at U.S. ports 
of entry lacked direct access to ELIS to validate ELIS receipt numbers. 
To the best of your knowledge, has USCIS addressed the delayed waits at 
ports of entry due to ELIS errors?
    In addition, has CBP been granted proper access and training for 
the ELIS system?
    Question 2b. What policies should USCIS consider implementing to 
ensure this sort of error does not continue in the future?
    Answer. USCIS's applicant information is needed to complete 
inspections and to determine traveler admissibility prior to allowing 
entry into the United States. If CBP Officers at U.S. ports of entry 
are unable to verify information, such as receipt numbers in ELIS, 
there is a high likelihood that passengers will be refused entry into 
the country. At this time, any passenger with an ELIS receipt number 
will experience increased entry delays due to the additional research 
needed to cross-check other systems, or call DHS personnel with ELIS 
access to get information. Every delay also increases the wait time for 
each passenger in Passport Control Secondary screening.
    To the best of my knowledge, CBP has not been granted any access to 
ELIS or received any training on the ELIS system. We recommend USCIS 
review and update applicable policies and operating procedures to 
ensure CBP Officers at U.S. ports of entry have read-only access to 
ELIS. This will help ensure that customers are not delayed or detained 
unnecessarily.
    Question 3a. Mr. Roth, in your January 2017 management alert, you 
recommend that USCIS halt plans to revert back to the ELIS processing 
system and instead continue using the legacy ``Computer Linked 
Application Information Management System.'' Do you have any concerns 
with USCIS continuing to use the legacy system to process immigration 
applications instead of the ELIS system, particularly as it relates to 
applicant vetting?
    Is the legacy system capable of fulfilling USCIS's application and 
processing needs?
    Question 3b. If USCIS completes the recommended improvements in 
your management alert, do you have any concerns with ELIS as it relates 
to applicant vetting?
    Answer. My office has not received any indication that immigrant 
vetting through the legacy system has failed to provide accurate 
security checks. We have received anecdotal evidence that, with 
upgrades, the legacy system could fulfill USCIS's existing application 
workload and processing needs. However, it is unknown whether legacy 
systems can fully support or adapt to changes in legislation related to 
immigrant eligibility that may increase workloads. It is also unknown 
how legacy systems could be updated to provide more sophisticated 
account-based and electronic filing functionality, which are needed to 
improve operational efficiency and immigration benefits delivery.
    At this point we have not received evidence that ELIS can 
consistently or accurately vet applicants. Numerous failures have 
occurred at critical stages in the background check process, both prior 
to adjudication and after adjudication. The failures include problems 
with ELIS connectivity and coding. For instance, during the 
preprocessing stage, the ELIS system sent background check requests to 
CBP's TECS system. However, the system connection was failing and 
erroneously sending false positive results back to USCIS when the 
checks were not actually run. Also, FBI name checks failed to run 
correctly for all applicants due to a coding error that caused certain 
letters of an individual's name to be dropped. Similar problems 
occurred following application adjudication, when final background 
checks failed due to technical errors just prior to Naturalization 
ceremonies.
    The USCIS Chief Information Officer is currently working to address 
the root causes for each of these failures. We have been assured that 
these fixes will result in a reliable and fully functioning automated 
applicant vetting process. Once these fixes are implemented, we will 
closely monitor the progress and effectiveness of the improvements.
    Question 4a. Mr. Roth, has USCIS responded to your management alert 
advising against using the ELIS system until certain minimal 
requirements are met? If so, have the minimal requirements outlined in 
your report been completed, according to USCIS?
    You have outlined a range of concerns with the ELIS system, 
including green card issuance errors, inadequate system training, and 
inconsistent agency response efforts. What do you believe is the 
primary reason behind the shortcomings of the Transformation Program?
    Question 4b. What impact, if any, did changes in strategy in 2012 
have on the implementation of the Transformation Program?
    Question 4c. Do you believe the Transformation Program should 
institute any additional changes, either in strategy, acquisition 
planning, and/or other areas?
    Answer. Yes, we received a response from USCIS on January 27, 2017, 
concurring with our recommendations. USCIS is currently working to 
address all of the issues listed in our Management Alert. To date, we 
have not received evidence that the minimal improvements have been made 
to satisfy the intent of our recommendations.
    Even if USCIS addresses the specific recommendations made in the 
Management Alert, those recommendations relate solely to processing 
naturalization applications (Form N-400) in ELIS. As your question 
notes, and as our prior work demonstrates, there are a host of issues 
plaguing the ELIS system across the full range of benefit types. We 
have reported over the past 11 years that USCIS has struggled to 
transform its paper-based processes into an integrated and automated 
immigration benefits processing environment. Historically, these 
automation attempts have been hampered by ineffective planning, 
multiple changes in direction, and inconsistent stakeholder 
involvement. Current program efforts are no different, as USCIS 
continues to encounter automation challenges, additional delays, and 
the need to repeatedly reduce the scope of Transformation.
    The lack of Transformation Program and the system performance 
problems can be attributed to the same deficiencies we previously 
reported regarding poor program management. Specifically, USCIS has not 
ensured sufficient stakeholder involvement in system implementation 
activities and decisions for meeting operational needs; system testing 
has not been adequate to ensure end-to-end functionality prior to each 
ELIS release; and USCIS has not provided adequate post-implementation 
technical support for system end-users.
    Additionally, we found that the changes in 2012 had no effect on 
USCIS's ability to successfully transition to electronic processing via 
ELIS. One prevalent issue prior to 2012--the complexity of the ELIS 
architecture--continues to be the most critical impediment to progress. 
Specifically, complex interfaces and interdependencies in the 
architecture resulted in repeated system outages and slow processing 
speed. The changes relating to the system acquisition strategy and 
development methodology have also had no impact on the long-standing 
program management challenges we have reported over the last 11 years, 
including a systemic lack of stakeholder involvement, a lack of 
technical support, inadequate testing, and inability to measure the 
operational impact of electronic processing as it is implemented.
    Until USCIS addresses its long-standing program management 
deficiencies, progress will be hampered. Addressing our previous 
recommendations to improve stakeholder involvement, implement 
performance metrics, fully test each system release, and provide 
technical support to help end-users is critical for USCIS to progress 
in its efforts to automate immigration benefits processing.
    Question 5. Mr. Roth, you have suggested a range of areas that ELIS 
must improve upon, including better contingency planning to ensure 
continuity of operations during outages, improved case management to 
ensure that the ELIS system contains all necessary and up-to-date 
records, and enhanced efforts to address issues caused by ELIS. These 
improvements will undoubtedly take additional time and training of the 
workforce. What are the possible implications that a hiring freeze may 
have on the improvement of ELIS?
    DHS officials met with subcommittee staff last week and 
acknowledged that certain hires needed for the Transformation Program 
would not fall under the National security exemption of the hiring 
freeze. Please explain to the committee how inadequate staffing impacts 
IT modernization efforts, such as the Transformation Program, 
particularly as it relates to cost, schedule, and performance.
    Answer. We have never identified inadequate staffing as a root 
cause for Transformation challenges or delays. Due to the nature of its 
fee-funded structure, the program previously reported it had the 
ability to expand as needed through additional FTEs, USCIS employee 
details, or contract staff.
    Question 6. Recruiting new Federal employees and ensuring that 
existing personnel receive the right training and have the right tools 
to make use of new technologies needs to be at the forefront of the IT 
workforce efforts. How will progress with the Transformation Program, 
particularly as it relates to the workforce, be impacted by 
administration priorities and initiatives, such as the hiring freeze 
and elimination of H-1B visa premium processing?
    Given the additional checks that must be completed manually due to 
system errors, additional training needed for the complex system, and 
additional testing of the system, does USCIS have the available 
resources to get the Transformation Program on track?
    Answer. Again, we have never identified inadequate staffing as a 
root cause for Transformation challenges or delays. However, ELIS 
implementations over the past year have resulted in significant burdens 
on agency field and service center personnel. The time and effort 
associated with performing additional manual checks due to failed or 
inaccurate background checks and other system errors were not required 
prior to ELIS deployment. The agency also has faced increasing burdens 
from green cards issued in error or mis-delivered since the 
implementation of ELIS. Because of such ELIS-related inefficiencies, 
additional demands are now levied on USCIS personnel outside their 
normal duties, which are counter to the transformation objective of 
achieving a more efficient and effective electronic processing 
environment. These inefficiencies have also resulted in additional 
unanticipated costs to the agency and delays in immigration benefits 
delivery. Additional staff resources may help to alleviate these 
burdens, but only in the short term, and they do not address root 
causes of the problems.
    Question 7. Mr. Roth, in your March 2016 report on the 
Transformation Program, USCIS only concurred with two of the four 
recommendations, not agreeing to ensure adequate communications and 
stakeholder involvement throughout system developing and not agreeing 
to develop and implement a plan to provide adequate support for 
addressing system issues. What do you believe the impacts will be to 
the Transformation Program given USCIS decision to not follow these 
recommendations?
    Answer. Despite initially non-concurring, the acting director of 
USCIS issued a revised response on October 18, 2016 concurring with 
those two recommendations. However, USCIS has not yet provided evidence 
to demonstrate improvements in stakeholder communications and 
involvement, or in providing adequate support to address system issues. 
At this time, all four report recommendations remain open, but resolved 
pending corrective actions. Until USCIS addresses these long-standing 
issues, it will be unable to ensure a successful transition to 
electronic processing.
    Question 8. Mr. Roth, given the nature and importance of the 
Transformation Program investment, based on your investigations, what 
effect do you believe this investment's non-performance will have on 
the capabilities and mission of the Department of Homeland Security as 
a whole?
    Is the Transformation Program a wise investment given only 2 of 
approximately 90 types of immigration benefits and services are 
available for on-line customer filing?
    Answer. The issues with ELIS identified in our work have far-
reaching implications. Of greatest concern is the risk to National 
security. Until USCIS can ensure ELIS is performing complete and 
accurate background security checks prior to approving applicants for 
U.S. Citizenship, improperly-vetted immigrants may be granted 
admissibility into the United States. Additionally, until USCIS 
remedies the issues that resulted in the delivery of green cards to the 
wrong address, there is a risk that green cards may fall into the wrong 
hands. Separate from National security concerns, until USCIS can share 
relevant and timely data with its stakeholders such as CBP, any 
passenger with an ELIS receipt number will experience increased delays 
while border agents cross check other systems and conduct the 
additional research needed to confirm U.S. Citizenship status. Further, 
until USCIS fully implements ELIS, the agency will not be in a position 
to effectively and efficiently manage existing workloads, or adapt to 
changes in legislation related to immigrant admissibility that may 
increase workloads.
    The Transformation Program has not yet been able to successfully 
transition USCIS from paper to electronic processing. The core premise 
of the ELIS system was to deliver an efficient, account-based system to 
process and manage all 90 applications and services. To date, the 
Transformation Program has ingested four immigration benefit types and 
one service into ELIS for electronic processing;\2\ however, the I-90 
Application to Replace a Permanent Resident Card is the only benefit 
application that can be submitted by a customer on-line. We have 
consistently reported over the past 11 years that the Transformation 
Program has not been able to achieve any of its three primary goals, 
which were to improve customer service, increase operational efficiency 
of immigration benefits processing, and ensure National security and 
system integrity. On the contrary, our findings to date have concluded 
that ELIS has negatively impacted each of these three areas and created 
notable National security risk.
---------------------------------------------------------------------------
    \2\ USCIS Immigrant Fee payment, Form I-90 Application to Replace a 
Permanent Resident Card, Temporary Protected Status, Deferred Action 
for Childhood Arrivals, Form N-400 Application for Naturalization.
---------------------------------------------------------------------------
    Question 9. The USCIS Transformation Program is currently rated as 
a ``Medium-Risk'' program on the Federal IT Dashboard. Do you believe 
this is the appropriate risk level given the concerns discussed today 
and the on-going effort to re-baseline the program?
    Answer. We disagree with the USCIS Transformation Program's current 
Chief Information Officer (CIO) rating of ``Medium-Risk'' on the 
Federal IT Dashboard. Over the past year or more, the program has 
experienced numerous delays, performance issues, and a substantial lack 
of internal controls. Specifically, our reports identified alarming 
security concerns regarding errors in processing and issuing green 
cards to applicants. We also disclosed inadequate security checks that 
led to applicants being granted citizenship without complete or 
accurate background checks. Because of the problems encountered, USCIS 
decided in August 2016 to revert to legacy processing and discontinue 
using ELIS to process new naturalization applications.
    Of additional concern, DHS has not followed its own Program Health 
Assessment (PHA) process for the USCIS Transformation Program in terms 
of the frequency of CIO ratings. Specifically, the program should have 
been rated or assessed every quarter (3 months) based on its ``Medium-
Risk'' ratings. The last three CIO ratings were August 31, 2016, 
January 29, 2016, and July 31, 2015; which reflect approximately 7- and 
6-month gaps between the CIO ratings, respectively. DHS's failure to 
execute its own PHA process raises additional concerns as to the 
accuracy and timeliness of the CIO ratings themselves.
    Related to this, a June 2016 Government Accountability Office (GAO) 
report criticized the level of risk reflected in the Department's CIO 
ratings. Specifically, GAO performed independent risk assessments on 
seven of the Departments' major IT investments, including the USCIS 
Transformation Program. GAO reported that the April 2015 CIO rating of 
the program on the IT Dashboard did not reflect the level of risk 
facing the investments. GAO concluded the program should have reflected 
more risk and been rated ``High-Risk'' on the IT Dashboard for that 
month. GAO recommended that the CIO ensure the Department's CIO ratings 
reflect the level of risk facing an investment relative to the 
investment's ability to accomplish its goals. In its written comments, 
DHS concurred with this recommendation; however, as of April 6, 2017, 
the status of this recommendation was still open. Until these issues 
are addressed, we believe the accuracy of the Department's CIO ratings 
on the Federal IT Dashboard should be scrutinized.

                                 <all>
</pre></body></html>
